<html>
<title> - POTENTIAL FOR MARRIAGE DEVELOPMENT ACCOUNTS IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 109-254]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-254
 
POTENTIAL FOR MARRIAGE DEVELOPMENT ACCOUNTS IN THE DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    OCTOBER 6, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                    U.S. GOVERNMENT PRINTING OFFICE
24-939                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                    SAM BROWNBACK, Kansas, Chairman
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia (ex 
    officio)                             officio)
                           Professional Staff

                             Mary Dietrich
                             Emily Brunini
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Sam Brownback.......................     1
Statement of Eleanor Holmes Norton, Delegate for the District of 
  Columbia, U.S. House of Representatives........................     6
    Prepared Statement...........................................    11
Statement of Ron Haskins, Senior Fellow, Brookings Institution, 
  Washington, DC.................................................    21
    Prepared Statement...........................................    24
Statement of Dr. Malcolm Smith, Director of Operations, Center 
  for Fathers, Families and Workforce Development, Baltimore, MD.    32
    Prepared Statement...........................................    34
Statement of Dr. W. Bradford Wilcox, Assistant Professor of 
  Sociology, University of Virginia, Charlottesville, VA.........    35
    Prepared Statement...........................................    37
Statement of Rev. Thabiti Anyabwile, Assistant Pastor for 
  Families and Children, Capitol Hill Baptist Church, Washington, 
  DC.............................................................    40
    Prepared Statement...........................................    42
Statement of Colleen Dailey, Executive Director, Capital Area 
  Asset Building Corporation, Washington, DC.....................    51
    Prepared Statement...........................................    53
Statement of George R. Williams, Executive Director, Urban 
  Father-Child Partnership, National Center for Fathering, Kansas 
  City, MO.......................................................    55
    Prepared Statement...........................................    57
Statement of Curtis Watkins, President, East Capitol Center for 
  Change, Washington, DC.........................................    58
    Prepared Statement...........................................    61
Statement of Winston Graham......................................    64
Accompanied by Saundra Corley....................................    64
Prepared Statement of Saundra Corley and Winston Graham..........    67
Prepared Statement of Senator Wayne Allard.......................    70
Letter From Legal Momentum.......................................    71
Prepared Statement of the Corporation for Enterprise Development.    72


POTENTIAL FOR MARRIAGE DEVELOPMENT ACCOUNTS IN THE DISTRICT OF COLUMBIA

                              ----------                              


                       THURSDAY, OCTOBER 6, 2005

                               U.S. Senate,
          Subcommittee on the District of Columbia,
                               Committee on Appropriations,
                                                     Washington DC.
    The subcommittee met at 10:32 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman) 
presiding.
    Present: Senator Brownback.


               OPENING STATEMENT OF SENATOR SAM BROWNBACK


    Senator Brownback. The hearing will come to order. Good 
morning everybody. I'm delighted to have you here. Delegate 
Norton, it's always a pleasure to see you, I look forward to 
hearing your testimony.
    We're convening this hearing to discuss the decline in 
marriage and the increase of out of wedlock birth rates in the 
District of Columbia. We will discuss ways to promote and 
encourage healthy marriage, including the potential for 
marriage development accounts which we have proposed in the 
fiscal year 2006 D.C. appropriations bill, which I hope we will 
be able to pass in the Senate in a couple of weeks.
    Every year, almost 57 percent of all babies born in the 
District are born to single parents. Nationally, over one-third 
of all babies are born to single parents. This compares to only 
5.3 percent in 1960. And I have a chart over here to my left, 
your right, showing some of these trend lines that have taken 
place in the overall birthrates in the United States to single 
parents.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Clearly, this is a growing crisis, and it requires our 
focused attention. Children who are raised without the nurture 
and the care of both parents, can and too often do, suffer in 
many ways. Statistics show that children born to single mothers 
are seven times more likely to be poor than those born to 
married parents. I've got a chart on that as well.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And 80 percent of long-term child poverty occurs in broken 
or never married families. Marriage has an enormous potential 
to reduce poverty among couples who are unmarried at the time 
of their child's birth. Children born and raised in households 
where their mothers and fathers are married tend to be more 
financially stable and more emotionally secure.
    I do want to state as well, and at the outset of this that 
a child can be raised well in a single parent household. Nobody 
disagrees with that, and that is certainly accurate. What I'm 
pointing out here is the overall statistics of children born in 
single parent households bodes poorly, statistically, for that 
child.
    And if there is anything that we can do to discourage that 
setting and encourage a setting where children are born in an 
intact family of a mother and a father, that's to the benefit 
of the child. Statistics tell a compelling story of the many 
positive benefits that accrue to children if they are raised by 
their married parents.
    For example, children raised in married families are 3 
times less likely to repeat a grade in school, 5 times less 
likely to have behavioral problems, half as likely to be 
depressed, 3 times less likely to use illicit drugs, half as 
likely to become sexually active as teenagers, and listen to 
this one, 14 times less likely to suffer abuse from their 
parents. Again, we have a chart on that particular setting.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Clearly, this is to the overarching benefit of the child. 
Certainly and again, I want to repeat this, there are many 
single mothers who are heroically and successfully raising 
children on their own. They deserve our respect and support. 
But it is also indisputable that a father and a mother in a 
healthy marriage provide the best environment in which to raise 
healthy children.
    As a society, we should strive to foster what is the very 
best for our children. Although our primary concern is the 
benefits that marriage accrues to children, adults also benefit 
from marriage. Extensive research shows that married adults 
tend to be happier, are more productive on the job, earn more, 
have better physical and mental health and live longer than 
their unmarried counterparts.
    Mothers who are married are half as likely to suffer from 
domestic violence as are never married mothers. In addition, 
the growth of the single parent families has had an enormous 
financial impact on our society at large. Some three-quarters 
or 75 percent of the aid to children, given through programs 
such as food stamps, Medicaid, public housing, temporary 
assistance to needy families and the earned income tax credit, 
goes to single parent families.
    Each year the Government spends over $150 billion in means 
tested welfare aid, generally for single parents. The financial 
cost can be calculated, but the emotional cost, the emotional 
cost to our families, to the communities, to the Nation cannot 
be calculated and threatens to extend for future generations.
    I believe that improving a couple's financial stability can 
help sustain a healthy marriage. As a way to assist low income 
married couples gain appreciable assets, this subcommittee has 
introduced legislation that will establish marriage development 
accounts (MDA). What we are referring to as MDAs for the 
District of Columbia, and as far as we know, for the first time 
in the Nation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    MDAs will be available to low income married couples who 
are citizens or legal residents of the District and who have 
very low net worth. I've got a chart over to the side, 
picturing how this would actually work. Couples may save money 
to buy a home, to pay for job training or education or start 
their own businesses. Couples will have a high incentive to 
save because their contribution will be matched at a ratio of 
3:1 by the Federal Government and partnering private 
institutions.
    As a requirement of participation, couples will receive 
training that helps them repair their credit, set a budget, a 
savings schedule and manage their money. They will also receive 
bonuses in their MDA accounts for receiving marriage 
counseling. Recognizing the importance of grassroots support to 
ensure the success of these efforts, this subcommittee is 
directing grantees to expand their network of service providers 
by partnering with local churches, faith-based organizations 
and nonprofit organizations, to provide mentoring, couples 
counseling and community outreach.
    Today, I'm interested to hear thoughts about this proposal 
from our expert witnesses. I believe that we must act quickly 
to stop the further erosion of marriage in our Nation. We 
cannot just watch and wring our hands. We must act aggressively 
and use as many innovative approaches as possible. Our future 
is at stake, and the children's future is at stake.
    I'm delighted that we have a number of expert witnesses to 
testify. I'm also very pleased that our first witness is the 
Honorable Eleanor Holmes Norton, Delegate for the District of 
Columbia. We've often worked together on issues regarding the 
District of Columbia, I know Delegate Norton to be an 
outstanding advocate for the District of Columbia in many and 
varied fields. She does an excellent job. We certainly share a 
deep concern for families and children here in the District of 
Columbia and throughout the Nation. I am pleased she could join 
us this morning.
    As usual, we would ask the witnesses, if they could, to 
observe the time limit on their remarks. Their full written 
statement will be entered into the record. We would like to 
have some time afterwards to be able to ask questions.
    The hearing is really multiple fold. One is, this is an 
issue that will come up in the D.C. appropriations bill in the 
next couple of weeks and so I do want to establish some form of 
record.
    The second is, is that people across the Nation are looking 
at this as a way to go to encourage marriage. Not requiring it, 
but encouraging it. And so, we need to establish a form and a 
record here to say, ``How do the experts look at this? What are 
the advantages, what are the disadvantages, what are the 
potential pitfalls to this?'' So that we can try to structure 
it to be the most successful possible.
    With that, Eleanor, I am very pleased to see you again and 
look forward to your testimony.

STATEMENT OF ELEANOR HOLMES NORTON, DELEGATE FOR THE 
            DISTRICT OF COLUMBIA, U.S. HOUSE OF 
            REPRESENTATIVES
    Ms. Norton. Thank you very much, Mr. Chairman. I'm inclined 
to say until we meet again and we've met again. I remember your 
extraordinary service when the District was really down and the 
valuable assistance you gave us in getting the tax incentives 
which have been very instrumental in bringing the city back up 
and now we meet again.
    This time, not in your former life as chair on the 
authorizing committee, but here, as Chair of the D.C. 
Appropriations Subcommittee. So I begin by thanking you for 
your very valuable work on that subcommittee, for your 
principled respect for the city's right to self-government and 
in that respect, you are following in the traditions set by 
your predecessors who had chaired the subcommittee.
    May I also say, Mr. Chairman, that I appreciate your 
willingness to have a hearing on the proposal for high school 
attendance, using federally funded vouchers. Before that 
proposal is made, before that proposal moves forward, it is 
opposed by all our city officials and by most D.C. residents.
    Mayor Williams will be talking with you about that, but 
he's asked me to tell you that he supports you on the marriage 
development account proposal and that he will be calling you 
concerning a whole new issue of importance in the city's 
upcoming D.C. appropriation that you have just mentioned.
    I am pleased to offer my views on the voluntary, 100 
percent federally supported or federally funded MDAs as you 
call them. Mr. Chairman, I indicated my skepticism because I 
think we ought to confront issues head on, that there is some 
skepticism about how the proposal that is identified as a 
marriage proposal coming from a Republican Senator to the 
District of Columbia.
    So, I asked myself, ``Well what are the reasons for those 
concerns?'' And I believe they amount to about six. The fact of 
Government action outside of its traditional public sphere of 
interest. Federal funds specifically for marriage, a private 
even intimate institution, the necessity of some partners to 
end a marriage, particularly when there is emotional or 
physical abuse, competition for prudent use of scarce public 
resources, for proven strategies, the political or ideological 
use of the issue of marriage in some quarters, and of course, 
the long and existing racial sensitivity of African-Americans 
about family matters considering the wounds to black family 
life from societal racism and official governmental policies 
alike.
    Notwithstanding the questions about this proposal, I am 
convinced the issues that I have just named are not implicated, 
these concerns are not implicated in your proposal, and that 
your proposal has considerable promise.
    I'd like to devote the few minutes I have, I'm due at a--as 
ranking member of a hearing on FEMA shortly. I'd like to devote 
my time to matters--essentially, why I think Federal Government 
action is warranted and why I believe your proposal, in 
particular, is an appropriate step.
    I think people should put aside marriage and what they 
think about the institution between two people, certainly for 
purposes of this discussion because I agree with your opening 
statement. The evidence is indisputable, that the advantages 
and life chances for children from happy marriages is 
desirable. I don't think there is anybody in the world who 
would not desire that.
    Yet, we see all around us, the decline of marriage. It's 
global, Mr. Chairman, and it's complicated. The reasons are 
complicated and they are multiple and they vary by nation, they 
vary by nation.
    This much is clear. Effective interventions are so rare 
that they have escaped at least my notice, Mr. Chairman, 
whether from church, sad to say, or from the State or for that 
matter--or all that is in between. I think your proposal has to 
be seriously considered by anybody who believes, as I do, that 
the effect of marriage dissolution or failure to form marriages 
is felt chiefly by children as innocent victims. That simply 
cannot be the escaped.
    People stop thinking about themselves for a moment and 
think about the effect on the children that result from some 
marriages. Then, I think we will all be on the same page. I 
confess that this has been an issue of, for me, overriding 
importance since the 1970s.
    In reading some data, I chanced upon the statistic that 
showed that one-third of black children were born to single 
mothers and I was astounded, I said this is intolerable. Now of 
course, it's about 70 percent. Ever since then, I have been 
working on this issue. And for me, the issue has become 
accentuated because it's spread throughout the ethnic groups.
    White families are in just as deep troubles, we're just 
further along on this terrible cycle than they are.
    But I focus on black Americans, not only because I, myself 
am black, but because we are not simply talking about family 
dissolution or divorce, as tragic as that is for children, 
especially young children.
    We are talking in the African community about the failure 
to form families at all through marriage as a norm. When I say 
70 percent of children are born to single mothers, I don't mean 
mothers who were married and are now single. I mean mothers who 
are single and have no prospects for marriage at all.
    In 1985, I wrote what I believe to be the first published 
article in a national magazine, national publication. It was 
published in the New York Times Magazine. It was called 
``Restoring the Traditional Black Family''. We have given it to 
your staff for the record. I reread this piece before preparing 
my testimony and I was amazed by the extent of which I could 
have written it in preparation for this testimony, sad to say.
    I am pleased to say, however, that the black family is no 
longer an issue not to be discussed in the black community as 
it was sadly, for so many years after the Moynihan report. That 
I think had to do coincidentally with the fact that the Civil 
Rights Act had just been passed and nobody wanted to hear about 
anybody's family when we still lived in a country where racism 
was pervasive and we had the first enforceable Civil Rights Act 
that had been passed. And that coincidence is sad, but it 
delayed, sadly, facing this issue.
    You will find some aspect of black family issues on every 
major black organization's agenda. Not just the issues that 
they must focus on, because that's where the children are, not 
just the issues they have traditionally focused on like welfare 
reform that meet the communities' needs or food stamps or 
rehabilitative juvenile justice and on and on. Those are all 
fallout issues.
    Not all of them are solved by happy marriages, and no one 
doubts the statistics that you referred to, are consistent over 
time, that the children of reasonably happy marriages most 
often don't fall into these categories and do not have these 
same needs.
    Mr. Chairman, to your credit, when you and I spoke at 
Brookings a few weeks ago, you did not inflate MDAs as a 
solution to the family crisis in our country. If I can quote 
you, ``We can't find a tested model around the country, but 
let's start trying.'' And I think we owe this mammoth issue at 
least that, to start trying.
    Given the failure all the way around this area, Federal and 
local government, churches and other religious institutions, 
and the failure of families who are primarily responsible for 
their own children. I see in your proposal, as I looked more 
closely at it, Mr. Chairman, a possible hypothesis that I think 
has at least been demonstrated in the past.
    When you look at our country's marriage rates, you note 
that in poor economies people delay marriage, such as the 
economy of the Great Depression. And even today, young people 
are delaying marriage and we know there are many reasons for 
that. But no one doubts that one of the reasons for it is 
demonstrated by the fact that so many move back in or stay in 
housing with their parents. Boy, we certainly would never have 
thought of doing that when I graduated from college, everybody 
wanted to leave home. They are not there just because they love 
being in that nest and don't want to leave it empty, Mr. 
Chairman.
    And we see evidence from the fact that the cost of a 
college education has been so often, shifted from parents to 
students through loans. And thus, they spend their years after 
the college trying to repay those loans. And one of the effects 
is, of course, to delay marriage.
    I don't want to simplify the many complicated reasons for 
the decline of marriage in the African-American community, but 
I believe there are economic disincentives for many African-
Americans, at least poor African-Americans to be married. And 
that the MDAs are an attempt, a small and modest attempt, and 
that is how you have put it forward, but an attempt to deal 
with what we know may be of some concern to young people who 
see other people who are not married around them, who don't 
have the wherewithal to get married. But who might see in your 
program, the ability to in fact, own a home and to save on the 
home or instead of living in that one room that the man or the 
woman may now live in.
    If marriage were contemplated, you've got to think about 
your responsibility for housing for a family, or job or job 
training or for that matter, a college education, which is 
always been a reason. And a very good reason to delay marriage. 
And if you can save for that, you might contemplate marriage as 
a viable option, as something that ought to be done 
particularly if you have children or intend to have children.
    And Mr. Chairman, I compliment you on not trying to do this 
on the cheap. But the 3:1 match, it seems to me, is a genuine 
incentive, when one looks to see if this is a program that I 
should try to join even given the fact that I don't have much 
income and that it requires for me to set aside some of this 
scarce income.
    The counseling component that I think you wisely put into 
the proposal is absolutely necessary, the skills training so 
that people know how to put aside money when they don't have 
enough money in the first place. I welcome participation of 
clergy and I'm assuming that they are not being paid for their 
religious and ministerial obligation to do counseling itself.
    But I would welcome the opportunity for them to be trained 
in the marriage counseling aspect of this proposal. The 
counseling is--I believe some counseling, some professional 
counseling for the beneficiaries of those who participate in 
the program is also necessary. Because we want to make sure 
that they are focused on the marriage goal and not only on the 
resources provided by the program. That domestic and emotional 
coercions or violence is absent, and that both parties are not 
only voluntarily participating, because that is required by the 
proposal, but that it is seen by both parties as a commitment 
to share their lives together, to build their lives together, 
an opportunity to move on to the next productive stage in their 
lives together.
    There are a few questions that I hope this hearing will 
clarify or that you yourself will seek to clarify. For example, 
young people as young as 16 are included, I'm assuming that's 
in order to discourage early pregnancy or fatherhood, which is 
of course consistent with the overall marriage goal of the 
proposal.
    I was not clear what would happen if a young person, who 
must remain childless and unmarried between 16 and 22, decided 
to be married, perhaps to someone not in the program at 20. I'm 
not sure from the outline and I recognized I have only a 
summary, what would happen with the resources and especially 
with the match, considering there is a partner who has not 
participated. But indeed, I'm sure everybody's happy their 
marriage is, perhaps, going to take place.
    The proposal preselects grantees, that's at odds with 
Federal and District government requirements and practices. But 
I imagine that the point was to make sure you had organizations 
with relevant experience. I think the way to deal with that 
objection is to make sure that in any case, there's direct 
participation and oversight of some kind by the District 
government. It is the District government and its officials who 
have the most long time, most relevant experience with the 
target population.
    I suggested that some role for the District of Columbia be 
written into the proposal, well beyond their experience, which 
I think the--those who administer the program will very much 
need. But well beyond that, the District needs to be a full 
partner in learning from this proposal, how to use its own 
resources to further marriage formation and stable marriages.
    Another reason I think that it's important to write the 
District into the proposal is that I have personally discussed 
this matter with the Mayor and City Council Chair, and they 
believe it is appropriate and beneficial for the District. 
Without the District being in the proposal, it gives the 
appearance, an entirely unintended appearance, that the 
proposal is imposed on the District of Columbia.
    You discussed this proposal with me, Mr. Chairman, you know 
that I was in full agreement with it, they are in full 
agreement with it. I believe their participation will only 
enhance the proposal.
    There is not in the summary I saw, any provisions for an 
evaluation of the functioning over the results of the program. 
I quote from your remarks at Brookings, ``Help us to design 
what it is that we should measure so that we can look at it, 
consider it, think about it, see if this is the right way.'' So 
I know you want the results to be replicable, you want to know 
whether this proposal, these MDAs in fact worked. And I think 
the only way to find that out is through a credible, controlled 
study provided in the legislation.
    Let me conclude, Mr. Chairman, by admitting that you must 
have known in advance that I would embrace this proposal. 
Because you and I discussed my own work with the black family 
issues and my own work with the D.C. Commission on Black Men 
and Boys, I have been so frustrated with the failure to form 
remedies, that I have formed my own commission of young black 
men and other black men, all black men in the District of 
Columbia who have held their own set of hearings on designing 
an action plan.
    Mr. Chairman, the hearings that this commission, I don't 
sit on the commission, commission is held--commission hearings 
are held in the city. We never see hearings like this one, Mr. 
Chairman. We have our witnesses and after the witnesses the 
community can get up and testify. You know, in the church, they 
say testifying. There's some testifying about family life, and 
when this occurs they can conduct their hearings the way you 
are conducting this hearing. They have their witnesses and then 
the community testifies.
    Unlike the hearings, government hearings in the District 
and in the government, we see, we have seen in these hearings, 
people that do not attend government hearings and we have heard 
testimony of the kind we have never heard. We have heard eye 
opening testimony from the expert witnesses, men who have been 
incarcerated, people who are raising children alone that have 
produced already an outline of an action plan of, not a 
recommendation that we would like to see if we could only get 
funding, but of things that could be done today by both the 
public and the private sectors.
    Your proposal, Mr. Chairman, in its own way, it sets the 
underlying theory of the commission on black men, as I see it. 
Or let me put it my way, in a country that has always 
associated manhood with money, men without legitimate resources 
and decent ways to achieve them in an ordinary way, will not 
form a stable family.
    Family deterioration began its steep decline only in the 
late 1950s when manufacturing jobs left the cities. Men did 
find and our community did find access to money and their own 
sense of manhood through an economy they created in our 
community. It is a drug economy, it is a gun economy, it is an 
underground economy. And yes, too often it is a criminal 
economy that just moved into our African-American communities 
to replace the legitimate job economy of the fathers and 
grandfathers of these young men.
    Mr. Chairman, when you were chair of the authorizing 
committee, you and I worked on ways to bring the District back 
to health, including the tax incentives that I mentioned 
earlier. I'm encouraged by this new proposal and I very much 
look forward to working on an even more difficult issue. This 
time with you in partnership. Thank you very much for this very 
important effort.
    [The statement follows:]

       Prepared Statement of Congresswoman Eleanor Holmes Norton

    Mr. Chairman, I appreciate the opportunity to testify today at this 
hearing, which is indicative of the hard work and attention you have 
given to District matters ever since you were chair of the Senate D.C. 
authorizing subcommittee during your first term. We thank you for your 
continued assistance to the city and its elected officials as the new 
chair of the D.C. Appropriations subcommittee, particularly your 
principled respect for the city's right to self government as American 
citizens, continuing the laudable pattern set by your predecessors as 
chair, Senators Hutchison and DeWine, and, of course, Senator Stevens, 
the prior Appropriations Committee chair. We also are grateful to 
Senator Mary Landrieu, ranking member throughout the same years who has 
established a strong record of service to the District. May I also say 
that I appreciate your willingness to hold an upcoming hearing on a 
proposal for high school attendance using federally funded vouchers 
outside of the District of Columbia before taking any such action, 
which is strongly opposed by all our elected officials and by most D.C. 
residents. Mayor Tony Williams has asked me to say that he supports the 
Marriage Development Accounts (MDAs) you have proposed under discussion 
here today. He says he will be calling on you soon concerning a home 
rule issue of importance to the city in the current D.C. appropriation 
for action at the conference.
    I am pleased to offer my views on your provision for 100 percent 
federally and privately funded voluntary marriage and pre-marriage 
development accounts. However, if I may be candid, Mr. Chairman, there 
is some skepticism about marriage accounts as proposed for the District 
of Columbia by a Republican Senator, reflecting perhaps mainly six 
concerns: government action outside of its traditional public sphere of 
interest; federal funds specifically for marriage, a private, even 
intimate institution; the necessity of some partners to end a marriage, 
particularly when there is emotional or physical abuse; competition for 
the prudent use of scarce public resources for proven strategies; the 
political or ideological use of the issue of marriage in some quarters; 
and, of course, the long-existing racial sensitivity of African 
Americans about family matters considering the wounds to Black family 
life, from societal racism and official government policies alike. 
Notwithstanding some questions about the proposal that I believe should 
be answered, I believe the marriage development accounts you propose do 
not implicate these concerns, but instead hold considerable promise. I 
want, therefore, to address two areas--why I think action by the 
federal government is warranted and desirable, and why I believe your 
proposal is an appropriate step to be taken at this time.
    Wherever people may stand on marriage as an institution for the 
benefit of two people, the richly documented and consistent evidence of 
the advantages in life chances of every variety that flow to children 
from reasonably happy marriages cannot be doubted. Yet the global 
decline of marriage and the growth of poor, single mother-headed 
families is too striking to ignore, leave aside the difficulties faced 
by one parent alone, even with ample means, in raising children today. 
The reasons for marriage decline are complicated and multiple and they 
often differ by nation and by subgroup, but effective interventions are 
so rare as to escape notice, whether from church, and sad to say, or 
from state and, for that matter, all the institutions in between.
    The expert witnesses you have invited no doubt will detail the 
quite astonishing and disturbing statistical picture, the unacceptable 
effects on children, and the kinds of proposals that have emerged. I 
want to focus on the necessity to begin to get a grip on family and 
marriage issues that defy the usual remedies. I believe that your 
proposal chooses a significant path into this issue.
    I have been concerned about the growth of female-headed families of 
every race and ethnic group since the early 1970s, when I noticed what 
seemed to me even then to be particularly intolerable figures showing 
one-third of African American children born to single mothers, most of 
them poor or near poor. My main concern since then has been with the 
frightening growth of never married mothers, which has become the norm 
with 70 percent of Black children born to such women who have never 
been married and have declining prospects for marriage. In Black 
America, the issue is in an extreme state--not family dissolution or 
divorce, but the failure to form families at all through marriage, 
often with devastating consequences for Black children. The growth of 
female-headed households is acute for white and Hispanic families as 
well, but I have concentrated my efforts on African American families, 
where the problems are most advanced and serious, and on encouraging 
Black national, local, and community leadership on the high voltage 
issue of the Black family. In 1985, the New York Times Magazine 
published an article by me entitled ``Restoring the Traditional Black 
Family'' that I believe was the first major piece on the subject that 
had appeared in a national publication since the Moynihan Report 
stirred controversy in 1965. I reread this piece recently and found 
that it could have been written today. I ask to submit it for your 
record. Today, I am pleased that every major African American 
organization has Black family issues on its agenda, not only the 
traditional fallout issues of family dissolution or failed family 
formation, such as assuring welfare reform that meets the community's 
needs, food stamps, rehabilitative juvenile crime, education for 
disadvantaged children, and similar important matters.
    Only beginning with the New Deal did the federal government 
acknowledge any federal responsibility to do what was necessary when a 
single parent is unable to meet the basic needs of children, even for 
food and shelter. However, we still do not know how to confront the 
threshold issue of the failure of viable marriages and families and of 
the disappearance of marriages that might prevent many of the problems 
that the children of these families, and now, the government and our 
society both face. Marriage and family issues are at once breathtaking 
in their societal scope and yet highly individual and personal. These 
issues do not easily suggest discrete paths that invite governmental 
action and remedies. Your proposal, Mr. Chairman, is an attempt to find 
an effective way into this vexing matrix of issues, and anyone who 
cares about the resulting problems of millions of Black children will 
find the proposal fully compatible with the values of all Americans and 
of both parties, and will conclude that your proposal is the kind of 
offer that we cannot afford to refuse and are pleased to accept.
    To your credit, Mr. Chairman, when we both spoke recently at a 
Brookings forum on marriage, you did not inflate the idea of MDAs, but 
said, ``We can't find a tested model around the country, but let's 
start trying.'' Trying is the least we owe a problem where every 
responsible institution has failed--federal and local government, 
churches and other religious institutions, and the families primarily 
responsible for their own children.
    I see in your proposal, Mr. Chairman, a possible hypothesis that at 
least has been partially demonstrated in the past. We know that in this 
country, people tend to delay marriage in poor economies, for example, 
during the Great Depression, and we know that today many young people 
are marrying later for perhaps a number of reasons, but certainly 
including economic reasons apparent in evidence such as the numbers who 
move back or stay in housing with their parents and the shift in the 
cost of a college education to students through loans that must be 
repaid by the students themselves, often without any significant 
parental assistance.
    Without simplifying the many reasons for marriage decline among 
Blacks in particular, I believe there are large economic disincentives 
to marriage for many African Americans that MDAs might directly 
address, including responsibility for housing for a family and the 
difficulty of continuing with training or education while assuming 
family responsibilities. Your proposal would encourage engaged or 
married couples to save for a home, job training or education, or to 
start a business. Moreover, you are wise in not trying to do this on 
the cheap, but instead use a 3:1 match that makes the incentive to save 
from limited incomes genuine.
    The counseling component that the proposal wisely provides is 
essential to its success, including life skills training, such as how 
to budget in order to be able to save, and martial and premarital 
counseling. I welcome the participation of the clergy and faith-based 
organizations, but hope that the proposal does not envision paying 
ministers to fulfill the ministerial obligation of marriage counseling, 
although training of ministers in the non-religious components of such 
counseling would be appropriate in my view. Funding the inevitably 
religious content of marriage counseling by ministers is unwise and 
unnecessary, and would needlessly implicate First Amendment separation 
of powers issues and invite litigation, an invitation that national and 
local organizations here would almost surely accept. In any case, I am 
sure that most ministers here would themselves be the first to say that 
a minister of the Gospel should not be paid for doing his Christian 
duty to encourage and reinforce marriage through marriage counseling 
paid for by the federal government. The reward for clergy, of course, 
would be to get young people to desire to be counseled in a religious 
setting. In any case, notwithstanding faith-based efforts, professional 
counseling by experts trained in psychology or counseling is necessary 
to ensure that couples are always focused on the marriage goal and not 
only the resources provided by the program, that domestic and emotional 
coercion or violence is absent, and that for both partners, the process 
is not only voluntary as required, but is seen by them as a commitment 
they want to share and an opportunity to move on to another productive 
stage in life together.
    There are several questions I hope this hearing and further work 
will clarify. For example, the proposal also includes single people of 
both sexes as young as 16. Since the singles must remain single and 
childless, perhaps the point is to help prevent early pregnancy and 
fatherhood, which, of course, furthers the marriage emphasis of the 
large proposal, but the goal for singles is not explicitly stated. It 
also is not clear how the proposal would handle the savings and match 
of a childless man or woman who starts as single, but marries at 20, 
for example.
    The proposal pre-selects grantees, at odds with federal government 
and District competitive requirements practices, and moreover, as far 
as I can tell, does not allow for any direct participation or oversight 
by District government officials and experts who have the best and most 
extensive experience and knowledge about the target population. I 
believe, Mr. Chairman, you perhaps wanted to assure that the program 
would be implemented by organizations with some relevant experience, 
such as the Capital Area Asset Building Corporation, which has a track 
record using individual development accounts in the District and 
elsewhere. May I suggest, however, that an important role for the 
District also be written into the law for two reasons even beyond the 
District government's valued experience. The District needs to be a 
full partner in learning from the proposal what it can do with its own 
resources to further family formation and stable marriages through its 
own agencies and existing programs. Second, I have spoken with the 
Mayor and Chair of the City Council and they accept this proposal as 
beneficial. Without specific involvement of the appropriate officials 
and staff of the District of Columbia government, the unintended 
appearance is created of a program imposed on the city rather than one 
it accepts.
    The summary of the proposal I received did not provide for an 
evaluation or study of either the functioning or the results of the 
program. You said during your Brookings remarks, ``Help us to design 
what it is that we should measure so that we can look at it, consider 
it, think about it, see if this is the right way.'' Because I believe 
that the proposal is promising and may prove replicable to the further 
benefit of the District and to other jurisdictions, I strongly 
recommend that a credible, control study be provided in the 
legislation. I do not believe that this or other governmental efforts 
to encourage stable marriages will gain traction without such studies.
    Finally, your proposal, Mr. Chairman, has special appeal to me, 
because of my own work with the District with a Commission on Black Men 
and Boys I initiated in 2001, composed of men from our community with 
credibility with Black men and D.C. residents. The purpose of the 
Commission is to enable the local community to develop an Action Plan 
for achievable steps to be taken by the public and private sectors and 
by families of every structure and make-up, and to intensify the focus 
of families and of public and private entities on children. The 
hearings of the Commission have been uniquely eye-opening and have 
drawn residents in large numbers who normally do not attend government 
hearings. With the help of the House Government Reform Committee on 
which I serve, which has held its own Commission on Black Men and Boys 
hearing, an Action Plan outline based on the Commission's hearings has 
been completed. An enlarged Commission and its advisory body of experts 
will shortly embark on the next phase of its work.
    Mr. Chairman, I believe that you and I are trying to do the same 
thing--to try effective ways to approach family and marriage 
instability. I have focused on Black boys and men because I believed 
that one important way to get a hold of Black family deterioration is 
to focus on this vital and equal partner to whom little attention has 
been given. Black family decline will continue if we do not face issues 
facing Black men and boys in work and in preparation for work, in 
pursuit of education, in incarceration, in reentry from prison, in 
juvenile justice, and in the perils of street life and gun and drug 
running.
    In the United States, we have given considerable attention to 
almost all of these issues as they affect girls, with demonstrable 
success, such as reduction in teen pregnancy while boys continue to 
father children with little attention paid to how to approach this 
partner in the African American family with equal responsibility for 
their children. We blithely ignore and perpetuate the causes of a 
devastating gap that militates against African American family 
formation--the growth in the number of Black women ready for marriage 
and children, and the decline of marriageable Black males. No cause of 
this gap that is destroying the prospects for repairing African 
American family life is greater than the mandatory minimums and 
sentencing guidelines that have left a generation of non-violent drug 
pedaling young Black men with felony records that doom their personal 
life chances, passing on to the African American community at-large the 
destruction of the most cherished part of the legacy of our 
forefathers--the Black nuclear and extended family tradition that even 
slavery and vicious discrimination could not destroy.
    Your proposal accepts the underlying theory of the Commission on 
Black Men and Boys. Put my way, in a country that has always associated 
manhood with money, men without legitimate resources and decent ways to 
achieve them in the ordinary way will not form stable families today. 
Black family deterioration began with problems that directly affected 
Black men in particular. The rapid flight of decent paying, 
manufacturing jobs beginning in the late 1950s correlates almost 
exactly with the beginning of steep Black family decline. It was then 
that men without jobs began to resist forming families as their fathers 
had always done. They did find access to money and to their sense of 
manhood through the drug economy, the underground economy and the gun 
economy, all of which moved into African American communities to 
replace the legitimate jobs of the traditional economy that had 
disappeared.
    Mr. Chairman, when you chaired the Senate D.C. authorizing 
committee, you and I worked together to achieve the D.C. tax incentives 
that have proved so successful in the District that I am trying to 
renew them this year. I was encouraged by the partnership you and I 
achieved then. I am ready and willing to work with you now on one of 
society's most difficult problems. Thank you for being willing to 
engage this toughest of challenges.

                [From The New York Times, June 2, 1985]

                 Restoring the Traditional Black Family
                       (By Eleanor Holmes Norton)

    What would society be like if the family found it difficult to 
perform its most basic functions? We are beginning to find out. Half of 
all marriages in this country end in divorce, and half of all children 
will spend a significant period with only one parent.
    Startling and unsettling changes have already occurred in black 
family life, especially among the poor. Since the 1960's, birth rates 
among blacks have fallen dramatically, but two out of every three black 
women having a first child are single, compared to one out of every six 
white women. Today, well over half of black children in this country 
are born to single women. Why are female-headed households multiplying 
now, when there is less discrimination and poverty than a couple of 
generations ago, when black family life was stronger?
    The disruption of the black family today is, in exaggerated 
microcosm, a reflection of what has happened to American family life in 
general. Public anxiety has mounted with the near-doubling of the 
proportion of white children living with one parent (from 9 percent to 
17 percent) since 1970. Single parents of all backgrounds are feeling 
the pressures--the sheer economics of raising children primarily on the 
depressed income of the mother (a large component of the so-called 
``feminization of poverty''); the psychological and physical toll when 
one person, however advantaged, must be both mother and father, and the 
effects on children.
    The stress on American family life was recently addressed by 
Senator Daniel P. Moynihan, Democrat of New York, on the 20th 
anniversary of his controversial ``Moynihan Report.'' The original 
report confined its analysis to the black family. Moynihan, who in 
April delivered a series of lectures at Harvard on the family, said, 
``I want to make clear this is not a black issue.'' Indeed, just last 
month, the problem of increasing poverty among all the nation's 
children was underscored in a major report from two Federal agencies.
    Yet until recently, many blacks have had an almost visceral 
reaction to mention of black family problems. Wounds to the family were 
seen as the most painful effect of American racism. Many blacks and 
their supporters have regarded talk of black family weaknesses as 
tantamount to insult and smear. Some conservatives have taken signs of 
trouble in the black family as proof that the remaining problems of 
race are internal and have announced the equivalent of ``Physician, 
heal thyself.''
    At the heart of the crisis lies the self-perpetuating culture of 
the ghetto. This destructive ethos began to surface 40 years ago with 
the appearance of permanent joblessness and the devaluation of working-
class black men. As this nation's post-World War II economy has helped 
produce a black middle class, it has also, ironically, been destroying 
the black working class and its family structure. Today, the process 
has advanced so far that renewal of the black family goes beyond the 
indispensable economic ingredients. The family's return to its historic 
strength will require the overthrow of the complicated, predatory 
ghetto subculture, a feat demanding not only new Government approaches 
but active black leadership and community participation and commitment.
    While this crisis was building, it received almost no public 
attention, in part because of the notorious sensitivity of the subject. 
Yet 20 years ago, Martin Luther King Jr. spoke candidly about the black 
family, spelling out the ``alarming'' statistics on ``the rate of 
illegitimacy,'' the increase in female-headed households and the rise 
in families on welfare. The black family, King asserted, had become 
``fragile, deprived and often psychopathic.''
    King relied in part on the Moynihan report, written when the 
Senator was an Assistant Secretary of Labor. Many were stunned by what 
one critic called the report's ``salacious `discovery' ''--its 
discussion of illegitimacy, matriarchy and welfare and its view that 
black family structure had become, in its own words, a ``tangle of 
pathology'' capable of perpetuating itself without assistance from the 
white world. As a result, the report's concern with remedies, including 
jobs, and its call for a national family policy were eclipsed.
    The delay has been costly to blacks and to the country. When King 
spoke out, the statistics he characterized as alarming showed that two-
and-a-half times as many black families as white ones were headed by 
women. Today, it is almost three-and-a-half times as many--43 percent 
of black families compared with 13 percent of white families. Since 
1970, out-of-wedlock births have become more prevalent throughout 
society, almost doubling among whites to 11 percent. But among blacks, 
births to single women have risen from 38 percent in 1970 to 57 percent 
in 1982.
    While families headed by women have often proved just as effective 
as two-parent families in raising children, the most critical danger 
facing female-headed households is poverty. Seventy percent of black 
children under the age of 18 who live in female-headed families are 
being brought up in poverty. In 1983, the median income for such 
households was $7,999, compared to almost $32,107 for two-parent 
families of all races, in which both spouses worked. Without the large 
increase in female-headed households, black family income would have 
increased by 11 percent in the 1970's. Instead, it fell by 5 percent.
    As last month's report from the Congressional Research Service and 
the Congressional Budget Office pointed out, ``The average black child 
can expect to spend more than five years of his childhood in poverty; 
the average white child, 10 months.''
    Buried beneath the statistics is a world of complexity originating 
in the historic atrocity of slavery and linked to modern discrimination 
and its continuing effects. What has obscured the problem is its 
delicacy and its uniqueness. The black family has been an issue in 
search of leadership. Discussion of problems in the black family has 
been qualitatively different from debates on voting rights or job 
discrimination. Fear of generating a new racism has foreclosed whatever 
opportunity there may have been to search for relief, driving the issue 
from the public agenda and delaying for a generation the search for 
workable solutions. Today, when nearly half of all black children are 
being raised in poverty, further delay is unthinkable.
    Blacks themselves have been stunned by recent disclosures of the 
extent of the growth of poor, alienated female-headed households. The 
phenomenon is outside the personal experience of many black adults. 
Many have overcome deep poverty and discrimination only because of the 
protection and care of stable traditional and extended families. As 
recently as the early 1960's, 75 percent of black households were 
husband-and-wife families. The figure represents remarkable 
continuity--it is about the same as those reported in census records 
from the late 19th century. Indeed, the evidence suggests that most 
slaves grew up in two-parent families reinforced by ties to large 
extended families.
    The sharp rise in female-headed households involves mostly those 
with young children and began in the mid-1960's. The phenomenon--while 
by no means a trend that permeates the entire black community--affects 
a significant portion of young people today, many of whom are separated 
economically, culturally and socially from the black mainstream. They 
have been raised in the worst of the rapidly deteriorating ghettos of 
the 1960's, 1970's and 1980's, in cities or neighborhoods that lost 
first the white and then the black middle and working classes. Drugs, 
crime and pimps took over many of the old communities. Blacks remaining 
were often trapped and isolated, cut off from the values of the black 
working poor and middle class--where husbands often work two jobs, 
wives return to work almost immediately after childbirth and extended 
families of interdependent kin are still more prevalent than among 
whites.
    A complete explanation of black family disruption does not emerge 
from a roundup of the usual suspects, including the many factors that 
make American family life generally less stable these days: the ease 
and relative acceptance of separation, divorce and childbirth outside 
of marriage; the decline of religion and other traditional family-
reinforcing institutions, and welfare rules that discourage family 
unity and penalize economic initiative. Anecdotal explanations--the 
girl-mothers are said to want to love and receive affection from a 
baby; the boy-fathers reportedly brag about making babies--are also 
inadequate. Such anecdotes do not explain how the strong presumption in 
favor of marriage before childbearing has been overcome so often.
    The emergence of single women as the primary guardians of the 
majority of black children is a pronounced departure that began to take 
shape following World War II. Ironically, the women and children--the 
most visible manifestations of the change--do not provide the key to 
the transformation. The breakdown begins with working-class black men, 
whose loss of function in the post-World War II economy has led 
directly to their loss of function in the family.
    In the booming post-World War I economy, black men with few skills 
could find work. Even the white South, which denied the black man a 
place in its wage economy, could not deprive him of an economic role in 
the farm family. The poorest, most meanly treated sharecropper was at 
the center of the work it took to produce the annual crop.
    As refugees from the South, the generation of World War I migrants 
differed in crucial respects from the World War II generation. The 
World War I arrivals were enthusiastic, voluntary migrants, poor in 
resources but frequently middle class in aspiration. They were at the 
bottom of a society that denied them the right to move up very far, but 
they got a foothold in a burgeoning economy.
    Family stability was the rule. According to a 1925 study in New 
York City, five out of six children under the age of six lived with 
both parents. Nationally, a small middle class emerged, later augmented 
by the jobs generated by World War II, service in the armed forces and 
the postwar prosperity that sometimes filtered down to urban blacks. 
Today's inner-city blacks were not a part of these historical 
processes. Some are the victims of the flight of manufacturing jobs. 
Others were part of the last wave of Southern migrants or their 
offspring, arriving in the 1950's and 1960's. They often migrated not 
because of new opportunities but because of the evaporation of old 
ones. Mechanized farming made their labor superfluous in agriculture, 
but unlike the blacks of earlier generations and European immigrants, 
later black migrants were also superfluous in the postwar cities as 
manufacturing work for the less-skilled and poorly educated declined. 
Today's postindustrial society, demanding sophisticated preparation and 
training, has only exacerbated these problems.
    This permanent, generational joblessness is at the core of the 
meaning of the American ghetto. The resulting, powerful aberration 
transforms life in poor black communities and forces everything else to 
adapt to it. The female-headed household is only one consequence. The 
underground economy, the drug culture, epidemic crime and even a highly 
unusual disparity between the actual number of men and women--all owe 
their existence to the cumulative effect of chronic joblessness among 
men. Over time, deep structural changes have taken hold and created a 
different ethos.
    An entire stratum of black men, many of them young, no longer 
performs its historic role in supporting a family. Many are unemployed 
because of the absence of jobs, or unemployable because their ghetto 
origins leave them unprepared for the job market. Others have adapted 
to the demands of the ghetto--the hustle, the crime, the drugs. But the 
skills necessary to survive in the streets are those least acceptable 
in the outside world.
    The macho role cultivated in the ghetto makes it difficult for many 
black men, unable to earn a respectable living, to form households and 
assume the roles of husband and father. Generationally entrenched 
joblessness joined with the predatory underground economy form the 
bases of a marginal life style. Relationships without the commitments 
of husband and father result.
    This qualitative change in fundamental family relationships could 
have occurred only under extreme and unrelentingly destructive 
conditions. Neither poverty nor cyclical unemployment alone could have 
had this impact. After all, poverty afflicts most of the world's 
people. If economic and social hardships could in themselves destroy 
family life, the family could not have survived as the basic human unit 
throughout the world.
    The transformation in poor black communities goes beyond poverty. 
These deep changes are anchored in a pervasively middle-class society 
that associates manhood with money. Shocking figures show a long, steep 
and apparently permanent decline in black men's participation in the 
labor force, even at peak earning ages. In 1948, before the erosion of 
unskilled and semiskilled city and rural jobs had become pronounced, 
black male participation in the labor force was 87 percent, almost a 
full point higher than that of white males.
    In the generation since 1960, however, black men have experienced a 
dramatic loss of jobs--dropping from an employment rate of 74 percent 
to 55 percent in 1982, according to the Center for the Study of Social 
Policy in Washington. While white male employment slipped in that 
period, much of the white decline, unlike that of the blacks, is 
attributed to early retirement. Since 1960, the black male population 
over 18 has doubled, but the number employed has lagged badly.
    These figures tell a story not only of structural unemployment, but 
of structural changes in low-income black families. The unemployment 
rates of young blacks have been the most devastating and militate 
against the establishment of stable marriages. This year, for instance, 
black teen-agers overall had an unemployment rate of 39 percent, two-
and-a-half times that of white teen-agers. The loss of roles as workers 
has led to the acceptance of other roles for financial gain, many of 
them antisocial. With large numbers of young men imprisoned, disabled 
by drugs or otherwise marginal and unavailable as marriage partners, 
there is an unusual disparity between the sheer numbers of marriageable 
black men and black women. Among whites, the ratio of men to women does 
not change significantly until age 50, when men's shorter life 
expectancy creates a gap. But among blacks, beginning at age 20, women 
outnumber men significantly enough to have a major impact upon the 
possibility of marriage.
    Some argue persuasively that the female-headed family is an 
adaptation that facilitates coping with hardship and demographics. This 
seems undeniable as an explanation, but unsatisfactory as a response. 
Are we willing to accept an adaptation that leaves the majority of 
black children under the age of 6--the crucial foundation years of 
life--living in poverty? Given a real choice, poor blacks, like 
everybody else, would hardly choose coping mechanisms over jobs, 
educational opportunity and family stability.
    Yet, the remedy for ghetto conditions is not as simple as providing 
necessities and opportunities. The ghetto is not simply a place. It has 
become a way of life. Just as it took a complex of social forces to 
produce ghetto conditions, it will take a range of remedies to dissolve 
them. The primary actors unavoidably are the Government and the black 
community itself.
    The Government is deeply implicated in black family problems. Its 
laws enforced slavery before the Civil War and afterward created and 
sanctioned pervasive public and private discrimination. The effects on 
the black family continue to this day. Given the same opportunities as 
others, blacks would almost certainly have sustained the powerful 
family traditions they brought with them from Africa, where society 
itself is organized around family.
    Quite apart from its historical role, the Government cannot avoid 
present responsibility. It can choose, as it now does, to ignore and 
delay the search for ways to break the hold of the ghetto, such as 
early intervention with young children and training and education for 
the hard-core poor. Although programs capable of penetrating ghetto 
conditions have proved elusive, the current Government posture of 
disengagement is folly. With the poor growing at a faster rate than the 
middle class, the prospect is that succeeding generations will yield 
more, not fewer, disadvantaged blacks. An American version of a 
lumpenproletariat (the so-called underclass), without work and without 
hope, existing at the margins of society, could bring down the great 
cities, sap resources and strength from the entire society and, lacking 
the usual means to survive, prey upon those who possess them.
    Perhaps the greatest gap in corrective strategies has been the 
failure to focus on prevention. Remedies for deep-rooted problems--from 
teen-age pregnancy to functional illiteracy--are bound to fail when we 
leave the water running while we struggle to check the overflow. A 
primary incubator for ghetto problems is the poor, female-headed 
household. Stopping its proliferation would prevent a spectrum of 
often-intractable social and economic problems.
    Remedies often focus at opposite ends--either on the provision of 
income or of services. Neither seems wholly applicable to entrenched 
ghetto conditions. Public assistance alone, leaving people in the same 
defeatist environment, may reinforce the status quo. The service 
orientation has been criticized for using a disproportionate amount of 
the available resources relative to the results obtained.
    More appropriate solutions may lie between income and service 
strategies. Programs are likely to be more successful if they provide a 
rigorous progression through a series of steps leading to 
``graduation.'' This process, including a period of weaning from public 
assistance, might prove more successful in achieving personal 
independence. Such programs would be far more disciplined than services 
to the poor generally have been. They would concentrate on changing 
life styles as well as imparting skills and education. The test of 
their effectiveness would be the recipients' progress in achieving 
economic self-sufficiency.
    To reach boys and men, especially the hard-core unemployed, more 
work needs to be done to cull the successful aspects of training and 
job programs. Effective training models need to be systematically 
replicated. It is untenable to abandon the hard-core unemployed, as the 
Reagan Administration has done, by moving to a jobs program that 
focuses on the most, rather than the least, trainable. Ghetto males 
will not simply go away. As we now see, they will multiply themselves.
    The welfare program--a brilliant New Deal invention now stretched 
to respond to a range of problems never envisioned for it--often 
deepens dependence and lowers self-esteem. Although welfare enjoys 
little support anywhere along the political spectrum, it continues for 
lack of an alternative.
    Reconceived, a public-assistance program could reach single mothers 
and offer them vehicles to self-sufficiency. The counterparts of young 
women on welfare are working downtown or attending high school or 
junior college on grants to low-income students. Far from foreclosing 
such opportunities because a woman has a child, public assistance 
should be converted from the present model of passive maintenance to a 
program built around education or work and prospective graduation.
    Studies of the hard-core unemployed have shown women on welfare to 
be the most desirous of, open to and successful with training and work. 
Some, especially with young children, will remain at home, but most 
want work or training because it is the only way out of the welfare 
life. Some promising experiments in work and welfare are underway in 
such cities as San Diego and Baltimore. But the old ``workfare'' 
approach, when administered as another form of welfare with no attempt 
to break the cycle of dependency, is self-defeating. Gainful 
employment, even if in public jobs for those unaccommodated by the 
private sector, would have beneficial effects beyond earning a living. 
Jobs and training would augment self-esteem by exposing women to the 
values and discipline associated with work, allowing them to pass on to 
their children more than their own disadvantages.
    The ghetto, more than most circumscribed cultures, seeks to 
perpetuate itself and is ruthless in its demand for conformity. 
However, it contains institutions of the larger society--schools, 
churches, community groups. With minor additional resources, schools, 
for example, could incorporate more vigorous and focused ways to 
prevent teen-age pregnancy. If pregnancy occurs, girls could be 
motivated to remain in school, even after childbirth, thus allowing an 
existing institution to accomplish what training programs in later life 
do more expensively and with greater difficulty.
    Schools and other community institutions also need to become much 
more aggressive with boys on the true meaning and responsibilities of 
manhood, and the link between manhood and family. Otherwise, many boys 
meet little resistance to the ghetto message that associates manhood 
with sex but not responsibility.
    Most important, nothing can substitute for or have a greater impact 
than the full-scale involvement of the black community. Respect for the 
black family tradition compels black initiative. Today, blacks are 
responding. Many black organizations are already involved, including 
the National Urban League, the National Association for the Advancement 
of Colored People, the National Council of Negro Women and the National 
Urban Coalition. In 1983, the country's major black leaders endorsed a 
frank statement of the problems of the black family and a call for 
solutions. The statement, published by the Joint Center for Political 
Studies, a black research center in Washington, represented the first 
consensus view by black leadership on the problems of the black family. 
Significantly, it went beyond a call for Government help, stressing the 
need for black leadership and community efforts.
    With the increase in the number of black public officials, many 
black mayors, legislators and appointed officials control some of the 
resources that could help shape change. Although they cannot redesign 
the welfare system by themselves, for example, some are in a position 
to experiment with model projects that could lead to more workable 
programs--such as supplementing welfare grants with training or work 
opportunities for single mothers; promoting family responsibility and 
pregnancy prevention for boys and girls through local institutions, and 
encouraging the completion of school for single teen-aged parents.
    The new black middle class, a product of the same period that saw 
the weakening of the black family, still has roots in the ghetto 
through relatives and friends. From churches, Girl Scout troops and 
settlement houses to civil-rights organizations, Boys' Clubs and 
athletic teams, the work of family reinforcement can be shared widely. 
The possibilities for creative community intervention are many--from 
family planning and counseling and various roles as surrogate parents 
and grandparents, to sex education, community day care and simple, but 
crucial, consciousness-raising. Most important is passing on the 
enduring values that form the central content of the black American 
heritage: hard work, education, respect for family, and, 
notwithstanding the denial of personal opportunity, achieving a better 
life for one's children.

    Senator Brownback. Thank you, Delegate, I appreciate it 
very much and I appreciate your thoughtfulness on a tough 
topic. I've looked at these trend line numbers for years now 
that I have been in the House and the Senate of the overall 
society and with the African-American community and am very 
disturbed by them.
    What do you do and what do you do to try to change this 
back? I appreciate your thoughts, I particularly appreciate the 
specific items that you raised here that you'd like to see 
dealt with in the proposal. And we'll take those to heart and 
see if we can't address several of those in the training and 
encouraging the participation by those underage, preselecting 
grantees and getting the D.C. government involved in the 
evaluations.
    The evaluation portion is written in the bill and maybe we 
need to make that portion clearer, but I think those are good, 
critical evaluations that need to be brought forward.
    The one question that I wanted to ask you, but I think you 
really caught it there at the end, is you've watched this for a 
long period of time. You've watched these numbers, you've been 
concerned about these numbers for a long period of time. If you 
could go back to when you started to get alarmed by these 
numbers and have changed something at that period of time to 
slow down these trend lines, to change these trend lines, what 
would you have changed?
    Now, I take it from your last statement, you would have 
changed the ability of men to be able to earn legitimate 
incomes is probably the thing that you would have focused on. 
If there's a different answer to that than that point, tell me 
where there needs to be additions to that thing that you would 
have changed.
    But do you go back there into the mid-1980s, when you wrote 
this article or whenever, what would you have done?
    Ms. Norton. In a real sense, Mr. Chairman, I think you have 
embraced the theory I would adopt, in your own way. You are 
looking through the economic business sense of a marriage and 
you know full well that people who don't have anything are less 
likely, in today's society, it's not always that way, but in 
today's society to make things ``worse'' by taking on 
responsibility for more than themselves.
    If I could go back--and perhaps the society would have to 
be clairvoyant to understand this. As jobs began to disappear, 
I think the failure to focus on what was happening to black 
families had much to do with the fact that it was chiefly 
happening to men.
    And men are supposed to take care of themselves. That is to 
say, it is interesting that female participation in the 
workforce--black females' participation, now that has all gone 
up. White male participation has gone down of course, but black 
male participation has so steeply fallen that it seems to me 
that if you were looking in the early 1960s, you would say that 
something else has to work here besides the kinds of trends we 
see for white males.
    I would have taken a look at job incentives of the kind 
that we still don't do when men are involved, and that is job 
incentives for men. The only incentives that the Government is 
interested in are incentives for women to go back to work, 
their children are on welfare, we're not giving them enough 
daycare. I am very concerned by what happens to those single 
mothers, we really don't fool with men.
    And yet, you can see my bias is toward men. The women, we 
have the number of marriageable black women has continued to 
grow, because more women are educated, go to college. Women 
don't have more than one child, have perhaps two while on 
welfare. They get that over with, they go out and work. Then 
they look at the pool of marriageable black men.
    Well, the same number of men might be out there that were 
out there when I was a young woman, but let's look at the 
nature of the pool. Black women have often married men who 
weren't as well educated as they, largely because a college 
education didn't pay for a black man. Because a black man would 
not be hired in business.
    Whereas black women, they will always be hired as teachers 
and nurses. So our history is replete with black women who went 
to nursing school or went to teachers college and black men who 
worked as laborers and made more money than their wives did. 
And yet, some would consider that an occupation not on a par 
with the professional occupation of their wives.
    But let's look at that same woman today and perhaps she's 
not a teacher, perhaps she's somebody who was on welfare and 
now she's ready, she's on her own and she simply wants to have 
a regular life and to get married. Let's look at the pool, 
period. Whatever her state or status, the pool, I discussed in 
my testimony, Mr. Chairman, consists of black men, huge numbers 
of them who have felony records. Half of the men in jail, or 
almost half are African-American.
    We blithely pass sentencing, mandatory minimums and 
sentencing guidelines without understanding the direct, the 
direct and lethal effect we are having on this repair of the 
black family. A black woman, who has made the mistake of having 
a child out of wedlock is today not inclined to marry the man 
if he had a felony record, even though she will accept the fact 
that she has his child. And in fact, often wants a child and 
sometimes deliberately gets pregnant, I'll have to concede, Mr. 
Chairman.
    What she will not accept is that her life and the life of 
this child ought to be joined with a felon. And the reason 
there is such rage in the black community against the 
sentencing guidelines and the mandatory minimums is that we are 
talking about a generation of drug running, gun running young 
black men who were in prison not for violence, but who come out 
of the jail very inclined--out of prison, very inclined to it 
now.
    This is a cycle that is so devastating, that I don't know 
how to get a hold of it. So if I were to go back, I would have 
asked society to do what it has never done and that is to focus 
on men as a vital partner to the economic stability of family, 
and to focus some of the time and attention we've given to 
welfare reform, making sure the children have enough to simply 
make it if they are born without a father, devote some of those 
resources to the one partner who throughout human time, this is 
not an American notion, throughout human time, has been seen 
who should provide for himself and take care of himself.
    Our men will provide for themselves and take care of 
themselves. They do not necessarily take care of their children 
and they do not necessarily marry our women. That is a great 
tragedy, it is at total odds with the black family tradition of 
extended and nuclear families that survived even the vicious 
devastations of slavery and discrimination in this country.
    They, our ancestors, bequeathed us this love of family and 
now we have destroyed it in a single generation. We simply have 
to put it back together for them.
    Senator Brownback. That's very insightful. Delegate, thank 
you very much. I'll look forward to working with you as this 
proposal hopefully moves forward, and if it works, as we expand 
it. Thank you very much.
    Ms. Norton. Thank you very much again, Mr. Chairman.
    Senator Brownback. I call up the next panel to testify, Mr. 
Ron Haskins, Senior Fellow at the Brookings Institute, Mr. 
Malcolm Smith, Director of Operations for the Center for 
Fathers, Families and Workforce Development in Baltimore, 
Reverend Thabiti Anyabwile, Assistant Pastor, Capitol Hill 
Baptist Church in Washington, DC, and a former Senior Policy 
Associate for the Study of Social Policy in the District of 
Columbia, Dr. W. Bradford Wilcox, Assistant Professor of 
Sociology, University of Virginia, Charlottesville and a 
Resident Fellow at the Institute for American Values in New 
York.
    I look forward to the testimony, if we could, gentlemen, 
have a summation of your testimonies so we could have a few 
questions back and forth. We will put, as I said, a full 
written statement into the record so we will have that for the 
record. Mr. Haskins.

STATEMENT OF RON HASKINS, SENIOR FELLOW, BROOKINGS 
            INSTITUTION, WASHINGTON, DC
    Mr. Haskins. Mr. Chairman, thank you very much. I am Ron 
Haskins from the Brookings Institution, Annie E. Casey 
Foundation. I am a former staff for the Ways and Means 
Committee and an advisor for President Bush on welfare policy. 
I am very pleased to be invited today.
    I think we are at the beginning, maybe a little beyond the 
beginning of a national movement of concern with the status of 
our families. It got a real boost in 1996 when we passed the 
welfare reform bill and we made three of the four goals of 
welfare reform explicitly to be family centric, of having to do 
with children living with married parents.
    And the question rises, ``Why are we so concerned about 
this?'' And I think you've already answered this question. One 
of the major reasons is that marriage, as an institution, has 
declined remarkably in our country and throughout the western 
world. Our marriage rates are down, they are especially down 
for minorities. For blacks, they look like they fell off the 
table. More of our children are born outside marriage, that's 
leveled off now, but at an alarming rate of roughly one out of 
three kids.
    And if you put all these together, over time even though 
you showed that about a little over one-quarter of our kids 
live in single parent families, that's at any given moment. 
Over time, as many as 60 percent of American children spend 
some time in a single parent family. And for black children, 
that number is at least 85 percent. Especially in some inner 
cities in the United States.
    Now why are we concerned about that? One reason you've 
already given, you've already shown and that is poverty. There 
is no question, as you've pointed out, that kids that live in 
female headed families are five, six, seven times as likely, it 
depends on the year, to be in poverty.
    Now, this analysis, the reason that I wanted to show this 
to you is because I think it suggests how close to a solution 
marriage really is. This analysis is based on actual people 
living in the United States, taken from regular Census Bureau 
data from a current population survey. And it takes the actual 
sample and it says, ``What happens if we change one 
characteristic at a time of all the people who are poor, so 
look just at the poor people and change one characteristic.''
    So let's assume that they had the same marriage rate that 
they had in 1970 and then let's assume that they all work full 
time at whatever wage they actually get or their education 
would allow them to get, and let's do away with anybody below 
high school education. Make sure everybody has at least a high 
school education. And estimate using the statistical methods, 
what impact that would have and I think you can see the 
remarkable results here.
    If everyone worked full time, 42 percent fewer people would 
be in poverty. And the second most important is increasing 
marriage. If we increase the marriage rate, now this is not 
some pie in the sky, this is the actual marriage rate we had in 
the United States in 1970, would reduce poverty by 27 percent.
    So what a shock this is. The traditional solutions of 
society of ensuring their people work and they are married and 
the kids are reared in a married two parent families, with at 
least one working parent. Those are the two most effective 
solutions to dealing with poverty. And now we know, you may 
recall, 3 weeks ago, you came to Brookings and talked and that 
was the occasion you released this volume of the Future of 
Children.
    There are eight papers in this volume, all by leading 
scholars in the United States. We made a mistake, and didn't 
add Brad Wilcox, we should have had him in the volume. And all 
the papers show the same thing. That kids in female headed 
families and single parent families are at a very distinct 
disadvantage.
    And this shows up in mental health, not just poverty, but 
mental health, school performance, criminal behavior, teen 
pregnancy and lots of other things as well. And there is no 
question, if you look at this whole picture that I've just 
painted, of poverty and of the effects on children, there is 
every reason to believe that if we could reduce the percentage 
of our kids in single parent families, that without Government 
spending and taxing other citizens, we would have a dramatic 
effect both of poverty and reducing the most serious problems, 
social problems that our country faces.
    So what do we do about it. And this is the rub, Mr. 
Chairman, we don't know. We don't have any confirmed solutions. 
This is not like welfare reform where what works is working, if 
you make people work--and by the way, worked out very well--
everybody talks about poverty increased the last 4 years. Do 
you know that after 4 consecutive years of increase in poverty, 
child poverty is still 20 percent lower than it was in the mid-
1990s and it's definitely because of females working.
    Delegate Norton is right. The males have not worked more, 
but females remarkably have worked more and it has worked. So 
we can do the same thing with marriage if we can figure out how 
to promote it but we don't know how. So, what do we do? The 
solution is obvious. Let 1,000 flowers bloom. We should try 
everything we can think of.
    The first way to do that is to pass the welfare reform 
reauthorization bill, which has substantial money in there to 
fund faith-based organizations and local organizations, many of 
which you will hear from today, who know what they are doing 
and can work on local communities. And if we do this long 
enough, we will get those solutions as Eleanor Holmes Norton 
applied.
    And the second thing we should do is, I definitely think we 
should pass your legislation. I think this is a unique 
approach, not very many have tried this. I want you to know 
this, you may already know this, that we now have experimental 
evidence for the first time on individual development accounts, 
and we know that poor people will put their meager earnings 
into a development account if it's matched. So we have very 
good data that they will actually do that, that's the condition 
for the success of your approach. So we definitely should do 
that.
    I would make only two points about your proposal. The first 
one is that, I think, I'm a little concerned about the $50,000, 
I'm more worried about people at $20,000 to $25,000. That's the 
group that has the biggest trouble and I'm worried that when 
that money gets out there, that people--too much money will be 
a problem. That's my concern.
    And my second concern, I was very pleased to hear Eleanor 
Holmes Norton say this, ``There must be a good evaluation.'' 
When you let 1,000 flowers bloom, you've got to cull them at 
some point. And it should be based on real studies and real 
information of about how successful they are.
    So I know you have language in there about evaluation, but 
unless it's beefed up and some money is set aside, I'm afraid 
it will not be a good evaluation. We'd be happy to work further 
with you and the staff on the subcommittee, if you're 
interested in this. I thank you very much for having me here, 
Mr. Chairman.
    Senator Brownback. Thank you for your thoughts.
    [The statement follows:]

                   Prepared Statement of Ron Haskins

    Chairman Brownback, Ranking Member Landrieu, and Members of the 
Subcommittee: My name is Ron Haskins. I am a Senior Fellow at the 
Brookings Institution and a Senior Consultant at the Annie E. Casey 
Foundation. Thanks for inviting me to talk with your subcommittee about 
the case for federal programs to promote marriage in general and the 
Brownback proposal for the District of Columbia in particular. My first 
goal is to briefly summarize the evidence from social science research 
about the impact of marriage on poverty and on children's development. 
There is widespread agreement among social scientists that marriage 
reduces poverty and helps make both children and adults happier and 
healthier. It is reasonable to project from these studies that if 
marital rates could be increased, many of the nation's social problems, 
including poverty, school failure, crime, mental health problems, and 
nonmarital births, would be reduced. Unfortunately, there is little 
good information available about ways to promote marriage. That is why 
I am so pleased to testify before you today. The Brownback proposal for 
Marriage Development Accounts and for Pre-Marriage Development Accounts 
is an interesting approach to increasing rates of healthy marriage that 
holds great promise and that should be implemented and carefully 
studied.
    America is engaged in a great experiment to test whether millions 
of our children can be properly reared without providing them with a 
stable, two-parent environment during childhood. For the past four 
decades, the demographic markers of stable two-parent families have 
disintegrated. Marriage rates have declined precipitously, divorce 
rates rose and then stabilized at a high level, and nonmarital births 
increased dramatically at a rapid rate until roughly the mid-1990s and 
have continued to increase, albeit at a slower rate, since then.\1\
---------------------------------------------------------------------------
    \1\ David T. Ellwood and Christopher Jencks, The Growing Difference 
in Family Structure: What Do We Know? Where Do We Look for Answers? 
Unpublished manuscript (Cambridge: John F. Kennedy School of 
Government, Harvard, 2001).
---------------------------------------------------------------------------
    One of the first social scientists to notice these developments was 
an obscure sociologist in the Department of Labor by the name of Daniel 
Patrick Moynihan. In 1965 he wrote a famous paper on the black family, 
arguing that family dissolution was the major reason black Americans 
were not making more social and economic progress in America.\2\ At 
that time, the nonmarital birth rate for blacks was around 25 percent. 
Today the percentage for blacks is 70. Now both Hispanics, at about 45 
percent, and whites, at about 25 percent, equal or exceed the level of 
nonmarital births that Moynihan saw as alarming. Indeed, over 33 
percent of all our nation's children are now born outside marriage--
well above the rate Moynihan saw as alarming in 1965.\3\
---------------------------------------------------------------------------
    \2\ Daniel Patrick Moynihan, The Negro Family: The Case for 
National Action (Washington, D.C.: U.S. Department of Labor, 1965).
    \3\ Stephanie J. Ventura and others, ``Nonmarital Childbearing in 
the United States, 1940-99,'' National Vital Statistics Reports 48, No. 
16 (Washington: National Center for Health Statistics, 2000).
---------------------------------------------------------------------------
    Taken together, nonmarriage, nonmarital births, and divorce have 
caused a rapidly increasing percentage of the nation's children to live 
in single-parent families. As shown in Figure 1, between 1970 and 2002 
the percentage of children living with just one parent more than 
doubled, increasing from 12 percent to over 27 percent.\4\ Of course, 
Figure 1 provides the number of children living in single-parent 
families at a given moment. Over time, the percentage of children who 
have ever experienced life outside a two-parent family is much greater 
than the percentage on a given day. The percentage of children who 
spend some portion of their childhood in a single parent family has 
probably increased to well over 50 percent and has reached the shocking 
level of at least 85 percent for black children.
---------------------------------------------------------------------------
    \4\ Federal Interagency Forum on Child and Family Statistics, 
America's Children: Key National Indicators of Well-Being, 2005 
(Washington, D.C.: U.S. Government Printing Office, July 2005); and 
U.S. Census Bureau, Current Population Survey, Annual Social and 
Economic Supplements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Most of the nation's single parents make heroic efforts to 
establish a good rearing environment for their children. But they are 
up against many obstacles and challenges. Not the least of these is 
poverty. Figure 2 shows the poverty rate of female-headed families with 
children as compared with married-couple families with children between 
1974 and 2002.\5\ In most years, children living with a single mother 
suffer from poverty rates that are five or six times the rates of 
children living with married parents. Children living with never-
married single mothers have even higher poverty rates.
---------------------------------------------------------------------------
    \5\ Data from the U.S. Census Bureau, Current Population Survey, 
various years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Although this difference in poverty rates between single-parent and 
married-couple families is impressive, it is now well known that 
poverty is far from the only difference between single-parent and 
married-couple families. Single parents are more likely to have had a 
baby outside marriage, are more likely to have had poor parents and 
parents with little education, and are more likely to be black or 
Hispanic. All of these background characteristics contribute to the 
difference in poverty rates between married and single parents and 
raise some doubt about whether marital status itself causes the 
difference in poverty rates.
    This is a vital issue for members of Congress trying to decide 
whether a marriage initiative would be worthwhile. One of the major 
claims of those who support a marriage initiative is that increasing 
marriage rates would reduce poverty rates. Fortunately, there have now 
been a large number of studies, some quite sophisticated, on whether 
marriage itself, independent of all the other differences between 
married and single parents, is a cause of the lower poverty rates 
enjoyed by married parents and their children. Taken together, these 
studies provide evidence that increasing marriage rates would indeed 
reduce poverty.\6\
---------------------------------------------------------------------------
    \6\ Robert I. Lerman, Impacts of Marital Status and Parental 
Presence on the Material Hardship of Families with Children 
(Washington, D.C.: Urban Institute, 2002); Robert I. Lerman, Married 
and Unmarried Parenthood and Economic Well-Being: A Dynamic Analysis of 
a Recent Cohort (Washington, D.C.: Urban Institute, 2002); Robert I. 
Lerman, How Do Marriage, Cohabitation, and Single Parenthood Affect the 
Material Hardships of Families with Children? (Washington, D.C.: Urban 
Institute, 2002); and Adam Thomas and Isabel Sawhill, ``For Love and 
Money? The Impact of Family Structure on Family Income,'' Future of 
Children, vol. 15, no. 2 (Fall 2005):57-74.
---------------------------------------------------------------------------
    A closer look at two of these studies will illustrate the power of 
marriage as a means of reducing poverty. Research at the Brookings 
Institution by Adam Thomas and Isabel Sawhill examined the impact of 
various changes in family composition and parent characteristics on 
poverty rates.\7\ Specifically, Thomas and Sawhill used Census Bureau 
data from 2001 to determine the degree to which child poverty would be 
reduced by full time work, marriage, increased education, reduced 
family size, and doubling welfare benefits. Their analysis shows that 
increasing work effort and increasing marriage rates would have the 
greatest impacts on poverty (Figure 3).
---------------------------------------------------------------------------
    \7\ Adam Thomas and Isabel Sawhill, ``For Richer or for Poorer: 
Marriage as an Antipoverty Strategy,'' Journal of Policy Analysis and 
Management, vol. 21, no. 4 (September 2002): 587-599; and Ron Haskins 
and Isabel Sawhill, Work and Marriage: The Way to End Poverty and 
Welfare, WR&B Policy Brief No. 28 (Washington, D.C.: Brookings, 2003).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The relationship between work and poverty reduction is especially 
impressive. Poor parents work about half as many hours as nonpoor 
parents.\8\ The Brookings analysis shows that if poor parents were to 
work full time at the wages they currently earn (for those who work) or 
could earn (based on their education for those who don't work), the 
poverty rate would plummet from 13 percent to 7.5 percent, a reduction 
of nearly 45 percent. If the single most potent antidote to poverty is 
work, marriage is not far behind. The likelihood of being married is a 
striking difference between the poor and the non-poor. The poor are 
only half as likely to be married as the nonpoor--40 percent for the 
poor as compared with 80 percent for the nonpoor.\9\ Of course, the 
adults in these families differ in other ways as well, so the huge 
difference in poverty rates between married couples and single parents 
cannot be attributed solely to marital status. The Brookings simulation 
examined the poverty impact of an increase in marriage rates among the 
poor without changing any of their other characteristics. Specifically, 
the simulation increased the marriage rate to the rate that prevailed 
in 1970. Between 1970 and 2001, the overall marriage rate declined by 
17 percent while the marriage rate for blacks declined by over 34 
percent. The simulation works by matching single mothers and unmarried 
men who are similar in age, education, and race. In other words, these 
virtual marriages take place between real single males and single 
mothers with children who report their status to the Census Bureau. 
Thus, the actual incomes of real single men, who are paired with real 
single mothers on the basis of demographic similarities are used in the 
analysis. All that changes is marital status.
---------------------------------------------------------------------------
    \8\ Ron Haskins and Isabel Sawhill, Work and Marriage: The Way to 
End Poverty and Welfare, WR&B Policy Brief No. 28 (Washington, D.C.: 
Brookings, 2003).
    \9\ Daniel Lichter, Deborah R. Graefe, and J. Brian Brown, ``Is 
Marriage a Panacea? Union Formation among Economically Disadvantaged 
Unwed Mothers,'' Paper presented at annual meeting of the Population 
Association of America, March 29-31, 2001, in Washington, D.C.
---------------------------------------------------------------------------
    The effect of the increase in marriages to the rate that prevailed 
in 1970 is to reduce the poverty rate from 13.0 percent to 9.5 percent, 
a reduction of 27 percent (Figure 3). Although not as great as the 
impact of full-time work, increasing the marriage rate nonetheless has 
a very substantial impact on poverty.
    A second example of the impact of marriage on poverty is provided 
by a series of studies conducted by Robert Lerman of the Urban 
Institute in Washington, D.C. In separate studies, Lerman used three 
national data sets that capture information on representative samples 
of the U.S. population. According to a summary prepared by Kelleen Kaye 
of the Department of Health and Human Services, Lerman's studies show 
that:
  --Married families with two biological parents have lower rates of 
        poverty and material hardship, even after controlling for other 
        factors such as education and race, than any other type of 
        family including single parents and cohabiting parents. Even in 
        the case of families with lower levels of education, those 
        headed by married biological parents are better off than either 
        single parents or cohabiting parents.
  --Married biological parents provide a more stable rearing 
        environment for their children and are able to weather hard 
        times better than single or cohabiting couples in part because 
        they receive more assistance from friends, family, and 
        community.
  --Marriage itself makes actions that limit hardship--better 
        budgeting, planning, pulling together in a crisis--more common, 
        even among people with similarly low income and education.\10\
---------------------------------------------------------------------------
    \10\ Kelleen Kaye, Effects of Marriage on Family Economic Well-
being: Summary (Washington, D.C.: U.S. Department of Health and Human 
Services, 2004).
---------------------------------------------------------------------------
    As illustrated by the Brookings study and the Lerman research, 
scholarly work finds that marriage reduces poverty and material 
hardship even when other differences between single and married parents 
are controlled and even when the analysis is confined to low-income 
families. But another benefit of marriage may be of even greater 
interest to the members of the Appropriations Committee. Since 1994, 
with publication of a seminal volume on children in single-parent 
families by Sara McLanahan of Princeton and Gary Sandefur of the 
University of Wisconsin, there has been growing agreement among 
researchers that children do best in married, two-parent families.\11\ 
More recently, an entire issue of the journal The Future of Children, 
published jointly by Brookings and Princeton University, was devoted to 
the effects of marriage on child well-being. The journal contains eight 
original articles that explore trends in marriage and evidence on the 
impact of marriage on children. As the editors of the journal conclude 
in their introduction, the best evidence currently available shows that 
marriage ``continues to be the most effective family structure in which 
to raise children.'' \12\ Children who grow up in married two-parent 
families achieve higher levels of education, are less likely to become 
teen parents, and are less likely to have behavioral or health 
problems. As with studies of family economic well-being, many factors 
other than family composition contribute to these outcomes. Even so, 
when social scientists use statistical techniques to control for these 
other differences, children from single-parent families still show 
these educational, social, and health problems to a greater degree than 
children reared by married biological parents.
---------------------------------------------------------------------------
    \11\ Sara McLanahan and Gary Sandefur, Growing Up with a Single 
Parent: What Hurts, What Helps (Cambridge, MA: Harvard, 1994).
    \12\ Sara McLanahan, Elisabeth Donahue, and Ron Haskins, 
``Introducing the Issue: Marriage and Child Wellbeing,'' Future of 
Children, vol. 15, no. 2 (Fall 2005): 10-12; and Ron Haskins, Sara 
McLanahan, and Elisabeth Donahue, ``The Decline in Marriage: What To 
Do,'' Future of Children Policy Brief, Fall 2005.
---------------------------------------------------------------------------
    Nor are children the only members of families whose well-being is 
affected by marriage. As shown in a recent book by Linda Waite of the 
University of Chicago and Maggie Gallagher of the Institute for 
American Values in New York, marriage confers a wide range of benefits 
on adults.\13\ Based largely on their review of the empirical 
literature, Waite and Gallagher find that people who get and stay 
married live longer, have better health, have higher earnings and 
accumulate more assets, rate themselves as happier and more satisfied 
with their sex lives, and have happier and healthier children than 
people who don't marry or people who divorce their spouses.
---------------------------------------------------------------------------
    \13\ Linda Waite and Maggie Gallagher, The Case for Marriage (New 
York: Doubleday, 2000).
---------------------------------------------------------------------------
    Taken together, empirical studies provide a strong case for the 
benefits of marriage. If marriage rates could be increased, it can be 
predicted with some confidence that poverty rates would decline; that 
children would improve their school achievement, have fewer teen 
pregnancies, and have better health and mental health; and that adults 
would live longer, be happier, be more productive, be wealthier, and be 
more effective parents.
What To Do
    But how can rates of healthy marriage be increased? I believe it is 
a good thing that this question is now a leading issue of public policy 
at both the federal and state level. If policymakers, community 
leaders, and parents can figure out the answer, we will ``promote the 
general welfare'' of the nation.
    We should begin with a frank assessment of the evidence on marriage 
promotion. If the evidence on the benefits of marriage is strong, the 
evidence on good ways to promote marriage is modest. Thus, I would 
propose a three-part strategy to the committee: jaw-boning, continuing 
the already strong record of creating programs to reduce nonmarital 
births, and creating programs with the explicit goal of promoting 
healthy marriages.
    Jaw-Boning.--Congress has already taken several actions to focus 
the public's attention on the importance of family composition to the 
nation's general welfare. The 1996 welfare reform law was perhaps the 
first time that Congress forcefully brought the issue of family 
composition to public attention. Not only did the law contain several 
provisions intended to reduce nonmarital births, but the law converted 
the old Aid to Families with Dependent Children program into the 
Temporary Assistance for Needy Families program and gave it four 
specific goals. Three of the four goals address family composition; 
namely, reducing dependence on welfare by promoting work and marriage, 
reducing nonmarital pregnancies, and encouraging the formation and 
maintenance of two-parent families. Thus, reducing nonmarital births, 
increasing marriage rates, and increasing the percentage of children 
reared by their married biological parents have been explicit goals of 
federal policy since 1966.
    Thanks in large part to the Bush administration, Congress is now 
returning to family composition as a major part of the debate on 
reauthorizing the 1996 welfare reform law. This debate has once again 
forcefully brought the issue of family composition to public attention 
and has ignited an intense discussion that is being taken up, not just 
in Congress, but on the nation's editorial pages and in campaigns for 
political office around the country. If the years of Congressional 
debate on the importance of work as a replacement for welfare is any 
example, this kind of public debate serves the vital purpose of 
clarifying the nation's values on marriage and child rearing and 
reminding the public of how important it is to preserve and promote 
marriage and two-parent families. Using the bully pulpit to emphasize 
the importance of marriage for the well-being of our children, and even 
more broadly, to generate public discussion of the vital role of 
marriage in our culture, is one of the most worthy uses of the 
reservoir of respect and trust held by our elected officials and other 
community leaders.
    Reducing Nonmarital Births.--In addition to promoting public debate 
on the value of marriage, Congress should continue its efforts to 
reduce nonmarital births. Research shows clearly that having a child 
outside marriage, in addition to portending numerous problems for both 
the mother and child, substantially reduces the likelihood that the 
mother will subsequently marry.\14\ Nonmarital birth is precisely the 
problem that Senator Moynihan emphasized in his infamous paper nearly 
four decades ago. Unfortunately, Congress waited many years before 
doing anything about the problem, but several important programs are 
now underway. Until Congress passed the 1996 welfare reform law, these 
programs were aimed almost exclusively at reducing nonmarital births 
through family planning. But the 1996 welfare reform law contained 
several provisions designed to reduce nonmarital births through the use 
of other strategies. These included allowing states to stop increasing 
the size of welfare checks when mothers on welfare have babies, 
allowing states to deny cash benefits to unmarried mothers, 
strengthening paternity establishment requirements and child support 
enforcement, requiring teen mothers to live under adult supervision and 
to continue attending school or lose their cash welfare benefit, giving 
a cash bonus to states that reduce their nonmarital pregnancy rate, and 
establishing a new program of abstinence education.
---------------------------------------------------------------------------
    \14\ Daniel Lichter, Deborah R. Graefe, and J. Brian Brown, ``Is 
Marriage a Panacea? Union Formation among Economically Disadvantaged 
Unwed Mothers,'' Paper presented at annual meeting of the Population 
Association of America, March 29-31, 2001, in Washington, D.C.
---------------------------------------------------------------------------
    The abstinence education program has now been implemented in every 
state except California and has been substantially expanded by 
legislation enacted in 1997. Congress also enacted legislation 
requiring that the abstinence education program be subjected to a 
scientific evaluation. The Mathematica Policy Research firm of 
Princeton, New Jersey has published results for the first year of 
operation of four abstinence education program.\15\ First year results 
are confined to whether the programs had impacts on attitudes such as 
opinions about abstinence, teen sex, and marriage as well as to views 
about peer influences, self-concept, ability to refuse sexual advances, 
and perceived consequences of teen sex. Following these adolescents as 
they move through the teen years will yield information on whether the 
programs cause adolescents to delay sex, to have sex less frequently 
and with fewer partners, and to avoid pregnancy. Meanwhile, the Bush 
administration has adopted the policy of expanding abstinence programs 
until the amount of money the federal government spends on abstinence 
is roughly equal to the amount spent on family planning.
---------------------------------------------------------------------------
    \15\ Rebecca A. Maynard and others. First-Year Impacts of Four 
Title V, Section 510 Abstinence Education Programs (Princeton, NJ: 
Mathematica Policy Research, June 2005).
---------------------------------------------------------------------------
    Recent reviews of research have found that a variety of programs, 
including programs that promote abstinence and family planning, 
programs that involve youth in constructive activities after school, 
and programs that emphasize service learning are effective in reducing 
sexual activity among teens.\16\ A recent study conducted by 
researchers from the Centers for Disease Control reached the conclusion 
that the decline in teen pregnancy is due about half to delayed 
initiation of sexual intercourse among youth and half to improved 
contraception.\17\ Based on this study, it seems wise to continue 
funding for abstinence programs, family planning programs, and youth 
development and service programs until better information is available 
showing that one of these approaches produces superior results.
---------------------------------------------------------------------------
    \16\ Jennifer Manlove, Angela Romano Papillio, and Erum Ikramullah, 
Not Yet: Programs to Delay First Sex among Teens (Washington, D.C.: 
National Campaign to Prevent Teen Pregnancy, September 2004); and 
Jennifer Manlove and others, A Good Time: After-School Programs to 
Reduce Teen Pregnancy (Washington, D.C.: National Campaign to Prevent 
Teen Pregnancy, January 2004).
    \17\ John S. Santelli and others, ``Can Changes in Sexual Behaviors 
among High School Students Explain the Decline in Teen Pregnancy Rates 
in the 1990s?'' Journal of Adolescent Health, vol. 35 (August 2004): 
80-90.
---------------------------------------------------------------------------
    That public policy and private action is producing favorable 
results already is undeniable. The birth rate to teenagers has fallen 
every year since 1991 and has declined by a little less one-third 
during that period.\18\ This is exceptionally good news. In addition, 
the nonmarital birth rate among all women leveled off in 1995 after 
more than three decades of continuous growth and has increased only 
slightly since then. There is still a great deal of room for 
improvement, but progress is being made.
---------------------------------------------------------------------------
    \18\ Federal Interagency Forum on Child and Family Statistics, 
America's Children: Key National Indicators of Well-Being, 2005, p. 10.
---------------------------------------------------------------------------
    All the more reason the federal government, working with the 
states, should continue and even expand its campaign against nonmarital 
births. Policies that support both family planning and abstinence 
education should be continued. One issue that deserves attention, 
however, is whether all entities receiving federal support are making a 
serious effort to offer an abstinence message. There are indications 
that many programs, especially Title X clinics, dispense birth control 
without engaging recipients in a full assessment of the health and 
other consequences of sexual activity. It would also be appropriate, 
especially for older clients, to discuss the advantages of marriage 
with those who indicate some interest in marriage in response to 
standard inquiries. If the website of the Title X program is any 
example, any thought about abstinence or marriage is beyond the purview 
of Title X clinics.\19\
---------------------------------------------------------------------------
    \19\ Melissa G. Pardue, Robert E. Rector, and Shannan Martin, 
Government Spends $12 on Safe Sex and Contraceptives for Every $1 Spent 
on Abstinence, Backgrounder No. 1718 (Washington, D.C.: Heritage 
Foundation, January 14, 2004).
---------------------------------------------------------------------------
    Fund Healthy Marriage Programs.--The third component of a federal 
strategy to promote healthy marriages is to fund programs that aim 
explicitly to either reduce divorce or promote healthy marriage among 
unmarried couples, especially those that have had or are expecting to 
have a baby. The proposals adopted by the House and the Senate in their 
respective welfare reform reauthorization bills would provide an 
excellent start toward establishing programs of this type. State and 
local governments and private organizations, including faith-based 
organizations, could participate, thereby preventing the federal 
government from directly conducting the programs. Further, both bills 
make it clear that only states, organizations, and individuals who want 
to participate would do so. No program of mandatory marriage education 
or other pro-marriage activity should be funded. Similarly, in awarding 
funds on a competitive basis, the Department of Health and Human 
Services should continue its policy of ensuring that programs consider 
the issue of domestic violence and make provisions for addressing it 
where necessary. Finally, because we know so little about marriage-
promotion programs, especially with poor and low-income families, the 
Department should insist that all projects have good evaluation 
designs, based on random assignment where possible. Our primary goal 
over the next decade or so should be to learn what works and for whom.
    Research has already produced good evidence that marriage education 
programs can be effective in the short run in improving communication, 
reducing conflict, and increasing happiness. Most of these programs 
have been implemented with married couples that are not poor, but there 
is good reason to believe that the short-term benefits of marriage 
education would be achieved with poor families as well.\20\
---------------------------------------------------------------------------
    \20\ M. Robin Dion, ``Healthy Marriage Programs: What Works,'' 
Future of Children, vol. 15, no. 2 (Fall 2005):139-156.
---------------------------------------------------------------------------
    Many states and private organizations appear to be ready and able 
to work specifically with poor and low-income unmarried parents. For 
their part, the early evidence indicates that poor couples would 
willingly participate in these programs. Sara McLanahan at Princeton 
and a host of top researchers around the nation are conducting a large-
scale study of couples that have children outside marriage.\21\ The 
couples are disproportionately poor and from minority groups. This 
important research has already exploded several myths about couples 
that have nonmarital births. First, about 80 percent of the couples are 
involved exclusively with each other in a romantic relationship. In 
fact, about half of the couples live together. Couples that produce 
nonmarital births, in other words, typically do not have casual 
relationships. Second, a large majority of both the mothers and fathers 
think about marriage and say that they would like to be married to each 
other. Third, most of the fathers earn more money than the myth of 
destitute and idle young males would have us believe. Although nearly 
20 percent of the fathers were idle in the week before the child's 
birth, showing that employment is a problem for some of these men, the 
mean income of fathers was nonetheless over $17,000. Fourth, almost all 
the fathers say they want to be involved with their child--and almost 
all the mothers want them to be. If these young parents are 
romantically involved, if most say they are interested in marriage and 
want the father to be involved with the child, and if most have the 
economic assets that could provide a decent financial basis for 
marriage, then why don't more of these young couples marry? It would 
make great sense for states and private, especially faith-based, 
organizations to mount programs that attempt to help these young 
couples make progress toward marriage. The Department of Health and 
Human Services is already funding research programs of this type, but 
more such programs should be undertaken all over the nation.
---------------------------------------------------------------------------
    \21\ Sara McLanahan and others, The Fragile Families and Child 
Wellbeing Study Baseline Report (Princeton, NJ: Princeton Center for 
Research on Child Wellbeing, 2001).
---------------------------------------------------------------------------
    A new entry on the scene of healthy marriage programs is Senator 
Brownback's proposal to initiate Marriage Development Accounts and pre-
Marriage Development Accounts in the District of Columbia. Under this 
proposal, two new programs would provide low-income married and engaged 
couples with savings accounts that would provide a match of $3 from 
public and private sources for every $1 saved. The matched part of the 
account must be spent on job training or education, purchasing a home, 
or starting a business. Both financial and marriage counseling would 
also be available to the couples.
    Matched savings accounts for low-income adults, often called 
``individual development accounts,'' appear to be growing in popularity 
as an important method to help poor and low-income workers improve 
their economic status. Recent high-quality research on matched savings 
accounts shows that low-income individuals will put part of their 
meager earnings in savings accounts if the savings are matched. There 
is also some evidence, especially for black participants, that the 
accounts are used to increase home ownership.\22\ These effects were 
not huge, but they are encouraging for those who believe that 
increasing savings and investing the money in education, home 
ownership, or business ventures would help poor and low-income families 
work their way up the economic ladder.
---------------------------------------------------------------------------
    \22\ Ray Boshara, Individual Development Accounts: Policies to 
Build Savings and Assets for the Poor WR&B Brief No. 32 (Washington, 
D.C.: Brookings, March 2005).
---------------------------------------------------------------------------
    These results suggest that young married couples and young couples 
involved in a close relationship but not yet married may respond to the 
incentive effects of having a matched savings account by continuing 
their marriage or close relationship and perhaps, in the latter case, 
by taking steps toward marriage. But there is a second aspect of the 
Brownback development account idea that could also have an important 
effect on the relationship between these couples. Many researchers and 
practitioners who work with poor couples believe that a major barrier 
to healthy marriage for them is economic uncertainty. As the noted 
researcher Kathy Edin of the University of Pennsylvania has concluded 
from her interviews with young unmarried mothers, there are plenty of 
other issues, such as empathy and trust, that interfere with these 
couples continuing their relationship.\23\ But both Edin and other 
researchers have come to regard poverty, unemployment, and inconsistent 
employment and income as serious barriers as well. Young low-income 
couples often tell interviewers they are thinking about marriage but 
they want to achieve stable employment and have enough money to make a 
down payment on a house before they actually get married. Thus, the 
Brownback initiative is responsive to what the couples themselves say 
they need before they would become serious about marriage.
---------------------------------------------------------------------------
    \23\ Kathryn Edin and Maria Kefalas, Promises I Can Keep: Why Poor 
Women Put Motherhood before Marriage (Berkeley: University of 
California Press, 2005).
---------------------------------------------------------------------------
    Another important advantage of the Brownback initiative is that the 
program does not reduce funds already available for poor single 
families. In the three years since the Bush administration unveiled its 
marriage education proposal, advocates for single mothers have made the 
very useful point that marriage initiatives should not be financed by 
cutting programs for single mothers. Well over a quarter of American 
children now live in single-parent families, a disproportionate share 
of which are poor. Even if marriage programs are successful, most of 
these children will continue to live in single-parent families for the 
foreseeable future. Given these facts, reducing government support for 
single-parent families to fund initiatives for marriage makes little 
sense. The Brownback proposal meets this criterion because it 
appropriates new money from the federal budget.
    There is another important and reasonable concern about the 
Brownback proposal that is being voiced by women's advocates. 
Specifically, there is a belief that some poor mothers may be tempted 
by the prospect of the Brownback matched development accounts to stay 
in a bad relationship too long. The worst case under this view is women 
staying in violent relationships. Both research and the experience of 
people working in this field show that violence is a serious problem 
among some cohabiting and married partners.\24\ While not minimizing 
this concern, at least two points should be made in considering 
government healthy-marriage programs and violence. First, the federal 
government has worked hard and spent billions of dollars to reduce 
marriage penalties in the tax code. A recent study by Gregory Acs and 
Elaine Maag of the Urban Institute shows that most low-income 
cohabiting parents (below 200 percent of poverty) would receive a bonus 
of about $2,400 from tax provisions if they got married.\25\ Thus, 
federal tax policy already contains considerable financial incentive 
for parents to marry. Second, the Brownback proposal provides a cash 
incentive of $300 for couples to attend four marriage counseling 
classes. Research suggests that classes of this type often provide a 
forum for abuse to be reported and for couples to receive counseling. 
Many, perhaps most, of these programs counsel the female to leave the 
relationship if violence is serious or continues.
---------------------------------------------------------------------------
    \24\ Andrew Cherlin and others, ``Domestic Abuse and Patterns of 
Marriage and Cohabitation: Evidence from a Multi-Method Study,'' 
presented at the conference ``Marriage and Family Formation among Low-
Income Couples: What Do We Know from Research?'' sponsored by the 
National Poverty Center (Washington, D.C., September 2003); and John 
Gottman and Neil Jacobson, When Men Batter Women: New Insights into 
Ending Abusive Relationships (New York: Simon & Shuster, 1998).
    \25\ Gregory Acs and Elain Maag, Irreconcilable Differences? The 
Conflict between Marriage Promition Initiatives for Cohabiting Couples 
with Children and Marriage Penalties in Tax and Transfer Programs 
(Washington, D.C.: Urban Institute, April 2005).
---------------------------------------------------------------------------
    Although the Brownback proposal seems on its face to be a wise 
investment of public funds to attack one of the nation's leading social 
problems, it is essential that part of the money be used to conduct 
research on the effects of the program. The marriage movement in the 
United States has had considerable success in convincing people that 
married parents provide the best rearing environment for children and 
that nonmarital births are a deeply serious national problem. Moreover, 
many policymakers and other opinion leaders believe that government 
investments in activities intended to remove barriers to marriage and 
to promote healthy marriage are reasonable. But what is needed now is 
evidence that programs actually can have impacts in reducing nonmarital 
births, increasing marriage, and producing positive impacts on the 
development and well-being of children. Thus, I would strongly 
recommend that the Brownback evaluation language be beefed up to set 
aside at least $100,000 of the appropriated funds to conduct research 
on the effects of the programs, using random assignment designs if 
possible. Only in this way will the proposal have the intended effect 
of increasing knowledge about what actually works to increase marriage 
rates and produce positive impacts on children.

STATEMENT OF DR. MALCOLM SMITH, DIRECTOR OF OPERATIONS, 
            CENTER FOR FATHERS, FAMILIES AND WORKFORCE 
            DEVELOPMENT, BALTIMORE, MD
    Senator Brownback. Mr. Smith.
    Dr. Smith. Good morning. Thank you for inviting me to 
testify today. I want to begin by saying that this is the most 
critical issue facing the African-American community today. The 
formation of families and our ability to rear children in two 
parent households is of the utmost importance.
    Some of the issues that Delegate Norton alluded to such as 
incarceration, poverty, crime and the ills thereof, I believe 
all stem from children who are reared in homes without access 
to both the economic and emotional benefits of both parents. 
The Center for Fathers, Families and Workforce Development is a 
nonprofit. I'm located in Baltimore, Maryland.
    We're primarily African-American and serve an African-
American population. Prior to the implementation of welfare 
reform, marriage wasn't even on our agenda, it wasn't on our 
radar. We primarily provided workforce development, responsible 
fatherhood as well as co-parenting service for our fathers and 
families.
    But what we found was, there were members of our client 
population who were deeply interested in maintaining an intact 
family unit. We stumbled upon a request, a long-term family 
that we serve requested to get married at our office. You know, 
it was wonderful for us, we would've enjoyed the opportunity to 
support them.
    However, we were immediately confronted with their life 
challenges. Duane and Brenda Grimes, who had also testified, I 
believe, before this subcommittee some time ago, were drug 
addicts, they were in recovery. They had low income levels, 
they had six children between them. But nonetheless, they 
wanted to form a family.
    We supported their decision, we stepped up to the challenge 
and 4 years later, Duane and Brenda are still together. Not 
without their challenges because, for many of us who are 
married, we know marriage is a benefit and it is also a 
challenge.
    But nonetheless, what we found from this experience is that 
low income, poor African-Americans in Baltimore City were 
deeply interested in the issue of marriage. Prior to taking 
this on, we somewhat assumed there was trepidation on their 
part. Once we began the process of community engagement, 
working with the clergy, working with community leaders, what 
we immediately found was that we had missed the boat. We missed 
the ball on what they wanted to do for their own families, what 
they wanted to do for their communities and for their children.
    Since then we've implemented the Building Strong Families 
(BSF) Demonstration Project and Partnership with the Annie E. 
Casey Foundation, Brookings Institution and Mathematical Policy 
Research. In this demonstration, the goal of which is to 
determine the efficacy of marriage interventions, I wish, for 
the sake of the families that are enrolled in BSF, we had 
access to marriage development accounts.
    It's my firm belief and the firm belief of my organization, 
that marriage development accounts would assist in reducing the 
economic and policy disincentives to low income couples to 
marry. There are a number of provisions that are currently in 
place that make it almost not very smart for low income moms 
and dads to come together.
    Senator Brownback. What are those?
    Dr. Smith. For example, even though welfare reform provided 
for two parent households in the calculation of benefits, when 
introducing an additional income, it substantially reduces the 
food stamp benefit, the TANF benefit as well as access to 
public housing for low income couples.
    So if we're speaking about a mom and a dad, who combined 
have an income of about $30,000 and two children between them, 
they live in the District of Columbia, you really have to do 
the math. What can they afford in rent? What can they afford in 
food? And so the subsidies that the mom receives on her part, 
including the earned income tax credit, food stamps and TANF 
far outweigh the benefit of having a male in the household.
    However, there is a benefit. There's an emotional benefit, 
there is a benefit, especially for a male child of having a 
male in the household. Especially for a young girl, when a 
young girl begins to develop, who will be her role model for 
the man she will have in the future? It's typically the father.
    And so the people in the families we work with, they have 
to balance the future outcomes against the realities right now. 
And the reality right now is that they have to feed their 
families, keep a roof over their heads and ensure that their 
children have clothes on their back.
    And a marriage development account would provide or counter 
some of the policy and economic disincentives that are 
currently in place, that almost disparage, that almost counters 
the thinking in their wants and their hopes for their 
children's advancement.
    Senator Brownback. Let me ask you a quick question. If you 
were to change these factors, then would you make them neutral 
or try to make them positive for marriage of low income 
couples, when you're talking about food stamps, TANF, low 
income housing, earned income tax credit.
    Dr. Smith. Oh, I would make them positive. The research 
from the Fragile Families and Child Welfare Study has indicated 
that there is a magic moment when a mom and a dad are together, 
they are in a relationship and that's also the same moment 
where they engage the social welfare system.
    If we could make it possible that if this was a married 
couple, an intact family unit, their access to public subsidies 
wouldn't be denied, I think it will provide them with the 
bridge that they need to go from being in poverty to somewhere 
closer to economic self-sufficiency, and we would have the 
value added of keeping the family intact.
    Senator Brownback. Good, sorry to interrupt. You really 
caught my eye on the--it's been my view of Government for some 
period of time, everybody acts economically rational, I don't 
care where they are in the system, they act economically 
rational. So if the economic incentives are contrary, they act 
economically rational and where the incentives are, take them.
    [The statement follows:]

                 Prepared Statement of D. Malcolm Smith

    Chairman Brownback and Members of the Subcommittee: Thank you for 
providing me with the opportunity to testify. I am Donald Malcolm 
Smith, Director of Operations for the Center for Fathers, Families and 
Workforce Development (CFWD). CFWD is a community based nonprofit 
organization established in 1999 that provides workforce development, 
responsible fatherhood and family services to the low-income residents 
of Baltimore City.
    When CFWD was created, we could not have imagined that we would be 
a part of a demonstration project to assess the efficacy of marriage 
interventions for low-income parents or that we would be at the 
forefront of providing healthy relationship and marriage services to 
families in Baltimore City. Nonetheless, we have found ourselves at the 
center of what we believe is one of the most critical issues 
confronting the African-American community and our society in general: 
how can we encourage the formation and maintenance of two-parent 
families?
    Nine years ago with the enactment of welfare reform, Congress 
implemented the most sweeping changes to our nation's social welfare 
system since the passage of the Social Security Act of 1935. While 
there was some consternation among service providers and advocates, 
there is now common agreement that the policy changes brought about by 
welfare reform have greatly enhanced the lives of poor children and 
families.
    Welfare reform brought about a number of shifts; however, none were 
as broad and as far reaching as the law's attention to family 
formation, having explicitly stated goals of increasing the number of 
two-parent families and encouraging marriage. At the time, CFWD 
provided responsible fatherhood services to low-income dads and co-
parenting education to low-income couples, marriage was not yet on our 
radar. However, because of an unexpected request from one of the 
families we served we were forced to figure out how to respond to the 
issue of marriage.
    In 2001, Duane and Brenda Grimes invited our President and CEO, Joe 
Jones, to their home and informed him that not only did they want to 
get married, but wanted get married at our facility. Our thoughts 
focused on the family and the challenges they had overcome. Drug 
addiction, $30,000 in child support arrearages, six children between 
them, and living in public housing with very little income. Duane's and 
Brenda's situation mirrored couples throughout our city, but they had 
an advantage--an organization that believed in their ability to be 
parents and form a family through marriage. We accepted their challenge 
and today Duane and Brenda have been married for four years.
    From this one request our organization embarked on a series of 
activities. Beginning with internal meetings to assess and cultivate 
organizational culture; meetings with the clergy; families and 
community leaders; the hosting of a citywide community conversation; 
the development of the Exploring Relationships and Marriage with 
Fragile Families Curriculum for the state of Louisiana and lastly the 
implementation of the Building Strong Families Demonstration Project in 
partnership with the Annie E. Casey Foundation, Brookings Institution 
and Mathematica Policy Research. Participation in the Building Strong 
Families (BSF) demonstration has provided us the opportunity to build 
on the inherent want of mothers and fathers to form families and rear 
their children, together. BSF allows us to implement what research has 
confirmed--that there is a magic moment on which a lasting relationship 
between parents can be constructed and children fare best when reared 
in homes free from violence with parents who are married.
    I want deeply to tell the committee that the traditional approach 
to forming families, where people marry and have children is the norm 
in my community, but that simply is not the case. It is the ideal, but 
not the reality. These families must be met where they are: living in 
challenged communities struggling to provide for their children and 
remain together.
    Ensuring that low-income parents have the wherewithal to marry and 
be good parents, hinges not only on our ability to provide education 
and support; but also on our will to remove the policy and economic 
disincentives that make marriage less attractive to low-income parents. 
Right now in the District of Columbia this body has the opportunity to 
provide an economic incentive to low-income parents to fulfill their 
dreams, rear their children together and become married. In fact one of 
CFWD's clients who was pregnant and in a relationship with her child's 
father expressed that marriage was not a consideration because she 
would lose the healthcare benefits for herself and soon to be born 
child. I am sure that circumstances like these replay themselves in 
low-income communities throughout our country.
    For low-income parents, the public subsidies they need to survive 
(food stamps, public housing, health insurance, etc.) weigh heavily on 
their decisions. They must balance paying bills and caring for their 
children against getting married. If we had this opportunity in 
Baltimore, low-income parents would feel more comfortable about 
formalizing there unions. Marriage Development Accounts (MDA's) in 
tandem with other income subsidies could provide low-income parents 
with the resources they need to form and maintain two parent married 
households.

STATEMENT OF DR. W. BRADFORD WILCOX, ASSISTANT 
            PROFESSOR OF SOCIOLOGY, UNIVERSITY OF 
            VIRGINIA, CHARLOTTESVILLE, VA
    Senator Brownback. Dr. Wilcox.
    Dr. Wilcox. Thank you, Mr. Chairman. My name is Brad Wilcox 
and I'm a professor of sociology at the University of Virginia 
and Resident Fellow of the Institute for American Values in New 
York City.
    Let me quickly answer four questions. One: What has 
happened to marriage in the last 50 years? Two: Why does 
marriage matter? Three: Why has our society experienced a 
retreat from marriage? Four: How might marriage development 
accounts strengthen marriage in the District?
    First, with regard to the retreat from marriage, as these 
charts have indicated early this morning, we've seen a dramatic 
retreat from marriage in the last 50 years. In 1960, just 5 
percent of kids were born outside of marriage. Today, more that 
one-third are. We've also seen similar increases in divorce.
    What many Americans don't always realize is that minorities 
and the poor form the brunt of this retreat from marriage. 
Rates of non-marital child bearing and divorce are twice or 
more among minorities than low income Americans.
    The consequence is that we see a marriage divide opening up 
in our society, with African-Americans along with working class 
and poor Americans, are finding much more difficult than other 
Americans to fulfill their dreams of life long marriage.
    The second question is, how does marriage or why does 
marriage matter? And although marriage as a whole in America 
has weakened in the last 50 years, marriage still conveys 
important goods to children, families, and the commonwealth. In 
a recent report I co-authored with 15 other family scholars, we 
found that children that are reared in an intact married family 
are about half as likely to suffer from depression, drug abuse, 
and to attempt suicide compared to kids reared in single parent 
families.
    We also find similar trends when it comes to things like 
going to prison, and having a pregnancy as a teenager. And I 
should also mention here that all of these things control for 
things like race, income and education. These are net effects 
of family structures. These are some of the reasons why 
marriage matters.
    But I think we also have to point out here, and what seems 
less well known, is that marriage also benefits lower income 
and minority communities. For instance, in the words of Harvard 
sociologist Robert Sampson, ``family structure is one of the 
strongest, if not the strongest predictor of urban violence 
across cities in the United States.''
    Another new report from the Institute of American Values 
focuses on marriage among African-Americans and this report 
concludes by observing that marriage, ``Promotes the economic, 
social, familial, and psychological well-being of African-
American men and women.'' So the bottom line here is that 
marriage matters to the welfare of all Americans, including 
poor and minority Americans.
    The third question I raise is if marriage is such a good 
thing, why is it in retreat? This is obviously a huge question, 
but scholars now believe that the retreat from marriage of the 
last 50 years is largely rooted in four causes.
    First, the normative consequences of the pill and abortion. 
Second, the role of feminism and the changing status of women. 
Third, declines in men's real wages. And fourth, welfare 
policy.
    Now, I only have time to focus on the last point and that 
is that welfare policy has played a role here in driving down 
marriage. For instance, most programs that are designed to 
serve the poor that have been added since the 1960s are means 
tested, which means that benefits are lowered or eliminated as 
household income increases.
    Consequently, these programs often penalize the low income 
couples who marry. Especially when both spouses bring income 
into their relationship. For instance, Gene Sterle at Urban 
Institute estimated for the single mother with two children, 
who has an income of $15,000 and is dating a cohabitating man 
who earns $10,000 would stand to lose almost $2,000 in her 
earned income tax benefit, were she to marry.
    So there are some real disincentives here built into our 
welfare system when it comes to marriage. And these have helped 
to propel our retreat from marriage. Finally, on the point 
about marriage development accounts, because Federal welfare 
policy typically penalizes marriage among lower income couples 
and because marriage provides important benefits of such 
couples, I welcome your bill to establish marriage development 
accounts in the District.
    Marriage is particularly fragile among lower income and 
minority residents in the District who often face very real 
financial penalties if they seek to marry. This bill would help 
to reduce the marriage penalty that many residents in the 
District face. The bill also indicates that couples who attend 
marriage education are eligible for a $300 bonus. Research 
shows that education can be helpful in fostering happier, more 
stable marriages if this education provides couples with 
relationship skills and a normative commitment to marriage 
itself.
    My hope is that the bill would incorporate both of those 
elements, the skills element and the normative commitment 
element in that education. In conclusion, this bill is a modest 
but important step in the direction of restoring marital sanity 
to our Nation's welfare policies. I hope to see more efforts 
like this in the near future.
    These efforts are particularly important if you wish to 
close the marriage divide that has opened up in recent years, a 
divide that makes it much more difficult for African-Americans 
and lower income citizens and their children to benefit from 
the social, emotional, and material advantages of marriage. 
Thank you.
    Senator Brownback. Thank you, that was very succinct and 
strong factual information. I appreciate that, thanks.
    [The statement follows:]

            Prepared Statement of W. Bradford Wilcox, Ph.D.

    Thank you, Mr. Chairman and members of the Subcommittee, for the 
opportunity to testify on the role that marriage plays in our society--
especially among African Americans and the poor. My name is Brad Wilcox 
and I am a professor of sociology at the University of Virginia and a 
resident fellow at the Institute for American Values, a research 
organization founded in 1987 dedicated to the study of family well-
being and civil society.
    My aim this morning is to answer four questions: (1) What has 
happened to marriage in the last 50 years?; (2) How does marriage 
matter to children, families, and to the commonweal?; (3) Why has our 
society experienced a retreat from marriage?; and, (4) How might 
Marriage Development Accounts strengthen marriage in the District of 
Columbia?

                       THE RETREAT FROM MARRIAGE

    In the last fifty years, the United States has witnessed a dramatic 
retreat from marriage. A quick look at the statistics reveals the main 
contours of this retreat. In 1960, five percent of children were born 
outside of marriage; today, more than one-third of all children are 
born outside of marriage.\1\ (In the District of Columbia, 20 percent 
of children were born out of wedlock in 1960, whereas today about 57 
percent of children are born out of wedlock.) \2\ In 1960, 69 percent 
of adults were married, whereas today only 55 percent of adults are 
married. Finally, the divorce rate for first marriages stood at about 
20 percent in 1960; today the divorce rate for first marriages is 
around 45 percent.\3\ Consequently, marriage as an institution has a 
much weaker hold over the lives of children, adults, and communities 
than it did a half-century ago.
---------------------------------------------------------------------------
    \1\ W. Bradford Wilcox et al. 2005. Why Marriage Matters, Second 
Edition: Twenty-Six Conclusions from the Social Sciences. New York: 
Institute from American Values.
    \2\ http://aspe.hhs.gov/hsp/indicators05/apc.htm.
    \3\ David Popenoe. 1999. Life Without Father. Cambridge: Harvard 
University Press. David Popenoe and Barbara Dafoe Whitehead. 2005. The 
State of Our Unions: 2005. New Brunswick, NJ: National Marriage 
Project.
---------------------------------------------------------------------------
    What many Americans do not realize is that minorities and the poor 
have born the brunt of the retreat from marriage. In terms of race and 
ethnicity, 68 percent of African American births and 44 percent of 
Latino births were out of wedlock in 2002, compared to 29 percent of 
white births.\4\ (In the District of Columbia, 77 percent of black 
children are born out of wedlock, compared to 59 percent of Latino 
children and 26 percent of white children).\5\ Blacks are also about 
three times as likely to divorce as are whites.\6\ Class is also an 
important marker of our marriage divide. About 25 percent of mothers 
without a high school diploma are currently unmarried, compared to 
about five percent of college-educated mothers.\7\ Americans without 
college degrees are also almost twice as likely to divorce as their 
college-educated peers.\8\ So we see a marriage divide opening up in 
our society, with African Americans, along with working class and poor 
Americans, finding it much more difficult than other Americans to 
fulfill their dreams of lifelong marriage.
---------------------------------------------------------------------------
    \4\ Wilcox et al. 2005.
    \5\ http://aspe.hhs.gov/hsp/indicators05/apc.htm.
    \6\ David Ellwood and Christopher Jencks, 2004. ``The Spread of 
Single-Parent Families in the United States Since 1960.'' In D.P. 
Moynihan et al. (eds.) The Future of the Family (New York: Russell 
Sage): 25-65.
    \7\ David Ellwood and Christopher Jencks, 2004.
    \8\ Steven P. Martin, 2005. ``Growing Evidence for a `Divorce 
Divide'? Education and Marital Dissolution Rates in the U.S. since the 
1970s.'' College Park, MD: University of Maryland Department of 
Sociology. Unpublished manuscript.
---------------------------------------------------------------------------
                          HOW MARRIAGE MATTERS

    Although marriage's hold on America has weakened in the last 50 
years, marriage still conveys important goods to children, families, 
and the commonweal. In a recent report I co-authored with 15 other 
family scholars, we found that children who are reared in an intact, 
married family are about half as likely to suffer from depression, 
alcohol and drug abuse, and attempted suicide, compared to children 
reared in single parent families.\9\ We also find that boys who grow up 
in an intact, married family are less than half as likely to end up in 
prison, and that girls who grow up in intact, married family are about 
half as likely to end up pregnant as teenagers, compared to their peers 
who grow up outside an intact married family.\10\ Finally, we find that 
children are significantly less likely to fall into or remain in 
poverty if their parents are married, even when their parents hail from 
disadvantaged backgrounds.\11\
---------------------------------------------------------------------------
    \9\ Wilcox et al. 2005.
    \10\ Wilcox et al. 2005.
    \11\ Wilcox et al. 2005.
---------------------------------------------------------------------------
    The collective consequences of marriage are also quite large. If we 
were to increase the percent of children living in married homes to the 
level we experienced in 1970, scholars estimate that 1 million fewer 
children each year would be suspended from school, 900,000 fewer 
children each year would engage in acts of delinquency or violence, and 
61,000 fewer children each year would attempt suicide.\12\ We would 
also see child poverty drop by approximately 20 percent, and federal 
welfare spending drop by billions.\13\
---------------------------------------------------------------------------
    \12\ Paul Amato. 2005. ``The Impact of Family Formation Change on 
the Cognitive, Social, and Emotional Well-Being of the Next 
Generation.'' The Future of Children 15: 75-96.
    \13\ Adam Thomas and Isabel Sawhill. 2005. ``For Love and Money? 
The Impact of Family Structure on Family Income.'' The Future of 
Children 15: 57-74. Isabel Sawhill. 1999. ``Families at Risk.'' In H. 
Aaron and R. Reischauer, Setting National Priorities: the 2000 Election 
and Beyond. Washington, DC: Brookings Institution Press.
---------------------------------------------------------------------------
    But what is less well known is that the poor and minorities also 
benefit from marriage. Mothers from disadvantaged backgrounds who marry 
typically see their living standards rise 65 percent higher than 
similar single mothers who do not marry.\14\ Other research has found 
that disadvantaged young women who have their first child in marriage 
are much less likely to end up in poverty, compared to similar women 
who have their first child outside of marriage.\15\ Similar patterns 
are found among African Americans. For instance, one study found that 
black single mothers see their income rise by 81 percent if they marry; 
this same study found that married African American mothers see their 
income fall by more than 50 percent two years after a divorce.\16\
---------------------------------------------------------------------------
    \14\ Wilcox et al. 2005.
    \15\ Wilcox et al. 2005.
    \16\ Wilcox et al. 2005.
---------------------------------------------------------------------------
    Marriage also benefits lower-income and minority communities in 
other ways. For instance, Harvard sociologist Robert Sampson finds that 
murder and robbery rates in urban America are strongly associated with 
the health of marriage in urban communities. In his words, ``Family 
structure is one of the strongest, if not the strongest, predictor of 
variations in urban violence across cities in the United States.'' \17\ 
A recent report on marriage and African Americans found that marriage 
``appears to promote the economic, social, familial, and psychological 
well-being of African American men and women.'' \18\ The bottom line is 
that marriage matters for the welfare of all Americans, including poor 
and minority Americans.
---------------------------------------------------------------------------
    \17\ Robert J. Sampson. 1995. ``Unemployment and Imbalanced Sex 
Ratios: Race-Specific Consequences for Family Structure and Crime.'' In 
M.B. Tucker and C. Mitchell-Kernan. The Decline in Marriage Among 
African Americans. New York: Russell Sage. P. 249.
    \18\ Lorraine Blackman et al. 2005. The Consequences of Marriage 
for African Americans: A Comprehensive Literature Review. New York: 
Institute for American Values.
---------------------------------------------------------------------------
                       WHY MARRIAGE IS IN RETREAT

    Scholars now believe that the retreat from marriage of the last 
fifty years is largely rooted in four causes: new birth control 
technologies and abortion, feminism and the changing status of women, 
changes in the labor market, and welfare policy.\19\ As George Akerlof, 
a Nobel-prize winning economist, has argued, the introduction of the 
Pill in the 1960s and readily available abortion in the early 1970s 
made it much easier for men and women to engage in nonmarital sex 
without worrying about pregnancy. Thus, these technologies--and the 
larger sexual revolution they helped fuel--destabilized norms around 
sex and childbearing and made premarital sex much more common than it 
was prior to their introduction; the ironic consequence was that the 
United States witnessed dramatic increases in nonmarital childbearing 
in the wake of the Pill and legal abortion.\20\
---------------------------------------------------------------------------
    \19\ Sara McLanahan. 2004. ``Diverging Destinies: How Children are 
Faring Under the Second Demographic Transition.'' Demography 41: 607-
627.
    \20\ George Akerlof, Janet Yellen, and M.L. Katz. 1996. ``An 
Analysis of Out-of-Wedlock Childbearing in the United States.'' 
Quarterly Journal of Economics 111: 277-317.
---------------------------------------------------------------------------
    Feminism and women's movement into the labor force between 1960 and 
2000 also played important roles in fueling the retreat from marriage. 
Feminism made women expect more from marriage, and more likely to avoid 
marriage in the first place or seek a divorce if a marriage did not 
meet their expectations.\21\ Women's entry into the labor force gave 
them newfound earning power and a measure of financial independence--
both of which made it easier for them to avoid marriage or leave a 
marriage.\22\
---------------------------------------------------------------------------
    \21\ McLanahan. 2004.
    \22\ McLanahan. 2004.
---------------------------------------------------------------------------
    Changes in the labor market and the economy since the early 1970s 
have made it more difficult for men with few skills and low levels of 
education to find good-paying jobs. As a consequence, these men are 
less ``marriageable''--that is, they are less attractive in financial 
terms as potential spouses to women.\23\ So another reason that 
marriage has declined is that men from minority and lower-income 
communities are seen as less attractive marriage partners than they 
were fifty years ago.
---------------------------------------------------------------------------
    \23\ McLanahan. 2004. William Julius Wilson. 1987. The Truly 
Disadvantaged: the Inner City, the Underclass, and Public Policy. 
Chicago: University of Chicago Press.
---------------------------------------------------------------------------
    Finally, welfare policy has played a role in driving marriage down. 
First, cash benefits to single mothers rose from 1955 to 1975, reducing 
the cost of a nonmarital pregnancy for women in this period.\24\ 
Second, most programs designed to serve the poor that have been added 
since the 1960s--from food stamps to the Earned Income Tax Credit 
(EITC)--are means tested, which means that benefits are lowered or 
eliminated as household income increases. Consequently, these programs 
often penalize low-income couples who marry, especially when both 
spouses bring income into their relationship.\25\ For instance, Adam 
Carasso and Eugene Steuerle at the Urban Institute estimate that a 
single mother with two children who has an income of $15,000 and is 
dating or cohabiting with a man who earns $10,000 would stand to lose 
$1,900 in her EITC benefit if she got married.\26\ Depending on her 
state of residence, she could also lose access to food stamps, housing 
assistance, and Medicaid were she to marry. Taken together, marriage 
can dramatically reduce the resources that low-income couples have at 
their disposal.
---------------------------------------------------------------------------
    \24\ McLanahan. 2004.
    \25\ Adam Carasso and C. Eugene Steurle. 2005. ``The Hefty Penality 
on Marriage Facing Many Households with Children.'' The Future of 
Children 15: 157-175.
    \26\ Carasso and Stuerle. 2005.
---------------------------------------------------------------------------
    So another reason we have witnessed a retreat from marriage is that 
the government has, over much of the last fifty years, rewarded single 
motherhood and penalized marriage through its welfare and tax policies.

                     MARRIAGE DEVELOPMENT ACCOUNTS

    Because Federal welfare policy typically penalizes marriage among 
lower-income couples, and because marriage provides important benefits 
to such couples, I welcome Senator Brownback's bill to establish 
Marriage Development Accounts (MDAs) for engaged and married couples 
who live in the District of Columbia. Marriage is particularly fragile 
among lower-income and minority residents of the District, who often 
face very real financial penalties if they seek to marry. Senator 
Brownback's bill, by providing up to $9,000 in matching funds to 
engaged or married couples who save at least $3,000, helps to reduce 
the marriage penalty that many low-income residents of the District 
face. It also is valuable insofar as it provides married couples with a 
financial reserve that may reduce the economic stresses that often 
imperil the quality and stability of marriages.\27\
---------------------------------------------------------------------------
    \27\ David Fein. 2004. Married and Poor. Bethesda, MD: Abt 
Associates.
---------------------------------------------------------------------------
    The bill also requires that this money be used to help purchase a 
home, pursue higher or vocational education, or start a business--all 
of which can help put couples on the road to financial security. In so 
doing, this bill reinforces the normative connection that our society 
draws between marriage and financial responsibility.\28\ This is a wise 
move.
---------------------------------------------------------------------------
    \28\ Steven Nock. 1998. Marriage in Men's Lives. New York: Oxford 
University Press.
---------------------------------------------------------------------------
    Finally, the bill also indicates that couples who attend marriage 
education are eligible for a $300 bonus. Research suggests such 
education can be helpful in fostering happier and more stable marriages 
if this education provides couples with relationship skills and a 
normative commitment to marriage itself.\29\ My hope is that this bill 
will fund programs that provide both skills and a normative commitment 
to marriage to couples who are married or who are interested in 
marriage.
---------------------------------------------------------------------------
    \29\ Jason Carroll and William J. Doherty. 2003. ``Evaluating the 
Effectiveness of Premarital Prevention Programs: A Meta-Analytic Review 
of Outcome Research.'' Family Relations 52: 105-118. Wilcox et al. 
2005.
---------------------------------------------------------------------------
    This bill is a modest but important step in the direction of 
restoring marital sanity to our nation's welfare policies. Most federal 
and state welfare policies designed to help the poor end up effectively 
penalizing marriage, with devastating consequences for our nation's 
most vulnerable citizens. This bill moves the federal government in a 
different direction by providing financial reward to low income couples 
who are married or seek to marry. It is voluntary and non-coercive; it 
is about carrots, not sticks.
    I hope to see more such efforts from the federal government in the 
near future. These efforts are particularly important if we wish to 
close the marriage divide that has opened up in recent years, a divide 
that makes it much more difficult for African Americans and lower-
income citizens, and their children, to benefit from the social, 
emotional, and material advantages of marriage.

STATEMENT OF REV. THABITI ANYABWILE, ASSISTANT PASTOR 
            FOR FAMILIES AND CHILDREN, CAPITOL HILL 
            BAPTIST CHURCH, WASHINGTON, DC
    Senator Brownback. Reverend, thank you very much and give 
me your correct pronunciation of your name.
    Reverend Anyabwile. Sure, it's Thabiti Anyabwile.
    Senator Brownback. Thank you.
    Reverend Anyabwile. Thank you for having me here, it's a 
pleasure to testify in support of this proposal. Let me 
approach my comments from three vantage points, both as a 
former policy analyst, as a parent and as a pastor.
    As a former policy analyst, I won't cover the ground that 
these brothers have already covered very well, but just to sort 
of in a summary fashion say that if we're concerned about the 
well-being of children and adults in a society, then the most 
fundamental thing that we have to be concerned about, according 
to the research, is how well children and parents fair in the 
context of marriage.
    And so any proposal that, as Mr. Haskins points out, that 
tries to, you know, bloom some flowers in this terrain, I think 
is worthy of our consideration. And so I'm excited to be 
speaking to the proposal.
    As a parent, let me only say that I am looking at this 
issue in part, sort of forecasting, what might be the situation 
that my daughters face. Delegate Norton talked about the 
availability of marriageable men. It's a term that I loathe, 
but it's a term that resonates with me, impacts me, as I think 
about my daughters and their prospects for marrying.
    If my daughters do what statistically African-Americans do, 
which is marry inside the ethnic group, it rates higher than 
any other ethnic group, then they are going to be facing what 
we might call ``some dim prospects'', in terms of marriageable 
men.
    So as a father, one who is committed to, concerned about 
raising daughters that have as a part of their view of the good 
life, marriage to a strong and godly man, then I am very 
concerned and very passionate about this issue and look forward 
to participating in any dialogue possible on this.
    Let me speak mostly from the vantage point of a pastor on 
this issue, briefly. This issue conjures concern for me, both 
from a theological perspective and a practical perspective.
    Theologically, real quickly, the Lord likens his 
relationship to His people, to marriage. So that Christ reveals 
himself as one loves in the church, the way a husband is to 
love a wife. And the church is to love Christ the way a wife 
loves a husband, et cetera.
    So just from a theological perspective, and understanding 
that marriage is one theater where the glory of God is 
displayed, where the love for Christ, for a fallen and sinful 
world is displayed, I am motivated to be engaged in this issue.
    From a practical perspective, I am privileged to be a part 
of the church staff that conducts some 12 to 15 marriages a 
year on average, a lot of which are among young couples, young 
20 somethings, who are entering into marriage and are 
considering marriage and are concerned about starting off on 
the right foot in marriage.
    From that vantage point, I want to echo what Dr. Wilcox has 
spoken to, in terms of the importance of marriage counseling. 
We can see, we think, a discernible difference between those 
who have good marriage counseling previous to entering into 
marriage and those who perhaps have not either had marriage 
counseling or had the kind of counseling that focuses on 
relationship skills and that is sort of centered in a normative 
context, a context where marriage is highly valued, a context 
where there is support both in rejoicing over marriage and 
support through the difficulties of marriage.
    Part of what I think is problematic as we look at African-
American communities, particularly in the inner city 
communities, very often people in situations where there is 
very little social capital, there's a great deal of isolation 
where couples exist, in some ways, too independent, radically 
independent of neighbors and friends, et cetera, who help to 
support and establish that sort of normative climate that 
values marriage and that values endurance in marriage.
    So when you asked earlier, sort of, if there was a period 
where we could change, sort of this curve, I might be inclined 
to go back and blot out the 1960s and sort of blot out that 
period, wherein the high valuation of marriage was seriously 
under attack and seriously eroded over that decade and then on 
into the 1970s and then today.
    So I want to echo the notion that this proposal supports 
that marriage counseling, and skill development is an important 
component. And doing that in the context of a community, a 
natural community, the churches, the synagogues wherein there 
is a normative climate that supports marriage is critically 
important.
    One other point on counseling, then, related to that. I 
think it would be a mistake for this bill to inadvertently or 
intentionally curve people away from whatever source of 
counseling that they would choose. So if they choose 
professional counseling, i.e., a licensed psychologist, a 
counselor, wonderful. But if they should choose to get that 
counseling in the context of a faith community or some other 
community organization, I think the bill would be wise to 
support that because that's where that sort of climate is going 
to be best reinforced. And to allow people to choose a form of 
counseling most consonant with their deepest held beliefs is 
going to be the wiser path to take, I think.
    So I want to suggest that as you go forward and think about 
this bill and think about the kinds of resources that are 
available to people, it seems to me that you are thinking 
wisely about this, but I think you want to have open to 
individuals and couples, the widest range of possible sources 
for their counseling. Thank you, Senator.
    [The statement follows:]

                Prepared Statement of Thabiti Anyabwile

    Chairman Cochran and members of this esteemed committee: I am 
Thabiti Anyabwile. I am Assistant Pastor for Families and Children at 
Capitol Hill Baptist Church here in Washington, D.C. I am a former 
Senior Policy Associate for the Center for the Study of Social Policy 
in Washington, D.C. and Program Director for former North Carolina Gov. 
James Hunt's early childhood education initiative called Smart Start. 
As a Pastor, Policy Analyst, and Parent, I thank you for the 
opportunity to appear before your committee to testify in support of 
the proposal to implement Marriage Development Accounts and pre-
Marriage Development Accounts in Washington, D.C.
    My testimony addresses three issues: the importance of promoting 
marriage for the well-being of children and parents; the importance of 
economic stability for the well-being of families; and the crucial role 
of pre-marital counseling and marriage supports.

                               BACKGROUND

    The American family has undergone significant changes in the past 
several decades. One way of summarizing these changes is to reflect on 
trends in family structure, where two general patterns are observable.
Trends in Family Structure
    First, the traditional U.S. household comprised of the married, 
two-parent biological family is statistically on the decline in the 
United States. The proportion of married family households with own 
biological children dropped from 40 percent of all households to 24 
percent between 1970 and 2000.\1\ Several factors contribute to this 
decline in the proportion of traditional households.
---------------------------------------------------------------------------
    \1\ Jason Fields and Lynne M. Casper, ``America's Families and 
Living Arrangements: March 2000,'' Current Population Reports, P20-537 
(Washington, D.C.: U.S. Census Bureau, January 2001); hereafter cited 
as Fields and Casper, ``America's Families.''
---------------------------------------------------------------------------
  --Individuals are increasingly choosing to delay first marriages.--
        This choice to delay first marriages results in mixed effects. 
        On the one hand, data show that people who wait until age 30 or 
        older often stay married longer, with fewer divorces. However, 
        delays in first marriages may be related to higher rates of 
        single-parent families.\2\ On the other hand, those who do not 
        delay first marriages but marry young have alarmingly high 
        divorce rates. Assuming continuation of recent divorce trends, 
        as many as five out of ten young married couples may eventually 
        divorce.\3\
---------------------------------------------------------------------------
    \2\ U.S. Bureau of the Census, ``Marriage, Divorce, and Remarriage 
in the 1990's,'' Current Population Reports, P23-180 (Washington, D.C.: 
U.S. Government Printing Office, 1992); hereafter cited as U.S. Bureau 
of the Census, ``Marriage, Divorce, and Remarriage in the 1990's.''
    \3\ U.S. Bureau of the Census, ``Marriage, Divorce, and Remarriage 
in the 1990's.''
---------------------------------------------------------------------------
  --Increasing numbers of individuals are choosing never to marry, and 
        never marry and raise children.--Single-mother families rose 
        from three million in 1970 to ten million in 2000. The growth 
        of single-father families, while a smaller number in absolute 
        terms, rose at an even higher rate during the same time 
        period--from 393,000 in 1970 to two million in 2000.\4\ The 
        rise in single-parent families is not without economic costs to 
        those families, however. Married couples with children are far 
        less likely to live in poverty than are single-parent families. 
        According to U.S. Census Bureau Data for 2002, 26.5 percent of 
        single-female headed households lived in poverty as compared to 
        5.3 percent of married couple families with children.\5\ In 
        addition, there is a strong relationship between educational 
        achievement and never-married childrearing, with women who are 
        high school dropouts more likely to become single parents, have 
        children at an early age, and have more children than their 
        college educated peers.\6\
---------------------------------------------------------------------------
    \4\ Fields and Casper, ``America's Families.''
    \5\ U.S. Census Bureau, Poverty in the United States: 2002 
(Washington, D.C.: Author, 2003), available at http://www.census.gov/
hhes/www/poverty02.html. See Table 2. People and Families in Poverty by 
Selected Characteristics: 2001 and 2002.
    \6\ C. Bruner and S. Scott, ``Education and Parenting: A Note on 
National Data'' (Des Moines, IA: Child and Family Policy Center, 
November 1994).
---------------------------------------------------------------------------
  --Cohabitation among couples is on the rise.--In 2000, nearly 5.5 
        million couples chose to cohabit without marrying. This figure 
        represents about 9 percent of all married and unmarried coupled 
        households and about 5 percent of all U.S. households.\7\ In 
        addition, 40 percent of these households included children 
        under the age of 18--slightly less than the 46 percent of 
        married-couple households with children under 18.\8\ Although 
        nearly 40 percent of nonmarital births are attributable to 
        cohabitation,\9\ cohabitation tends to be a short-lived 
        arrangement. Nearly 50 percent of cohabiting couples enter 
        marriage or end their relationship within one year and 90 
        percent within five years.\10\ Many couples appear to be 
        choosing cohabitation instead of marriage for a number of 
        reasons, including: sharing the costs of living expenses, weak 
        preferences for marriage, and testing a relationship before 
        marrying. However, some 75 percent of children whose parents 
        cohabit will see their parents break-up, while 33 percent of 
        children in married families will do so, suggesting that 
        cohabitation is not a route for achieving stable and long-term 
        families or marriages.\11\
---------------------------------------------------------------------------
    \7\ Tavia Simmons and Martin O'Connell, ``Married-Couple and 
Unmarried-Partner Households: 2000,'' Census 2000 Special Reports 
(Washington, D.C.: U.S. Census Bureau).
    \8\ Fields and Casper, ``America's Families,'' p. 12.
    \9\ L. Bumpass and H. H. Lu, ``Trends in Cohabitation and 
Implications for Children's Family Contexts in the United States,'' 
Population Studies 54 (2000): 29-41.
    \10\ Wendy Manning and Dan T. Lichter, ``Parental Cohabitation and 
Children's Economic Well-Being,'' Journal of Marriage and Family 58 
(1996): 998-1010.
    \11\ Katherine Anderson, Don Browning, and Brian Boyer (Eds.), 
Marriage: Just a Piece of Paper? (Grand Rapids, MI: William B. Eerdmans 
Publishing Company, 2002).
---------------------------------------------------------------------------
  --Divorce continues at high levels.--While the sharp increase in 
        divorce rates that began in the 1960's leveled off during the 
        1990's, divorce remains at very high levels and at rates nearly 
        two times higher than any other developed nation.\12\ While 
        most people will marry at least once in their lives, 
        approximately one-half of all persons who marry are projected 
        to divorce at some point in the future. The typical first 
        marriage now lasts about seven to eight years among those 
        couples that eventually divorce.\13\ In 1996, the last year for 
        which detailed marriage and divorce statistics were published 
        by the National Center for Health Statistics, 20 percent of men 
        and 22 percent of women had been divorced.\14\
---------------------------------------------------------------------------
    \12\ National Center for Health Statistics, Monthly Vital 
Statistics Report, 1990 (Washington, D.C.: U.S. Department of Health 
and Humans Services). The divorce rate per 1,000 married women over 15 
rose from 9.2 to 14.9 to 22.6 during the decades ending 1960, 1970, and 
1980, respectively. The rate lowered slightly to 20.9 in 1990. Marriage 
and divorce statistics comparing the United States to twelve other 
nations can be found at www.ed.gov/pubs/Youth Indicators/indtab05.html.
    \13\ Rose M. Kreider and Jason M. Fields, ``Number, Timing, and 
Duration of Marriages and Divorces: Fall 1996,'' Current Population 
Reports, P70-80 (Washington, D.C.: U.S. Census Bureau, 2001), p. 9; 
hereafter cited as Kreider and Fields, ``Marriages and Divorces.''
    \14\ Kreider and Fields, ``Marriages and Divorces,'' p. 6.
---------------------------------------------------------------------------
    One result of high divorce rates is increased rates of remarriage 
and blended families, making this the second general trend in family 
structure. Nearly half of all U.S. marriages represent a remarriage for 
at least one spouse. Approximately one-third of all children will live 
in a remarried or cohabiting stepfamily before adulthood.\15\ Of the 20 
percent of men and 22 percent of women who reported being divorced at 
some point prior to 1996, more than half were remarried. As of 1996, 
12.6 percent of all men and 13.4 percent of all women had been or were 
in their second marriage.\16\ Most of those remarrying usually did so 
within about three years following a divorce. However, approximately 60 
percent of second marriages are likely to end in divorce.\17\
---------------------------------------------------------------------------
    \15\ Marilyn Coleman, Lawrence Ganong, and Mark Fine, 
``Reinvestigating Remarriage: Another Decade of Progress,'' Journal of 
Marriage and the Family 62 (November 2000): 1288-1307.
    \16\ Kreider and Jason M. Fields, ``Marriages and Divorces.''
    \17\ See Stepfamily Foundation, Inc. website at www.stepfamily.org.
---------------------------------------------------------------------------
                     MARRIAGE AND CHILD WELL-BEING

    There is substantial research evidence that family structure and 
family climate matter for the well-being of children. A recent 
literature review published by Child Trends summarizes several 
significant ways in which family structure affects child outcomes.\18\ 
Children in two-parent families with low levels of parental conflict--
especially two-parent biological families--exhibit the highest levels 
of well-being when compared to children in other family structures 
(e.g., single parent families, two-parent stepfamilies, divorced 
families, and cohabiting parents). Other family structures may 
introduce varying levels of family instability that influence a range 
of outcomes. For example, research indicates that families headed by 
unmarried mothers are more likely to experience higher levels of 
poverty, housing instability, teen and non-marital childbearing, and 
lower educational attainment. In the case of divorced families, there 
is greater prevalence of depression, antisocial and impulsive behavior, 
and school-related behavior problems.\19\
---------------------------------------------------------------------------
    \18\ Kristin Anderson Moore, Susan M. Jekielek, and Carol Emig, 
``Marriage from A Child's Perspective: How Does Family Structure Affect 
Children, and What Can We Do about It?'' (Washington, D.C.: Child 
Trends, 2002), hereafter cited as Moore, et al, ``Marriage from a 
Child's Perspective.''
    \19\ Moore, et al, ``Marriage from a Child's Perspective,'' 1-2; 
Nan Marie Astone and Sara McLanahan, ``Family Structure, Parental 
Practices, and High School Completion,'' American Sociological Review 
56 (1991): 309-320; Sara McLanahan and Gary Sandefur, Growing Up with A 
Single Parent: What Hurts, What Helps (Cambridge, MA: Harvard 
University Press, 1994).
---------------------------------------------------------------------------
    Remarriages often result in ``blended'' families with one or more 
stepchildren. Children in stepfamilies often face challenges in 
maintaining positive relationships with their non-custodial parent and 
integrating family life in the second marriage. While differences in 
outcomes between children in stepfamilies and first-marriage families 
are modest, children in stepfamilies do tend to exhibit poorer academic 
performance, lower socio-emotional adjustment, and more behavior 
problems. These differences appear to be most acute during the first 
two to three years of a remarriage and to diminish over time.\20\
---------------------------------------------------------------------------
    \20\ David H. Demo and Martha J. Cox, ``Families with Young 
Children: A Review of Research in the 1990s,'' Journal of Marriage and 
the Family 62 (November 2000): 876-895; hereafter cited as Demo and 
Cox, ``Families with Young Children.''
---------------------------------------------------------------------------
    When parental separation or divorce occurs, there usually is a 
strong benefit to both parents remaining involved in the child's life. 
Separation or divorce, however, jeopardizes the stability of parent-
child relationships. This is especially true for fathers, who are not 
typically the custodial parent during times of family instability or 
changes in family structure. Non-custodial father contact, while it may 
take many forms, appears to diminish over time (see Figure 1). Only 12 
percent of fathers maintained contact when they had been divorced 
longer than ten years. Along with these declines in parent-child 
contact come parallel declines in frequency of mother-father contact, 
father's influence on decision making, and child support payment after 
the fifth year of divorce.\21\
---------------------------------------------------------------------------
    \21\ J.A. Seltzer, ``Relationships between Fathers and Children Who 
Live Apart,'' Journal of Marriage and Family 53 (1991): 79-102.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    marriage and parental well-being
    Research also indicates that family structure is related to the 
well-being of adult parents in the family. For example, divorce and 
other marital disruptions are linked to mental health problems for 
young adults and non-custodial fathers. Such mental health problems 
include depression, psychological distress, chronic stress, and 
suicide. Many non-custodial fathers feel a loss of control, anxiety, 
guilt, sadness, and emptiness associated with estrangement from their 
former spouse and children.\22\
---------------------------------------------------------------------------
    \22\ A. Cherlin, P. L. Chase-Landsdale, and C. McRae, ``Effect of 
Parental Divorce on Mental Health,'' American Sociological Review, 63, 
no. 2 (1998): 239-249, as cited in Moore, et al, ``Marriage from A 
Child's Perspective.'' For the effects of divorce on non-custodial 
fathers, see Adam Shapiro and James David Lambert, ``Longitudinal 
Effects of Divorce on Father-Child Relationship Quality and Fathers' 
Psychological Well-Being,'' paper presented at the 1996 American 
Sociological Association Meeting in New York and the 1997 National 
Council on Family Relations' Annual Meeting in Washington, D.C. 
Available at: www.unf.edu/shapiro/jmffather.htm.
---------------------------------------------------------------------------
             economic stability and family well-being \23\
---------------------------------------------------------------------------
    \23\ Only a brief overview of the economic status of families is 
provided. The economic challenges facing American families and policy 
recommendations are explored more fully in Center for the Study of 
Social Policy, Improving the Economic Success of Families: 
Recommendations for State Policy (Washington, D.C.: Author, September 
2003).
---------------------------------------------------------------------------
Making Ends Meet in Low-Income Families
    Many families are having a difficult time making ends meet, a fact 
that is only partially reflected in official federal poverty figures. 
Several organizations analyze the needs of families in terms of ``self-
sufficiency standards'' or ``basic family budgets''--more realistic 
measures than the federal poverty level of how much income is required 
for a ``safe and decent standard of living.'' These standards are 
adjusted for different communities and types of families.\24\ This 
research indicates that the typical amount needed to support a family 
of four is almost twice the national poverty line ($17,463), and that 
29 percent of families nationwide fall below this basic budget 
threshold. Nearly 30 percent of families with incomes less than 200 
percent of the federal poverty line confronted at least one critical 
hardship (e.g., missing meals, facing eviction, having utilities cut 
off, lacking access to health care, or overcrowded housing) and over 72 
percent of these families suffered from at least one serious hardship 
(e.g., stress over providing meals, inability to pay a month's rent or 
mortgage, reliance on the emergency room for health care, and lack of 
adequate child care).\25\ In addition, the poor and the near-poor 
experience these hardships despite significant increases in the number 
of hours worked during the last decade.\26\
---------------------------------------------------------------------------
    \24\ Heather Boushey, Chauna Brocht, Bethney Gundersen and Jared 
Bernstein, Hardships in America: The Real Story of Working Families, 
(Washington, D.C.: Economic Policy Institute, July 2001), hereafter 
cited as Boushey et al, Hardships in America; see also Wider 
Opportunities for Women website at www.6strategies.com.
    \25\ Boushey et al, Hardships in America, 1-2.
    \26\ Lawrence Mishel, Jared Bernstein, and John Schmitt, The State 
of Working America, 2000-2001 (Washington, D.C.: Economic Policy 
Institute, 2001), 93-107.
---------------------------------------------------------------------------
    Even people with full-time, year-round jobs are not guaranteed an 
escape from poverty. In 1997, individuals working full-time year-round 
jobs made up 10.3 percent of the country's poor population. This is a 
higher percentage than in 1979. The trend is similar for poor families 
with children, with the proportion of working families that are poor 
increasing during the past two decades. In 2001, 2.8 million Americans 
were classified as working poor.\27\ Approximately 32.2 percent of non-
elderly persons live in low-income (e.g., up to 200 percent of the 
poverty level) families and 16.3 percent of these live in such families 
even though they have at least one full-time, full-year worker.\28\
---------------------------------------------------------------------------
    \27\ Ibid.
    \28\ Gregory Acs, Katherine Phillips, and Daniel McKenzie, 
``Playing By the Rules, But Losing the Game: Americans in Low-Income 
Working Families,'' In Kazis and Miller, Low-Wage Workers in the New 
Economy (Washington, D.C.: Urban Institute, 2001), 24-25.
---------------------------------------------------------------------------
    Families with young children also appear to have the greatest 
difficulty making ends meet. For example, families with children under 
six have greater needs for child care, higher basic budget needs, and 
are more likely to have incomes below 200 percent of the federal 
poverty level than are families with older children. Nationally, about 
40 percent of all families with at least one child below age six have 
incomes below 200 percent of the federal poverty level, compared to 29 
percent of families with children ages 6-17.\29\ And although families 
of young children, particularly lower-wage families, have increased 
their workforce participation in order to provide for their families, 
they often have not realized substantial increases in earned income. 
One study found that a two-parent one-income family earning $18,000 per 
year and choosing to add $12,000 per year through spousal income from 
work only gained $2,000 per year in disposable income. Lost benefits, 
increased taxes, and new childcare costs (estimated very conservatively 
at $4,500 for the two children) erased most of the spouse's 
supplemental earnings, leaving this family unable to meet their basic 
family budget despite increased work effort.\30\ This disparity in low-
income status among families with children suggests that special 
attention must be paid to providing economic relief to families with 
young children.
---------------------------------------------------------------------------
    \29\ Source: U.S. Census Bureau, Current Population Survey, 2002.
    \30\ C. Bruner and J. Goldberg, ``The Dilemma of Getting Ahead: 
Low-Waged Families, Child Care, Income Transfer Payment and the Need to 
Re-Examine Governments' Role'' (Des Moines, IA: Child and Family Policy 
Center, 2000).
---------------------------------------------------------------------------
Relationship Between Economic Stability and Family Structure
    During the 1990's, the link between family structure and family 
economic outcomes remained strong (see Figure 2). As might be expected, 
two-earner families fared better than single-earner families. Real 
(inflation adjusted) median income rose from 1980 to 1998 for two-
earner married families due largely to increased participation of both 
parents in the workforce, while single-earner married and father-headed 
families experienced small declines. A significant amount of two-earner 
income resulted from higher contributions to family income from female 
wage earners.\31\
---------------------------------------------------------------------------
    \31\ Lynn White, ``Economic Circumstances and Family Outcomes: A 
Review of the 1990s,'' Journal of Marriage and Family 62, no. 4 (2000): 
1035-1051.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While female-headed families experienced some slight income gains 
between 1980 and 1999, their average earnings lagged well behind their 
male counterparts and overall economic well-being appears to have 
worsened for these families. The benefits of economic expansion between 
1993-1999 were offset for working single mothers by contractions in 
public safety net and benefits programs. Rather than escaping poverty 
through work and improving economic opportunities, more families led by 
single mothers found themselves in deeper poverty in the latter half of 
the 1990s than was the case between 1993 and 1995.\32\
---------------------------------------------------------------------------
    \32\ Kathryn H. Porter and Allen Dupree, ``Poverty Trends for 
Families Headed by Working Single Mothers'' (Washington, D.C.: Center 
on Budget and Policy Priorities, 2001).
---------------------------------------------------------------------------
    On the whole, available research conducted in recent decades 
supports the premise that economic success is associated with better 
family outcomes, including more marriage, less divorce, greater marital 
happiness, and higher levels of child well-being. However, broader 
definitions of economic stability (e.g., educational attainment, 
wealth, career stability and progression, and home ownership) appear to 
better predict positive family well-being than a more narrow definition 
like family income alone.\33\ One large-scale comparative research 
project demonstrates narrow effects for income alone on child behavior, 
mental health, and physical health outcomes, but consistent effects on 
ability and achievement.\34\ The most generous estimate attributes 
approximately one-half of poor child outcomes in school performance, 
graduation, teen pregnancy, and young adult idleness to income; most 
studies estimate that income accounts for about 30 percent of changes 
in outcomes.\35\ These findings suggest that policies aimed solely at 
improving income will benefit a significant number of families, but are 
likely to be insufficient for addressing the complex needs of all 
families.
---------------------------------------------------------------------------
    \33\ White, ``Economic Circumstances and Family Outcomes.''
    \34\ G. J. Duncan and J. Brooks-Gunn, ``Income Effects Across the 
Life Span: Integration and Interpretation,'' in G. J. Duncan and J. 
Brooks-Gunn (Eds.), The Consequences of Growing Up Poor (New York: 
Russell Sage Foundation, 1997), 596-610.
    \35\ White, ``Economic Circumstances and Family Outcomes.''
---------------------------------------------------------------------------
    Focusing on economic success is one conceptual approach to 
considering the effects of income and class on family outcomes; 
considering the costs of economic disadvantage is another. The 
combination of poverty and one or more socio-demographic risk factors 
like single parenthood, low educational attainment, and four or more 
children poses significant risk for negative behavioral, emotional, and 
school outcomes for children in such families.\36\ For most children in 
poverty, multiple socio-demographic risk factors are likely to co-
occur, creating serious economic and social disadvantage. Family 
``turbulence,'' dramatic changes created in part by changes in family 
structure and family living arrangements, also impacts these 
outcomes.\37\ If economic advantage is associated with well-being, it 
is as clear that economic and social disadvantage are associated with a 
host of negative child and family results.
---------------------------------------------------------------------------
    \36\ Kristin Anderson Moore, Sharon Vandivere, and Jennifer Ehrle, 
``Sociodemographic Risk and Child Well-Being'' (Washington, D.C.: The 
Urban Institute, June 2000).
    \37\ Kristin Anderson Moore, Sharon Vandivere, and Jennifer Ehrle, 
``Turbulence and Child Well-Being'' (Washington, D.C.: The Urban 
Institute, June 2000). The authors include in their list of signs of 
``turbulence'': moving from one state to another, to a different home, 
and/or in with another family; two or more changes in parental 
employment; two or more changes in schools; and significant declines in 
parent or child health.
---------------------------------------------------------------------------
                    MARRIAGE COUNSELING AND SUPPORTS

    Research evidence indicates that the economic advantages of 
marriage (1) surpass that available to cohabiting couples, (2) can 
accrue to low-income couples, and (3) lower poverty among children and 
women.\38\ Consequently, state policy to strengthen families should 
have as one of its aims supporting strong marriages among adults who 
consider marriage an option. Such supports and promotion activities 
should be one part of a multi-pronged strategy to encourage stable and 
reduce the risk of unstable relationships.\39\ Public policy can 
support the healthy formation of families by providing marriage skills 
training and education opportunities.
---------------------------------------------------------------------------
    \38\ Robert I. Lerman, ``Marriage and the Economic Well-Being of 
Families with Children: A Review of the Literature'' (Washington, D.C.: 
The Urban Institute, July 2002).
    \39\ Robert Lerman, ``Should Government Promote Healthy 
Marriages?'' (Washington, D.C.: The Urban Institute, May 2002).
---------------------------------------------------------------------------
    One method for fostering healthier marriages, and for reducing 
marital conflict leading to harmful relationships and divorces, is to 
offer premarital education and marriage skills supports to couples. 
Because marital distress negatively impacts physical health, mental 
health, work productivity, child outcomes, and quality of life,\40\ 
investments in marital education and skill development programs are 
important for the health and well-being of families and communities.
---------------------------------------------------------------------------
    \40\ For the effects of marital distress on physical health, see 
for example, B. Burman and G. Margolin, ``Analysis of the Association 
Between Marital Relationships and Health Problems: An Interactional 
Perspective,'' Psychological Bulletin 112 (1992): 39-63; for a review 
of effects on mental health, see K. Halford and R. Bouma, ``Individual 
Psychopathology and Marital Distress,'' In K. Halford and H. J. Markman 
(Eds.), Clinical Handbook of Marriage and Couples Intervention (New 
York: Wiley, 291-321); and for effects on work productivity, see for 
example, M. S. Forthofer, H. J. Markman, M. Cox, S. Stanley, and R. C. 
Kessler, ``Associations between Marital Distress and Work Loss in A 
National Sample,'' Journal of Marriage and Family 58 (1996): 597-605.
---------------------------------------------------------------------------
    Despite the positive association of healthy marriages with higher 
work productivity and better physical and mental health, questions 
about the effectiveness of marriage education and skill-building for 
low-income adults have arisen. One nationally representative study of 
fragile families indicates that one-third of all unmarried parents face 
no serious barriers to marriage, and another one-third could benefit 
from premarital education and skill-building activities if they are 
coupled with employment and mental health supports. This same research 
found that approximately 13 percent of unmarried parents would be 
inappropriate participants in such programs due to a history of partner 
violence.\41\
---------------------------------------------------------------------------
    \41\ Center for Research on Child Wellbeing, ``Barriers to Marriage 
Among Fragile Families'' (Princeton, NJ: Princeton University, May 
2003).
---------------------------------------------------------------------------
    Effective premarital education programs can contribute to more 
positive family outcomes by prompting more serious deliberations about 
marriage among couples, reducing impulsive or poor decisions to marry, 
and helping couples learn of resources and supports should they need 
help in the future. In addition, existing research examining some 
marriage preparation programs reveals significantly positive outcomes. 
Specifically, couples completing counseling and skills programs that 
focus on strengthening protective factors (e.g., friendship, 
commitment, spiritual or religious connection), lowering risk factors 
(e.g., negative interaction and unrealistic expectations), and 
decreasing marital distress by helping couples learn to communicate 
when in conflict are significantly more likely to communicate more 
positively and less negatively; avoid breakups and divorce; exhibit 
higher levels of marital satisfaction; and exhibit less relationship 
aggression than couples who did not participate in such programs. These 
effects are stable in some follow-up studies for up to five years.\42\ 
In addition, positive outcomes are observable even when the programs 
are delivered in community-based settings and by clergy and lay 
leaders,\43\ thus enhancing the prospects for more widespread 
implementation through public private/partnerships.
---------------------------------------------------------------------------
    \42\ For a review of research on premarital education, see Scott M. 
Stanley, ``Making A Case for Premarital Education,'' Family Relations 
50 (2001): 272-280. For a meta-analytic review of experimental and 
quasi-experimental studies, see J. S. Carroll and W. J. Doherty, 
``Evaluating the Effectiveness of Premarital Prevention Programs: A 
Meta-Analytic Review of Outcome Research,'' Family Relations 52 (2): 
105-118.
    \43\ S. M. Stanley, J. J. Markman, L. M. Prado, P. A. Olmos-Gallo, 
L. Tonelli, M. St. Peters, B. D. Leber, M. Bobulinski, A. Codova, and 
S. W. Whitton, ``Community-Based Premarital Prevention: Clergy and Lay 
Leaders on the Front Lines,'' Family Relations 50 (1): 67-76.
---------------------------------------------------------------------------
    A number of states already provide funding for multiple community-
based marriage skill-building and pre-marital education services, 
resources, and activities to assist those adults and parents interested 
in marrying. Arizona, Florida, Indiana, Oklahoma, Utah, and Wisconsin 
are among the states that support and provide funding for premarital 
education or relationship skills workshops.\44\
---------------------------------------------------------------------------
    \44\ K. Gardiner, M. Fishman, P. Nikolov, S. Laud, and A. Glosser, 
State Policies to Promote Marriage: Preliminary Report (Washington, 
D.C.: U.S. Department of Health and Human Services, 2002); hereafter 
cited as Gardiner, et al, State Policies to Promote Marriage. The 
report is available at http://aspe.hhs.gov/hsp/hspparent.htm.
---------------------------------------------------------------------------
                               CONCLUSION

    Many American families are struggling to maintain strong and 
healthy bonds under the pressures of economic uncertainty and the 
stresses of a rapidly changing social context. With growing work 
demands and pressures, families are faced with difficult decisions 
about family interaction and routines. Unfortunately, many families are 
not able to balance the competing demands of family and work.
    The proposed Marriage Development and Pre-Marriage Development 
Accounts are promising tools for meeting the dual goals of fostering 
stronger families through marriage and helping such families begin with 
a more promising financial footing.

    Senator Brownback. Thank you. I've just been informed that 
we're going to vote at noon. I've got another panel I want to 
do so I am going to just ask a couple, if I could, very brief 
questions and go to my next panel.
    Reverend, as you talk to young black men in your church or 
within your community, what do they say to you about getting 
married, their desire to get married, the normative climate for 
them to get married in? What would be an incentive to them to 
get married?
    Reverend Anyabwile. Thank you for the question. I would 
observe a couple of things, I would observe young men who say 
they would like to get married, it's part of their ideal about 
what life should be like. Yet, in some ways, the ideal seems 
very much beyond what they think themselves capable of or able 
to do.
    Senator Brownback. Why? Why is it beyond?
    Reverend Anyabwile. Well, I think in many communities, many 
young men are wrestling with a sense of despair, you're 
wrestling with a sense of hopelessness, you're wrestling with a 
sense of lack of opportunity or possibility. And so that colors 
much of what you would think about in terms of the future.
    Senator Brownback. So he's saying, ``Look, I don't have a 
high school degree, I'm not going to be able to get a decent 
job, I can't support'', is that the hopelessness and despair 
you are talking about?
    Reverend Anyabwile. Well, that's one part of it. The other 
sort of reaction that you will get is from men who we might 
think are sort of marriageable, who are not marrying at the 
rates that we would hope, who would see themselves as having, 
as it were, kind of freedom, flexibility in relationships and 
et cetera, and are choosing to delay marriage oftentimes, in my 
opinion, for what would be less than good reasons. So I think 
you are encountering both apathy toward marriage and despair.
    Senator Brownback. For their own random pleasure is what 
you're saying?
    Reverend Anyabwile. More or less. But now that again, I 
want to say, is connected to our expectations around marriage. 
There are poor men all over the world who don't abandon their 
children and their wives. And this rate, at which we are 
looking at, is recent, it's more or less in my lifetime that we 
have, sort of, come to this point.
    So your proposal is timely and I think we should be 
aggressive about reestablishing expectations around marriage 
and around dating and how to select potential mates and et 
cetera.
    Senator Brownback. Dr. Smith, I want to in particular 
invite you and others on the panel, really anybody, to work 
with us on restructuring welfare incentives to incentivize 
marriage within the welfare proposals so we are trying to do 
some things to encourage marriage.
    But it seems to me, one of the best things we can do, as we 
try to encourage work within the welfare context, is to build 
within the context of the various programs, whether it's earned 
income tax credit or low income housing or these or that, an 
incentive for marriage. So there's not the economic 
disincentives, and there actually are incentives for marriage 
within the system.
    And it will be a bit of a tough discussion and debate, but 
I think the evidence is so strong that it'll be--actually, it 
will be a very good discussion to have with the Nation as we 
would put forward proposals within welfare reform that 
incentivizes marriage within the structure of it.
    Not just saying, okay, we are going to have a separate 
program of MDAs that encourage marriage development accounts, 
which would be fine. But also, within TANF, within earned 
income tax credit, low income housing, that there is actually 
an incentive to being married within those baseline programs, 
which I think would send a much better signal. It would be 
desirous to work with you and others on that possibility.
    Mr. Haskins. Senator, if I may, if I could speak.
    Senator Brownback. Yes.
    Mr. Haskins. This is an area of considerable academic 
interest and there's been a lot of studies recently summarizing 
some new big studies. And I think the bottom line is that the 
Tax Code is pretty good, primarily because of earned income tax 
credit. Most cohabitating couples who are low income will be 
better off in the Tax Code than if they are single.
    But benefits, food stamps, housing, and so forth, that's 
where the real penalties are. So it's the welfare programs 
themselves, not the Tax Code and not the earned income tax 
credit. I'll send your staff some of these articles.
    Senator Brownback. That will be good and just, okay, then 
how should we restructure it? What should we do? And let's just 
see about putting those in.
    Mr. Haskins. The most straightforward thing you do is to 
move up the phase out rates. The problem is the phase out 
rates. But the problem with that is that it is very, very 
expensive. This is a real conundrum. If you want it--it's 
really the only choice is to move up the phase out rates or to 
make the phase out rates slower so they phase out over a bigger 
period.
    But as you do that, you bring more people into the program 
and allow them to stay in the program longer, and it's very, 
very expensive. People have analyzed this and there's some 
literature on that as well. But it's very expensive. There's a 
Hobson's choice here.
    Senator Brownback. I'm glad to hear that there are ways we 
can work with that. Gentlemen, thank you very much and I 
appreciate that a great deal.
    The next panel will be Ms. Colleen Dailey, Executive 
Director of Capital Area Asset Building Corporation, it's a 
nonprofit organization which administers, would be a potential 
administrator of the proposed marriage development accounts 
program. Mr. George Williams, Executive Director, Urban 
Fathering Project, National Center on Fathering, Kansas City, 
Missouri, Mr. Curtis Watkins, President, East Capitol Center 
for Change, Washington, DC, accompanied by Mr. Winston Graham 
and his fiance, Ms. Saundra Corley, residents of Ward 7 
District, who plan to get married and if possible, open a 
marriage development account. So I'll look forward to hearing 
that as well.
    Ms. Dailey, thank you very much for joining us and I look 
forward to your testimony.

STATEMENT OF COLLEEN DAILEY, EXECUTIVE DIRECTOR, 
            CAPITAL AREA ASSET BUILDING CORPORATION, 
            WASHINGTON, DC
    Ms. Dailey. Thank you for having me. I am honored to speak 
today on behalf of the Capital Area Asset Building Corporation, 
also known as CAAB. And as you said, we would be one of the 
organizations entrusted with implementation of this program.
    You've heard a lot about the need for marriage development 
and marriage promotion, that's not my expertise, but I will say 
that I have learned a lot over the past few months from people 
who have already testified, but also just read a lot of 
research and I have been convinced that this is something 
that's definitely worthwhile, although it's not an area that 
CAAB has worked in before.
    I'll mainly be commenting just on the effectiveness of 
matched savings accounts as a poverty reduction strategy and to 
tell you a little bit about CAAB. CAAB was founded in 1997 to 
support the development of individual development accounts or 
IDAs in the District of Columbia. IDA programs couple financial 
education with a financial incentive in the form of a matched 
savings account to encourage low to moderate income individuals 
to invest in higher return assets. Specifically home ownership, 
postsecondary education and job training and small business 
development.
    CAAB works with nine community organizations in the 
District of Columbia to operate IDA programs currently. And to 
date, we have helped 269 D.C. residents to successfully reach 
their savings goals and purchase assets in our programs. That's 
resulted in 138 first time home purchases, 148 people 
furthering their education and 27 investing in small 
businesses.
    We have accumulated a lot of data and also powerful 
personal stories to provide evidence the IDAs give people 
greater control over their financial future and really change 
the way people think about money, savings and investment. And 
there's tons of national data to support this as well and there 
are hundreds of programs operating throughout the country.
    So to sum up, we know that this approach works and we are 
excited to have an opportunity to be able to expand it to more 
eligible residents in the District. In addition to providing 
money for 400 to 500 more accounts in the District of Columbia, 
your proposal does build on and improve some important ways 
that the existing Federal and District laws have provided 
funding for IDA programs and I just wanted to touch on those.
    First by raising the income guidelines for couples to 
$50,000, it will enable us to serve more couples and two parent 
families. In the history of CAAB's program, only 14 percent of 
our account holders have been married and I believe this is in 
large part due to the low income guidelines that we're 
currently operating under with our Federal funding and our 
District funding. And that would be for couples, it starts at 
$33,000 is the ceiling and then it goes up a few thousand for 
each additional household member.
    But given the current cost of living in the District and 
especially the cost of housing, it's really hard for us to be 
able to serve two parent families and this will enable us to do 
that.
    Second, by providing a more substantial match, as has 
already been noted, this proposal could enable us to help more 
IDA savers reach their goal of the home ownership. That's the 
number one desire of people who join our IDA program, is to 
become homeowners and escalating housing prices in the District 
and a slowing down in the production of affordable homes has 
really limited our ability to help people become first time 
home buyers.
    And on that note, if there's an opportunity for improvement 
in this bill, one thing that I would recommend is looking at 
the allowable purchase area. One thing that we have come up 
against in our current IDA program is that many people enter 
the program wanting to buy a home in the District, they fulfill 
all of their obligations, they reach their savings goal, they 
earn their match, which is currently $3,000 under our program 
and they look and they are unable to find a home that they can 
afford in the District.
    Having seen many savers come up against this, we've 
extended our purchase area to include the suburbs of Maryland 
and Virginia so that more people can buy homes. They can use 
the money that they've earned and they can continue to keep 
their jobs in the District and contribute to the local economy. 
So I would urge you to consider amending that in your proposal.
    Back to the positive, surely the marriage development 
accounts proposal has decreased CAAB's fundraising obligation 
and it provides us with adequate funds for planning, staffing 
and marketing this program. And all these things will really be 
critical to its successful implementation.
    Just to explain that a little bit further, the Federal 
funding that we currently receive through the Assets for 
Independence Act requires that for every dollar of Federal 
funding we use, we have to raise a dollar of non-Federal, 
either private or local government match dollars in order to 
use it.
    So while we have a $500,000 grant that comes with a 
$500,000 fundraising obligation, same with our District money, 
which is $200,000. So in this case, the proposal includes for 
every $3 of Federal money that we use, we must raise $1 and 
that still is an obligation, but it will allow us to spend less 
time fund raising and more time really planning and making sure 
this program is successful. And I also just want to thank you 
for providing enough funding for operating funds.
    That's something often that doesn't come with IDA programs, 
you get the matching money but you don't get the critical 
funding for implementation and that was included.
    One other factor, just to echo what others have said, I do 
believe that the evaluation component is really critical. One 
reason why IDA programs have expanded across the country and 
we've learned a lot from them, is because there has been a 
very, very strong evaluation component. CAAB participated in 
the first demonstration that began in 1997 with a national 
demonstration and there's a wealth of data around that, that's 
helped us to improve the operation.
    It is a concern of mine that--well, we talked about it. I 
don't know where the funding is going to come from and 
especially because this is a very new approach and I believe 
this is a necessary program, but whether or not it's 
successful, you need to be able to evaluate as you go along and 
change things and that's the important part of any pilot. So I 
would like to see more details and more funding devoted 
specifically to that.
    And last, I just want to say we are eager to get this 
program up and running and we greatly appreciate, Senator 
Brownback, that your staff, particularly Mary Dietrich, were 
willing to sit down with us, learn about our IDA program, 
listen to our concerns and make sure that she crafted a 
proposal that really meets not only your objectives, but ours 
as well. And I feel very positive about this and looking 
forward to working with Youth Capital Center for Change and the 
National Center on Fathering because IDA programs are really 
about partnership. And I think they bring an important 
component. And the financial incentives and the financial 
education aspect of it, those two things together, I think, 
really can help families to improve their financial standing 
and their household stability.
    Senator Brownback. Thank you.
    [The statement follows:]

                  Prepared Statement of Colleen Dailey

    Thank you for this opportunity to testify today in favor of the 
Marriage Development Accounts proposal introduced by Senator Brownback. 
My name is Colleen Dailey, and I am the Executive Director of the 
Capital Area Asset Building Corporation, also known as CAAB, one of the 
organizations that would be entrusted with implementation of this new 
program.
    CAAB is a non-profit, 501(3)(c) that provides low- to moderate-
income individuals and families with opportunities to improve their 
financial management skills, increase their savings and build wealth. 
Since 1997, the year the organization was founded, CAAB has supported 
the development of Individual Development Account (IDA) programs in the 
District of Columbia. IDA programs couple financial education with a 
financial incentive--in the form of a matched savings account--to 
encourage low- and moderate-income individuals to invest in high-return 
assets. CAAB IDAs support the goals of homeownership, career training, 
a college education, or small business start-up or expansion.
    The Marriage Development Account (MDA) proposal builds on more than 
a decade of research demonstrating that income and assets help low-
income families achieve self-sufficiency. CAAB was one of twelve 
organizations to participate in a national demonstration of IDAs, and 
the research findings from the American Dream Demonstration have 
influenced the development of several hundred IDA programs across the 
country.
    To date, a total of 269 D.C. residents have reached their savings 
goals and purchased assets in the CAAB IDA program: 138 have purchased 
their first home, 104 have invested in a college education or career 
training, and 27 have made small business investments. Together, these 
individuals saved about $460,000, earned $818,815 in matching funds, 
and made investments totaling more than $12 million. These and other 
data attest to the effectiveness of IDAs as a community economic 
development strategy; but beyond the numbers and dollar figures, 
current and past IDA savers credit the CAAB IDA program with changing 
the way they think about money, savings and investment, and giving them 
greater control over their financial futures.
    The Marriage Development Account (MDA) proposal is essentially a 
marriage of two economic development strategies: IDAs and marriage 
promotion. The former I know a great deal about, but the latter is new 
territory for me, as well as for CAAB. But I have listened and learned 
a lot over the past several months, from community leaders like Curtis 
Watkins of East Capitol Center for Change, from whom you will also hear 
today; from the Honorable Delegate Eleanor Holmes Norton, who has 
already spoken passionately about the need for marriage promotion 
initiatives; and from some of the country's best social researchers who 
have looked at various factors affecting and resulting from single 
parenthood in low-income communities and concluded that two-parent 
families provide the best circumstances for raising children. So while 
I am by no means an expert on the subject, I have listened to the 
experts and believe there is an important agenda here. And I am 
optimistic that the provision of IDAs in conjunction with marriage 
promotion and strengthening initiatives could lead to very positive 
outcomes in our community. So I look forward to working in partnership 
with the National Center on Fathering, East Capitol Center for Change, 
and other groups who are doing commendable work to strengthen marriages 
and families in the District of Columbia.
    Returning to the savings and asset development goals of this 
proposal, the MDA program, while modeled on our existing IDA program, 
has some important distinctions:
  --Target population.--CAAB IDAs are open to all individuals whose 
        household income does not exceed 85 percent of the D.C. median 
        income. MDAs would be available to married or engaged couples 
        whose combined income does not exceed $50,000, or single, 
        childless individuals whose income does not exceed $25,000.
  --Match rate and ceiling.--Individuals saving in a CAAB IDA earn 
        matching funds at a rate of either 2:1 or 3:1, depending on 
        their asset goal, for a maximum match of $3,000. Couples 
        qualifying for MDAs would earn a 3:1 match on up to $3,000 of 
        savings, for a maximum match of $9,000 in matching funds, and 
        individuals would earn a 3:1 match on up to $1,500 of 
        individual savings, for a maximum match of $4,500.
  --Non-federal matching funds.--CAAB currently receives IDA matching 
        funds from the U.S. Department of Health and Human Services and 
        the District of Columbia Department of Insurance, Securities 
        and Banking. Each of these grants comes with the stipulation 
        that every federal or local dollar must be matched by funds 
        from another jurisdiction or private source. The MDA proposal 
        carries a less stringent fundraising obligation, with the 
        stipulation that every three federal dollars must be matched by 
        one dollar from District or private sources.
    These differences represent opportunities for CAAB to bring 
financial education and savings and investment opportunities to a wider 
group of low- to moderate-income D.C. residents. For example, our 
traditional IDA program, while open to all income-eligible individuals, 
attracts primarily single parents (70 percent of all IDA savers), with 
married couples accounting for only 14 percent of our total IDA client 
base. The higher income guidelines for couples in the MDA proposal will 
enable us to serve a greater number of couples and two-parent 
households. As the research shows very well, financial stress is a 
leading cause of marital problems and family instability, so I see this 
as a great opportunity to provide couples and parents with financial 
training and skills that could alleviate some of this stress and lead 
to greater economic and family stability.
    Secondly, the provision of a more generous match will enable us to 
help more individuals reach their goal of homeownership. As housing 
prices continue to escalate in the D.C. region, fewer and fewer of our 
IDA savers are finding homes that they can afford based on their 
earnings, whatever special loans and subsidies they may qualify for, 
and a few thousand dollars of down payment money they've earned in the 
IDA program. As a result, we've seen our homeownership success rate 
decrease over the past couple of years, and we've allowed individuals 
who are unable to find affordable homes in the District to use their 
IDA funds for purchases in the nearby suburbs of Virginia and Maryland. 
While we'd like to be able to keep our IDA funds in the District, we 
don't believe it's fair to penalize homebuyers who wish to buy in the 
District but cannot afford to. The more generous match of $9,000 for 
couples and $4,500 for individuals should give MDA savers a better 
chance of purchasing homes in the District, but I would urge 
Subcommittee members to consider extending the home purchase area to 
the wider geographic region covered by our current IDA program. It is 
my hope that the District government will do more in the coming years 
to support the development of affordable housing, but until that 
occurs, I believe we have a duty to support homeownership for D.C. 
residents in areas that will allow them to keep their jobs in the 
District and continue to contribute to the local economy.
    Finally, I want to thank Senator Brownback for increasing the 
federal share of matching funds as part of this proposal. This 
effectively reduces the non-federal fundraising obligation for CAAB and 
ensures that we'll be able to hit the ground running in fiscal year 
2006. The MDA proposal has already gained the attention of potential 
investors from the private sector, and I'm confident that CAAB and its 
partners will be successful in attracting new supporters in the coming 
months. By providing a more substantial government match, the MDA 
proposal will allow us to devote more resources to the planning, 
marketing and implementation tasks that will be so important to the 
success of this program.
    In summary, CAAB is very pleased to be part of this new initiative 
to help strengthen marriages and families in the District of Columbia. 
We commend Senator Brownback for his work on this proposal and we look 
forward to working with East Capitol Center for Change, the National 
Center on Fathering and other partners to bring savings and investment 
opportunities to greater numbers of D.C. residents.
    Finally, I would be happy to answer questions from Subcommittee 
members regarding CAAB, IDAs, and our plans for implementing this MDA 
program should Congress approve it.

STATEMENT OF GEORGE R. WILLIAMS, EXECUTIVE DIRECTOR, 
            URBAN FATHER-CHILD PARTNERSHIP, NATIONAL 
            CENTER FOR FATHERING, KANSAS CITY, MO
    Senator Brownback. Mr. Williams, I have a note that 
President and CEO of National Center for Fathering, Ken 
Canfield, is here. Welcome, glad to have you here as well. Mr. 
Williams.
    Mr. Williams. Thank you, Chairman Brownback, for 
championing families. And I will honor the time limit. When I 
was 3 years old, an alarm sounded in the African-American 
community but no one took action. That was 40 years ago when 
then social scientist, the late Daniel Patrick Moynihan, 
sounded the alarm in the report, ``The Negro Family: The Case 
for National Action''. He tried to alert our country to a 
crisis in the black community that went to the very heart of 
its survival, the failing black family.
    He pointed out the signs of lower marriage and higher 
father absence rates. Yet leaders turned a deaf ear. The alarm 
has been re-sounded by groups such as the Morehouse Research 
Institute and the Seymour Institute. They agree that the impact 
of the decay of marriage and father presence has been enormous, 
resulting in higher poverty rates among black families, school 
failure among children, and the intergenerational transmission 
of high teen pregnancy rates and female-headed households.
    Social research has implicated fatherlessness as a key 
contributing factor in violence, drug use, criminal behavior 
and many other negative outcomes for children.
    Consider this statement: Father absence is a form of child 
abuse and neglect. As a man who shares the African heritage, 
and a husband of 20 years, a father of four, Executive Director 
of the National Center for Fathering's Urban Father-Child 
Partnership, an associate pastor and a marriage and family 
therapist, I say it is time to respond to this alarm with 
vigorous action.
    What kind of action? In 1890, 80 percent of African-
Americans were born to a married couple. That percentage 
remained high until 1960, when 75 percent of African-Americans 
were born into married couple families. Today, that percentage 
has dropped to 28 percent. Also, only 48 percent of black 
families are married mother-father couples compared to 83 
percent of white families.
    Unquestionably, one action required is training, to prepare 
for marriage and to strengthen existing marriages. Yet, looking 
deeper, an additional action is required.
    The issues affecting marriage and fatherhood are as diverse 
as they are complex. But the institutions of marriage and 
fatherhood are also inextricably linked. The generational 
breakdown of these two institutions has created a vacuum of 
healthy models for social learning in the black community.
    And in 7 years of working with urban fathers, I have 
found--and the data supports me--that most men are further from 
marriage than they are from fathering. The additional action 
required is to help men move closer to marriage through father 
training. Father training can give men the relational skills 
and motivation that they need to strengthen their connections 
to their children and their children's mother.
    And in the long term, as men are awakened to their 
fathering responsibilities, they are often drawn to marriage 
because of its benefits to them and their children. It has 
worked with dads in the urban core. LeOtis Brooks is an 
example. He was drawn to marriage through fathering. He had 
grown up under some bleak conditions. His father was killed 
when he was 3, and his mother, struggling to support five 
children, became an alcoholic.
    LeOtis escaped with his life, but as an adult turned to 
alcohol for another type of escape. He faced major challenges 
as he became the father of eight children by four different 
women, and one of the mothers sued him for unpaid child 
support. For years, he had never really been an involved 
father. His children needed much more than just money. We met 
LeOtis in one of our fathering classes as a result of his child 
support issues.
    This legislation will provide training to help men like 
LeOtis move closer to marriage through fatherhood. Our 
curriculum, Quenching the Father Thirst, provides the core 
training to train men to become responsible fathers/father 
figures that love, know and guide their children to success. 
This research-based curriculum is a blueprint for programming 
interventions with fathers. You cannot simply talk men out of 
something he's behaved his way into. You have to change the way 
he thinks about being a father, the way he feels about being a 
father, and what he does.
    The results of the Quenching the Father Thirst classes have 
received national attention. Since 1998, we've partnered with 
the Jackson County, Missouri prosecutor to help low-income dads 
who are in arrears with their child support reconnect with 
their kids and fulfill their responsibilities as a father. To 
date, Jackson County has invested $150,000 in father training 
for just over 200 low-income dads and has received over $1 
million in child support payments from those men. That's a 6:1 
return on investment, outstanding for any investment.
    Equally powerful are the stories of changed lives like 
LeOtis'. For LeOtis, the story ended happily when he got the 
help he needed as an alcoholic and an absent dad. LeOtis is now 
happily married to the mother of two of his children, and has 
good relationships with each of his eight children and their 
mothers. He has retained and applied what he heard in the 
fathering class, Quenching the Father Thirst.
    I close with the final statement of Moynihan's report, ``A 
Case for National Action'', which recommended that, ``The 
policy of the United States is to bring African-Americans to 
full and equal sharing in the responsibilities and rewards of 
citizenship. To this end, the programs of the Federal 
Government bearing on this objective shall be designed to have 
the effect, directly or indirectly, of enhancing the stability 
and resources of the African-American family. We can do 
something great for the children of today by responding to the 
alarm, so that 40 years from now they can look back and mark 
this step as the day our Nation really took action on behalf of 
families who are in need.''
    I believe this legislation is supportive of this policy, 
and I urge its passage into law.
    Senator Brownback. Thank you very much, Mr. Williams.
    [The statement follows:]

                Prepared Statement of George R. Williams

    Chairman Brownback, Ranking Member Landrieu, and Members of the 
Subcommittee: My name is George Williams: When I was three years old, 
an alarm sounded in the African American community but nobody took 
action. That was 40 years ago when then social scientist, the late 
Daniel Patrick Moynihan, sounded the alarm in the report, The Negro 
Family: The Case for National Action. He tried to alert our country to 
a crisis in the Black community that went to the very heart of its 
survival, the failing Black family. He pointed out the signs of lower 
marriage and higher father absence rates. Yet leaders turned a deaf 
ear.
    The alarm has been resounded by groups such as the Morehouse 
Research Institute and the Seymour Institute. They agree that the 
impact of the decay of marriage and father presence has been enormous, 
resulting in higher poverty rates among Black families, school failure 
among children, and the intergenerational transmission of high teen 
pregnancy rates and female-headed households. Social research has 
implicated fatherlessness as a key-contributing factor in violence, 
drug use, criminal behavior and many other negative outcomes for 
children. Father absence is a form of child abuse and neglect.
    As a man who shares the African heritage, and a husband of 20 
years, a father of four, executive director of the National Center for 
Fathering's Urban Father-Child Partnership, an associate pastor and a 
marriage and family therapist, I say it is time to respond to that 
alarm with vigorous action.
    What kind of action? In 1890, 80 percent of African Americans were 
born to a married couple. That percentage remained high until 1960, 
when 75 percent of African Americans were born into married couple 
families. Today, that percentage has dropped to 28 percent. Only 48 
percent of Black families are married mother-father couples compared to 
83 percent of White families.
    Unquestionably, one action required is training--to prepare for 
marriage and to strengthen existing marriages. Yet, looking deeper, an 
additional action is required.
    The issues affecting marriage and fatherhood are as diverse as they 
are complex. But the institutions of marriage and fatherhood are also 
inextricably linked. The generational breakdown of these two 
institutions has created a vacuum of healthy models for social learning 
in the Black community. And in seven years of working with urban 
fathers, I have found--and the data supports me--that most men are 
further from marriage than fathering.
    The additional action required is to help men move closer to 
marriage through father training. Father training can give men the 
relational skills and motivation that they need to strengthen their 
connections to their children and their children's mother(s). And in 
the long term, as men are awakened to their fathering responsibilities, 
they are often drawn to marriage because of its benefits to them and 
their children. It has worked with dads in the urban core.
    LeOtis Brooks is an example of a dad who was drawn to marriage 
through fathering. LeOtis grew up in bleak conditions. His father was 
killed when LeOtis was three, and his mother, in her struggle to raise 
five children alone in the inner city, turned to alcohol. When LeOtis 
was eight, his brother was killed on his 7th birthday. LeOtis escaped 
with his life, but as an adult turned to alcohol for another type of 
escape.
    LeOtis faced major challenges as he became the father of eight 
children by four different women, and one of the mothers sued him for 
unpaid child support. For years, he had never really been an involved 
father; his children needed much more than just money. We met LeOtis in 
one of our fathering classes as a result of his child support issues.
    This legislation will provide training to help men like LeOtis move 
closer to marriage through fatherhood. Our curriculum, Quenching the 
Father Thirst, provides the core training to train men to become 
responsible fathers/father figures that love, know and guide their 
children to success. This research-based curriculum is a blueprint for 
programming interventions with fathers. You cannot simply talk men out 
of something they have behaved their way into; you have to change the 
way they think about being a father, the way they feel about being a 
father, and what they do as a father.
    The Quenching the Father Thirst curriculum was designed to: provide 
a framework for understanding the role of the father; address the 
systemic barriers to fathering; give skills to enhance the father-
mother relationship; and provide training in specific skills for men to 
become the fathers their children need.
    The results of our Quenching the Father Thirst classes have 
received national attention. Since 1998, we've partnered with the 
Jackson County (Missouri) Prosecutor to help low-income dads who are in 
arrears with their child support reconnect with their kids and fulfill 
their responsibilities as a father. To date, Jackson County has 
invested $150,000 in father training for just over 200 low-income dads 
and has received over $1,000,000 in child support payments from those 
men. That's more than a 6:1 ROI (Return On Investment)--outstanding for 
any investment. Equally powerful are the stories of changed lives like 
LeOtis'.
    For LeOtis, the story ended happily when he got the help he needed 
as an alcoholic and an absent dad. The prescription was an alcohol 
treatment program and the Quenching the Father Thirst class. LeOtis is 
now happily married to the mother of two of his children, and has good 
relationships with each of his eight children and their mothers. He has 
retained and learned to apply what he heard in the fathering class.
    I close with the final statement of Moynihan's report, A Case for 
National Action, which recommended that

    ``The policy of the United States is to bring [African Americans] 
to full and equal sharing in the responsibilities and rewards of 
citizenship. To this end, the programs of the Federal government 
bearing on this objective shall be designed to have the effect, 
directly or indirectly, of enhancing the stability and resources of the 
[African American] family.''

    You can do something great for the children of today by responding 
to the alarm, so that forty years from now they can look back and mark 
this step as the day our nation really took action on behalf of 
families who were most in need. I believe this legislation is 
supportive of this policy, and I urge its passage into law.

STATEMENT OF CURTIS WATKINS, PRESIDENT, EAST CAPITOL 
            CENTER FOR CHANGE, WASHINGTON, DC
    Senator Brownback. Mr. Watkins, welcome.
    Mr. Watkins. Good Morning, Mr. Chair, my name is Curtis 
Watkins, I'm President of the East Capitol Center for Change 
(ECCC). We are a youth and family development agency that 
serves Wards 7 and 8 of the District of Columbia.
    I would like to extend my thanks to the subcommittee for 
inviting me to express my views on the importance of the 
marriage development account appropriation and the role that 
East Capitol Center would play in its implementation.
    Mr. Chair, our mission is to assist youth, adults and 
families to develop productive, happy and spiritually centered 
lives, thus leading to the ability for that individual to make 
a difference in their own community and teach others to do the 
same. We have been offering after-school programs, in-school 
mentoring and character development programs for youth ages 7 
to 24 in some of Washington, DC's distressed neighborhoods 
since 1996.
    Much of that time, we have worked closely with local 
churches and other community volunteers to promote marriage, 
youth abstinence, family stability, and the successful reentry 
of former prisoners to the neighborhoods we serve. And, in 
conjunction with local employers, banks, and partner agencies 
who are members of the Capital Area Asset Building, we have 
helped youth and family heads of household to obtain 
employment, improve financial literacy, and accumulate assets.
    One of the things that I'm faced with in doing the work 
that we do, because we do it from a grassroots perspective, is 
facing some hard realities of seeing families whose children 
are growing up with limited options. One example of a family of 
six, the mother is living in public housing, the father has a 
drinking problem, the grandmother is smoking crack, and the 16 
year old daughter recently had a baby.
    The daughter is showing signs that she has tendencies to go 
toward street behavior. The 16 year old brother is cussing 
everyone out in the household and telling them that he is going 
to kill everybody, all the MFs. The daughter informed me that 
if her brother came in her direction, she would take him out.
    These are some of the harsh realities that are hitting us 
on a daily basis. The 12 year old brother, which we were 
personally working with in the juvenile court system had all 
the support systems set up in place including our agency. He 
was released and 1 day later, this young man was rearrested for 
riding in a stolen car that struck someone and killed them.
    These situations are common in the families we serve and 
are increasing. Something needs to change, it's no longer 
enough to tell people what not to do, we must show them through 
positive role models of what they can do that are just like 
them in order for them to be better.
    The ``marriage gap'' among American families and 
particularly pronounced in the lower income African-Americans 
who reside in these communities within Ward 7 in which I grew 
up and ECCC serves today.
    The institution of the African-American families has been 
hard hit by socioeconomic conditions brought on by years of 
institutional racism and even public policies that have 
discouraged the formation of two-parent low-income families.
    As of the year 2000, 41 percent of African-American adults 
were married, compared to 60 percent of whites and 60 percent 
of Hispanics.
    In 1963 when Dr. Martin Luther King, Jr. gave his ``I Have 
a Dream'' speech, more than 70 percent of all African-American 
families were headed by married couples. Today, that number has 
dropped well below 50 percent. Allow me to pause 1 minute to 
say an important disclaimer.
    ECCC and its partners have no intention of advocating 
marriage or helping to preserve marriages in situations where 
it would be unwelcome, unhealthy, or ill-advised, especially 
where abusive or high conflict marriages exist or would be the 
likely result. Marriage may not be for everyone.
    In my opinion, far too many people are getting married for 
the wrong reasons. In African-American communities, we really 
see the good and bad side of marriage. However, given the 
evidence on marriage's benefits as it's been stated today, 
children in these communities are better off and will not shy 
away from this subject where it's appropriately and prudently 
raised.
    This movement would allow African-American people to make 
better choices, before jumping the broom. We don't celebrate 
marriage enough or provide precounseling and postcounseling 
from a community-based perspective. East Capitol Center for 
Change's helping marriage and strong family initiative would 
support the purpose of this legislation by working with a 
strong and varied array of partners to provide events, also 
workshops, public education activities, counseling and other 
supportive services to primarily low income, and African-
American neighbors that we serve in the Washington, DC 
community.
    Our overarching goals are to generate a pro-marriage 
movement throughout Ward 7 and Ward 8, which would extend to 
the citywide movement. Goal two, would be to promote and 
sustain healthy relationships among Ward 7 adults, families and 
youth.
    Goal three would be to reduce the stress that impedes 
marriage, that leads to an overrepresentation of low income 
African-American children experiencing the social ills like 
poverty, substance abuse, and childhood mental illness. More 
relevant to this legislation in hand, ECCC is a partner to the 
African-American Healthy Marriage Initiative, and the D.C. 
Metro Healthy Marriage Coalition.
    As such, as a grassroots organization, culturally competent 
approach, to foster healthy marriages and responsible 
fatherhood, improving child well being and strengthening 
families with the African-American community, the appropriation 
funds would enhance and add components to our organization's 
ability to service, along with our partners, workshops on 
marriage and parenting from the African-American family life 
education program, and workshops on, and access to resources to 
address domestic violence.
    We recognize, by the way, that this component is essential 
to the safe and appropriate implementation of this work. 
Character building and access to this curriculum within the 
schools, churches, and community base settings. Activities, 
services, and support groups for fathers. Referrals to highly 
qualified pastors and other marriage counseling services where 
couples have high conflict. Connection to employment which 
would address this poverty issue, and also financial literacy 
and free tax services we offer through our referrals. An array 
of strong partners such as the East of the River Family 
Strengthening Collaborative, Marshall Heights Development 
Organization, the Capital Area Asset Building, and the D.C. 
Cash Campaign.
    In closing, I would too thank you for the opportunity to 
appear before you today. Also I would like to thank our 
partners and friends for being here today and agreeing to be 
part of the beacon of hope for our community.
    I hope my testimony has helped to make clear why I believe 
this appropriation is an important step in the right direction 
for the fragile children and families my agency serves. The 
board of the East Capitol Center for Change, most of whom, like 
myself, are current or former members of the communities we 
serve, would be proud to play a role in this movement. This is 
a movement. This is not a program because what's going on in 
our communities is so drastic that if we don't do something to 
help our people, our people are going to go even further down.
    Today, what I would like to do is introduce an engaged 
couple. Sandy and Winston who are truly achieving against the 
odds. They live in that same community that I talked about, 
that family. They are one of the community's positive role 
models that can demonstrate that it can work, that they are 
willing to get married and they will share their story with you 
also Mr. Chair.
    [The statement follows:]

                  Prepared Statement of Curtis Watkins

    Good Morning, my name is Curtis Watkins, President of the East 
Capitol Center for Change (ECCC), a youth and family development agency 
that serves Wards 7 and 8 of the District of Columbia. I would like to 
extend my thanks to the Committee for inviting me to express my views 
on the importance of the Marriage Development Account appropriation and 
the role ECCC would play in its implementation.
    I'm facing some hard realties of seeing families whose children are 
growing up with limited options. One example is a mother who is living 
in public housing, the father has a drinking problem, the grandmother 
is smoking crack, and the 16 year old daughter recently had a baby. The 
daughter shows signs of an unhealthy life style of the street behavior. 
The 16 year old brother informed the family that he is going to kill 
everyone in the household using profanity, ``kill all you MF's.'' The 
daughter informed me, and I quote ``I will take him out.'' The 12 year 
old brother was released from juvenile court with all support system in 
place including ECCC. He was rearrested one day later on Friday for 
riding in a stolen car who killed someone. These situations and 
families are increasing--something needs to change, ``it's no longer 
enough to tell people what not to do, we must show them through role 
models just like them.''
    Over the last four decades of the 20th century, very large 
increases in non-marital childbearing and cohabitation, as well as 
higher rates of divorce and separation--have had a direct and profound 
impact on the well-being of American children.
    In 1998, only 68 percent of all children in the United States lived 
with both parents (Lang and Zagorsky 2000), and more than half of all 
children can now expect to spend at least some part of their childhood 
in a single-parent family. In 2000, two in five children in families 
headed by single women (39.7 percent) were poor compared to only 8.1 
percent of children in married families (U.S. Census Bureau 2000). 
(cited from Lerman, ``Marriage and the Economic Well-being of Families 
with Children: A Review of the Literature,'' 2002).
    The ``marriage gap'' among American families is particularly 
pronounced for low-income African-Americans who reside in distressed 
communities like those found in Ward 7 where I grew up and which ECCC 
serves today. The institution of the African-American family has been 
hard hit by socioeconomic conditions brought on by years of 
institutional racism and even public policies that have discouraged the 
formation of two-parent low-income families. As of the year 2000, 41 
percent of African-American adults were married, compared to 62 percent 
of Caucasians and 60 percent of Hispanics. In 1963 when Dr. Martin 
Luther King, Jr. gave his ``I Have a Dream'' speech, more than 70 
percent of all African-American families were headed by married 
couples. Today, that number has dropped to well below 50 percent. 
(Kinnon, 2003).
    These changes in family structure have caused a great deal of 
increases in child poverty between the early 1970s and the 1990s 
(Lerman 1996; Sawhill 1999). In addition, the shift toward single-
parent families may have contributed to a higher incidence of other 
social problems, such as higher rates of school dropouts, alcohol and 
drug use, adolescent pregnancy and childbearing, and juvenile 
delinquency (Lang and Zagorsky 2000; McLanahan and Sandefur 1994). 
(cited from Lerman, ``Marriage and the Economic Well-Being of Families 
with Children: A Review of the Literature.'' 2002).
    Thus, advocates, providers, policymakers, and citizens who are 
concerned about the well-being of our country's most fragile children, 
must pursue programs that address poverty and family instability. In 
particular, we must consider the large body of evidence that points to 
the economic and social gains associated with marriage. Analysis of the 
Urban Institute's National Survey of America's Families confirms that 
being in a married two-parent family protects against hardship, no 
matter what the family's immigration status, race, education level, and 
member ages. Fewer than 4 percent of married two-parent families could 
afford their rent and regular meals. The rates were 2 to 3 times higher 
for cohabitating and single parents. Single parenthood remains a 
crucial factor in keeping child poverty at alarmingly high 1970s 
levels. Even after poverty rates declined during the 1990s, 35 percent 
of families headed by single mothers experienced poverty while about 6 
percent of married couples with children had incomes below the poverty 
line. Research shows that the benefits of marriage extend to low-
income, less-educated women. A second earner need only provide $2,000-
$3,700 annually to be a financial plus to the household. (cited from 
www.urban.org/content/IssuesInFocus, accessed 8-4-05).
    Ultimately, research has shown that one of the greatest obstacles 
to permanent unions among low-income people is not lack of desire, but 
lack of resources. While marriage has come to be thought of as a 
romantic institution over the course of the last two centuries, the 
much longer history of marriage indicates that marriage has primarily 
been a vehicle for improving the fortunes of one's children and one's 
self. In some ways, the intent of this appropriation and my agency's 
``Healthy Marriages--Strong Families'' Initiative is to change the old 
negative concept of marriage to a positive concept by helping low-
income couples to see that even modest gains in the income or assets of 
their potential partner translate into much greater well-being for 
their family overall, provided that the relationship is stable and 
positive in the first place.
    Allow me to pause here for a moment for an important disclaimer: 
ECCC and its partners have no intention of advocating marriage or 
helping to preserve marriages in situations where it would be 
unwelcome, unhealthy, or ill-advised, especially where abusive or high 
conflict marriages exist or would be the likely result. Marriage may 
not be for everyone. In my opinion, far too many people are getting 
married for the wrong reasons. In African-American communities, we 
really see the good and bad side of marriage. However, given the 
preponderance of the evidence on marriage benefits for children and 
communities, neither will we or do we shy away from this subject where 
it can be appropriately and prudently raised. This movement would allow 
African American people to make better choices, before jumping the 
broom. We don't celebrate marriage enough or provide pre and post 
counseling from a community based effort.
    ECCC's ``Healthy Marriages--Strong Families Initiative,'' (HMSF) 
will support the purposes of this legislation by working with a strong 
and varied array of partners to provide events, performing arts, 
workshops, public education activities, counseling and other supportive 
services to specifically promote and strengthen marriage for the 
predominantly low-income and African-American neighbors we serve in 
some of Washington D.C.'s most distressed neighborhoods. Our 
overarching goals and objectives are to:
    Goal 1: Generate a Pro-Marriage Movement throughout Wards 7 & 8 
Communities.
    Objective 1.a: For single adults: in general, and with a high-
priority on reaching single fathers and mothers: inspire the attitude 
that marriage is a viable and good option for people in loving, 
committed relationships.
    Objective 1.b: For Ward 7 Youth, grades 6-12: secure commitments to 
abstinence and promote the attitude that marriage is the preferable 
context within which to raise children.
    Goal 2: Promote and Sustain Healthy Relationships Among Ward 7 
Adults, Families and Youth.
    Objective 2.a: For married and engaged couples in Ward 7: promote 
strong, healthy marital relationships.
    Objective 2.b: For non-custodial fathers: promote healthy bonds 
with their children and with the mothers of their children, as 
appropriate.
    Objective 2.c.: For parents, in general: promote good parenting 
practice and strong bonds with their children.
    Goal 3: Reduce the Stressors That Impede Marriage, Reduce the 
Quality of Family & Intimate Relationships, and Lead to Over-
Representation of Low-Income African-American Children and Families in 
Social Ills like Poverty, Substance Abuse, and Childhood Mental 
Illness.
    Objective 3.a: For parents, fathers and mothers: increase their 
income and employment.
    Objective 3.b: For all target population groups listed in the 
objectives above: increase financial literacy and assets.
    Objectives 3.c: For all target population groups listed above: 
provide education on and referral to direct services, as appropriate, 
on substance abuse, domestic violence, and mental health.
    The results we expect to achieve and measure for the families we 
touch directly (2-5 year horizon) and East-of-the-River families 
overall (5-10 year horizon) are:
  --Pro-marriage attitudes among youth and adults--increase
  --Percent of children living with two married parents--increases
  --Births and birth rates to teens and unmarried women--drop
  --Divorce rates for couples--drop
  --Income for heads of household--rise
  --Employment rate for heads of household--rise
  --Financial literacy and assets for youth, singles, and heads of 
        households--rise
  --Percent of children living in poverty--drops.
    ECCC is not new to this work. Our mission is to assist youth, 
adults, and families to develop productive, happy, and spiritually-
centered lives, thus enabling each individual to make a difference in 
their community and to teach others to do the same. We have been 
offering after-school, in-school, mentoring, and character-development 
programs to youth ages 7-24 in some of Washington DC's most distressed 
neighborhoods since our inception in 1996. For much of that time, we 
have worked closely with local churches and other volunteers to promote 
marriage, youth abstinence, family stability, and the successful 
reentry of former prisoners to the neighborhoods we serve. And, in 
conjunction with local employers, banks, and partner agencies who are 
members of the Capital Area Assets Building, we have helped youth and 
family heads of household to obtain employment, improve financial 
literacy, and accumulate assets.
    Most relevant to the legislation at hand, ECCC is a partner in the 
African-American Healthy Marriage Initiative and the D.C. Metro Healthy 
Marriage Coalition. As such, we offer a grass-roots and culturally-
competent approach to fostering healthy marriage and responsible 
fatherhood, improving child well-being, and strengthening families 
within the African-American Community.
    For example, over the last several years, we have hosted a 
successful community leadership exposition on marriage and various 
``Celebration of Black Marriage'' events. Over the summer, we were 
awarded a modest capacity-building partnership grant from the 
``Marriage and Family Initiatives'' of the FranklinCovey Institute. We 
used this partnership to host an ``Eight Habits of Successful 
Marriage'' Certification Event, for 25-Ward 7 and DC-wide Marriage 
Coalition facilitators in mid-September. These newly trained 
facilitators will, in turn, give workshops on the Eight Habits of 
Successful Marriage throughout Ward 7 and the D.C. area using their own 
networks and resources to do so--thus creating a multiplier effect of 
leaders in the marriage movement we intend to ignite for Wards 7, 8 
and, perhaps, the District of Columbia as a whole.
    To these activities and our already robust array of youth mentoring 
and family strengthening activities, we will use our share of the 
appropriation funds to enhance and add components as follows:
  --A Public Education Campaign on the Benefits of Marriage and Healthy 
        Relationships.
  --Workshops on Marriage and Parenting from the African- American 
        Family Life Education Program.
  --A ``Marriage Savers'' Campaign and a ``True Love Waits'' Teen 
        Abstinence Campaign--in conjunction with our partner 
        congregations.
  --Strategies adapted from the ``Marriage Savers Program'' to help 
        Unmarried Parents Consider Marriage, when appropriate.
  --Workshops On and Access to Resources to Address Domestic Violence. 
        (We recognize, by the way, that this component is essential to 
        the safe and appropriate implementation of this work.)
  --Various Family Fun Nights and Date Nights for Committed Couples.
  --An annual retreat for Married Couples.
  --Character-building and abstinence curricula for youth in school-, 
        church-, and community-based settings.
  --Activities, Services, and Support Groups to Fathers.
  --Referrals to highly-qualified pastors and other marriage counseling 
        resources when couple conflict is high.
  --Connections to the employment, financial literacy, and free tax 
        preparation services we offer directly and through referral to 
        an array of very strong partners like the East River Family 
        Strengthening Collaborative, the Marshall Heights Community 
        Development Organization, Capitol Area Asset Building and the 
        D.C. CASH Campaign.
    Thank you for the opportunity to appear before you today. I hope my 
testimony has helped to make clear why I believe this appropriation is 
an important step in the right direction for the fragile children and 
families my agency serves. The Board, staff, and volunteers of the East 
Capitol Center for Change, most of whom, like myself, are current or 
former members of the communities we serve, would be proud to play a 
role in this movement.

STATEMENT OF WINSTON GRAHAM ACCOMPANIED BY SAUNDRA CORLEY

    Senator Brownback. Please, welcome. I look forward to 
hearing from you.
    Mr. Graham. How are you doing?
    Senator Brownback. I'm doing well, thank you.
    Mr. Graham. How are you doing?
    Senator Brownback. I'm doing great, thanks.
    Mr. Graham. Well, we wrote a little something here. My name 
is Winston Graham. And we--okay, wait a minute. We live with 
our four children in Benning Terrace public housing complex in 
Ward 7. My fiance, Saundra, will tell you a little more about 
why we're getting married on November 26, and then I will 
finish our testimony by telling you why we support an 
appropriation for marriage development counseling in the 
District of Columbia, especially for residents of low income 
neighborhoods like ours.
    Senator Brownback. Congratulations on getting married in 
November, that's fabulous.
    Ms. Corley. Thank you. Winston and I have been together for 
20 years. And we have four children together. We live in the 
Benning Terrace community located in Ward 7. For many of these 
years, drinking and drugs were a part of our lives. Looking 
back now, it feels like we were asleep and not living. Things 
changed for us when we started going to our church, Peace 
Fellowship and accepted help from organizations like East of 
the River, Clergy-Police Community Partnership, and East 
Capitol Center for Change.
    Like a lot of my neighbors, I used to be suspicious of 
anyone trying to help the community. But that changed when a 
mentor came to befriend my daughter in the winter of 2005. I 
saw that she really wanted to help us. And it made a 
difference. I then started to ask for help for myself and my 
whole family. I started working and getting involved in my 
community, and our family started going to church regularly.
    Other positive changes became a regular part of our lives, 
and it was wonderful. We finally felt that we were on the right 
track. Before these changes, we just were aware that there was 
another way. There is no way to have a vision for something if 
you've never seen it. Winston and I want to get married, 
because we want to continue to make progress in our lives. We 
love each other dearly and we love the Lord. We want the 
basics, the norm in life, the whole family coming to the dinner 
table at the same time.
    Neither of us had stable families growing up. But we've 
seen it so much at our church, and we want it for ourselves 
now. Also our kids are asking questions such as why are you and 
daddy not married. I have no answers to those questions. I want 
to show them something better. Our neighbors who have known us 
for years do not understand our wanting to get married. Just 
the other day a neighbor asked me, why are you getting married. 
Why do you want to get married. Why now, after 20 years?
    I told her that we want the norm, and that we want to 
progress in life together. She asked, are you forcing him to 
get married? And I said no, he wants to get married as well. 
Then she asked me again, why are we getting married. And I told 
her that we love each other. She just could not comprehend the 
need to get married. It's so unusual in our neighborhood.
    Now that the date is coming and we're saying, I've got the 
dress, we are inviting you, our neighbors are starting to 
adjust to what is out of the norm for them. But they still 
can't believe it. I know in their minds they are saying that we 
are risking welfare money. Many have been in the system so long 
that they just can't see another way. Just like we could not 
see another way, until we were introduced to new friends and 
new realities and new possibilities.
    Mr. Graham. There are two reasons why we support this 
program. The first is that we think it would help others to 
decide to get married and our community needs more positive 
examples of family. Just like Sandy and I learned from the 
examples of other people, we want to be examples to others.
    Most people don't call our neighborhood Benning Terrace--
they call it simple city. All of you may know that name too. 
It's a name that speaks to the ghetto mentality that is common 
in our neighborhood. We are a close knit family. People in our 
community rarely see our children without me or Sandy. A lot of 
kids don't have father figures, so they watch me closely.
    As Sandy told you, some of our neighbors see our decision 
to get married as a terrible mistake. We definitely have their 
attention. They are watching us like they watch the drug 
dealers and the negative things that happen in our 
neighborhood. They say things to me like, you're the father of 
the year for the third year in a row. They tell Sandy how lucky 
she is that I am such a good father.
    But I know that that is what I'm supposed to do for my 
children. The community needs more people to stand up and say 
I'm tired of living like this. Folks complain about the drug 
dealers but they won't help the police stop them. All they 
really want is more peace and harmony. But it's hard for those 
to see how to get it.
    As Sandy told you, we used to be like that. I know that if 
one person stands up, then others will step up. I don't mind 
being the first to do it. Since we've made changes, some other 
people have made changes too. We really--we really see that. 
This appropriation would help us and others to be good examples 
for our community.
    The second reason we support this appropriation is that we 
would like to continue our progress as a family by getting a 
house in our community. We love our community and we want to 
stay in the area, but we want our place, with a backyard and 
less chaos. We think this will be good for our children and use 
as a--wait a minute.
    Good for our children and just help other people, you know, 
show them like we got help and we saw what was good, and we 
just want to share it and keep moving forward. And just put our 
faith in the Lord and these programs to help us.
    Senator Brownback. God bless you for doing it. And I'm 
delighted you're here to talk about it. And I want to wish you 
all the best. You struck me with the number of neighbors that 
are saying--I guess basically what they're saying to you is 
you're crazy doing this. Getting married.
    Now, what's the basis of that analysis? You mention an 
economic basis apparently that they just think you're going to 
lose all your welfare assistance, and is that the basic part of 
it?
    Ms. Corley. That's a big part of it, yes. They feel like 
once you get married and a man comes in the household, that a 
woman has--she's going to lose a lot of her benefits. And 
benefits that we are receiving, they're not much. There are not 
many, so to say--to lose any of it is just unthinkable to them. 
Unthinkable.
    Senator Brownback. For this man----
    Ms. Corley. For this family as a whole. If this income is 
not coming into the house or is broken by any means, it's 
just--at this point, getting the income that they receive, it's 
hard enough to get by with that. So to think that, you know, 
any part of that will be taken away, it's unthinkable.
    Mr. Graham. Or just relying on the man himself to take care 
of the family.
    Senator Brownback. Is unthinkable.
    Ms. Corley. It's unthinkable for some of them.
    Senator Brownback. Now, why that? Why is it--I guess is 
this a bird in the hand, two in the bush----
    Mr. Graham. It's been their trend so long.
    Ms. Corley. Yeah. I mean----
    Mr. Graham. I guess they are scared to step out there.
    Ms. Corley. Right. This has been the norm for so long in 
our community. I mean, there are mothers with their children, 
with their children, that are having children that are in the 
neighborhood. They've been there for 10 years or longer, you 
know. These low income properties are usually transitional. But 
they seem to be stuck in this mentality as where as they need 
this income, these benefits. They--this is the way it's been 
done for so long, they don't see any other way.
    Senator Brownback. And they're just struggling day to day 
to get by.
    Ms. Corley. Exactly.
    Senator Brownback. And so now you're risking the meager 
amount you've got coming in, and that just seems----
    Ms. Corley. Makes no sense to them at all.
    Senator Brownback. Ridiculous that you're stepping out to 
do something like that.
    Ms. Corley. Right.
    Senator Brownback. Mr. Graham, father of the year, which I 
would take as a great honor. Why are you so unusual in your 
community?
    Mr. Graham. I'm all my kids' father. They don't have two or 
three different fathers like a lot in our community. And I 
spend a lot of time with my kids, take them to school, picking 
them up, and people see me. And the store owners, I really 
stick out in the community, not by choice. But just because I 
do.
    [The statement follows:]
        Prepared Statement of Saundra Corley and Winston Graham
    Mr. Graham: Hello, my name is Winston Graham and this is my fiance, 
Saundra Corley. We live with our four children in the Benning Terrace 
public housing complex in Ward 7. My fiance will begin by telling you a 
little more about who we are and why we intend to get married on 
November 26, 2005. Then I will finish our testimony by telling you why 
we support an appropriation for marriage development accounts in the 
District of Columbia, especially for residents of low-income 
neighborhoods like ours.
    Ms. Corley: Winston and I have been together for 20 years and we 
have four children together. We live in the Benning Terrace community 
located in Ward 7. For many of these years, drinking and drugs were a 
part of our lives. Looking back now, it feels like we were asleep and 
not really living.
    Things changed for us when we started going to our church, Peace 
Fellowship, and accepted help from organizations like East of the River 
Clergy Police Community Partnership and East Capitol Center for Change. 
Like a lot of my neighbors, I used to be suspicious of anyone trying to 
help the community, but that changed when a mentor came to befriend my 
daughter in the winter of 2005. I saw that she really wanted to help 
us, and it made a difference. I then started to ask for help for myself 
and my whole family. I started working and getting involved in my 
community, and our family started going to church regularly. Other 
positive changes became a regular part of our lives, and it was 
wonderful. We finally felt like we were on the right track. Before 
these changes, we just weren't aware that there was another way. 
There's no way to have a vision for something you've never seen.
    Winston and I want to get married because we want to continue to 
make progress in our lives. We love each other dearly and we love the 
Lord. We want the basics, the norm in life--the whole family coming to 
the dinner table at the same time to eat. Neither of us had stable 
families growing up, but we've seen it so much at our church and we 
want it for ourselves now. Also, our kids are asking questions such as 
``Why are you and Daddy not married?'' I have no answers to those 
questions. I want to show them something better.
    Our neighbors who have known us for years do not understand our 
wanting to get married. Just the other day, a neighbor asked me, ``Why 
do you want to get married? Why now after 20 years?'' I told her that 
we want the norm and that we want to progress in life together. She 
asked, ``Are you forcing him to get married?'' I said, ``No, he wants 
to get married as well.''Then she again asked me why we were getting 
married, and I told her that we love each other. She just could not 
comprehend the need to get married. It's so unusual in our 
neighborhood. Now that the date is coming and we're saying, ``I've got 
the dress and we're inviting you,'' our neighbors are starting to 
adjust to what is out of the norm for them, but they still can't 
believe it. I know in their minds they are saying that we are risking 
welfare money. Many have been on the system so long that they just 
can't see another way. Just like we could not see another way until we 
were introduced to new friends, a new reality, and new possibilities.
    Mr. Graham: There are two reasons why we support this 
appropriation. The first is that we think it will help others decide to 
get married and our community needs more positive examples of family. 
Just like Sandy and I learned from the example of other people, we want 
to be examples to others.
    Most people don't call our neighborhood Benning Terrace. They call 
it Simple City--all of you may know that name, too. It's a name that 
speaks to the ghetto mentality that is common in our neighborhood.
    We are a close knit family. People in our community rarely see our 
children without Sandy or me. A lot of kids don't have father figures, 
so they watch me closely. As Sandy told you, some of our neighbors see 
our decision to get married as a terrible mistake. We definitely have 
their attention. They are watching us just like they watch the drug 
dealers and the negative things that happen in our neighborhood. They 
say things to me like, ``There he go, father of the year for the third 
year in a row.'' They tell Sandy how lucky she is that I am such a good 
father, but I know that that is what I am supposed to do for my 
children.
    The community needs more people to stand up and say, ``I'm tired of 
living like this!'' Folks complain about the drug dealers, but they 
won't help the police stop them. All they really want is more peace and 
harmony, but it's hard for them to see how to get it. As Sandy told 
you, we used to be like that.
    I know that if one person steps up, then others will step up. I 
don't mind being the first to do it. Since we've made changes, some 
other people have too--we're already seeing that. This appropriation 
will help us and others to be good examples for our community.
    The second reason we support this appropriation is that we would 
like to continue our progress as a family by getting a house in our 
neighborhood. We love our community and want to stay in the area, but 
we want our own place with a backyard and less chaos. We think this 
will be good for our children and us as a family. It's a path that 
makes sense and it's what we dream about: getting married, having a 
home, and making a better future for our children.
    Up to now, we've been traveling on a very hard road, but the road 
we are on now is so much better. We used to talk past each other, and 
now we talk to each other. We didn't use to talk to anyone because we 
were mentally stuck, worrying about keeping up with what everyone else 
thought and did. We were stuck in the mud for years, not going up or 
down. But now I can honestly say we've got traction. It's little things 
that are different, like experiencing new things together. But mostly 
it's about being around people who want the best for us. The pressure 
is off from everyday confusion.
    Ms. Corley: Yes, we have such peace now. God bless you for wanting 
to help us and other people find and keep that peace. Thank you for 
hearing our testimony.
    Mr. Graham: Yes, thank you for listening. God bless you.

    Senator Brownback. Well, let me get Mr. Williams involved 
in this, because you made a really striking statement. I 
thought that you bring dad's into the marriage--excuse me. You 
bring husbands into the marriage as dads. And I took that to 
mean that it's easier to get somebody to be a dad, than a 
husband. Is that--am I understanding you correctly?
    Mr. Williams. Well, there are more fathers out there than 
there are husbands.
    Senator Brownback. Okay. But am I misstating this, that 
it's easier to get a guy to be a dad than it is to be a 
husband.
    Mr. Williams. Okay. Oh, yes. I understand what you're 
asking. And it's just--what I see fathering is all about is 
relational skills. And for a lot of men, it's easier to build 
relational skills with their children.
    Senator Brownback. With their children than with their----
    Mr. Williams. That translate to--yeah.
    Senator Brownback. Than with their wives or significant 
other person.
    Mr. Williams. Right. Right. And a lot of the men that I've 
worked with in our programs, particularly through the fathering 
counseling, there's that tension. Men and women in 
relationships.
    And one way I found that--helping the fathers to focus on 
the needs of their child for their mother is a way to, you 
know, start building that bridge. Relationally, with the 
relational skills, but also for them to have incentive to build 
their relationship, or strengthen their relationship with the 
mother.
    Senator Brownback. So you're using the piece of getting the 
father to be a dad, to teach relational skills there between 
the dad and his children, to be able to build the relational 
skills between a husband and wife.
    Mr. Williams. Yes, that's true.
    Senator Brownback. And is that working pretty well?
    Mr. Williams. Yes. It's remarkable to see the turnaround in 
the relationships with the men. As you know, their relationship 
with their child grows, that it's like, okay, I understand how 
important this woman is to their child. And so there needs to 
be a building of a relationship between myself and her.
    Senator Brownback. It just seems backward to me.
    Mr. Williams. Yes.
    Senator Brownback. That, you know, you should first build 
the relationship to the spouse. And then that one goes to the 
children. But you're backing into it.
    Mr. Williams. And it's not for every condition, but it's 
for a lot of relationships that are already out there, where a 
lot of men who have children by women, but don't have a 
relationship with the women. This is the way to build that 
relationship.
    Senator Brownback. So you support this analysis. That you 
back into it, somewhat through the children into building the 
relationship as spouses.
    Ms. Corley. Well, there's so many situations now, of single 
mothers, or just maybe dating, still dating or whatever, and 
not with the father of the child or whatever. So say that a 
father comes into a relationship with a women who has about 
four children or three or two, or whatever.
    And there has to be some way to--even if he has some type 
of relationship with the mother, and wants to be with them, has 
to be some other importance to get him to grasp how important 
it is--this family unit is.
    And if it is going through the children at this point, 
which is backward, then there are a lot of situations like 
that.
    Senator Brownback. I saw a program that some people were 
starting up about encouraging mothers to marry the father of 
their children. And I forget the name of it. But there was a 
recent news article on this. And it looked like the impetus of 
it was for the mother to recognize the significance of the dad 
to the children. And the dad to recognize the significance of 
the mother to the children.
    And again, it was children centric, on getting the push to 
take place. It just seems a different thought process, but then 
I can see the motivation for doing that.
    Mr. Williams. And the reason, once again, is because for a 
lot of men, marriage is not on the radar. And, you know, 
because they don't understand the importance.
    Senator Brownback. But their children are on the radar.
    Mr. Williams. Yes. And so it's kind of like flying under 
the radar. Because once they see how important--or once they 
establish the relationship with the child and see how important 
the role of the mother is, okay, there's room for thoughts of 
marriage now.
    Senator Brownback. We've got to head for a vote that's on. 
This has been very illuminating. This is something that a lot 
of us policymakers have been struggling with for a long time. 
Because we know if we can get children raised in stable 
marriages, things improve. That is a given by all the data on 
it.
    So we're trying to figure out how to encourage stable 
relationships. Marriages, men and women, raising kids. Just 
good old fashioned stuff, and just how you do that. So maybe 
these are ways to do that.
    And I also think from what you're saying, Ms. Corley, we're 
going to have to look in our welfare reform proposals, to 
really incentivize marriage within the base funding. Because I 
can see exactly what you're saying. They're just thinking day 
to day. I don't care about the house and the white picket fence 
right now. I've just got to get enough food on the table for 
tonight. And so you've got to incentivize them to dream.
    And I think we ought to be able to do that, so that people 
wouldn't look at you and say you're crazy, but rather would 
look at you and say you're crazy not to do that.
    It's been very helpful. We'll have this proposal up on the 
floor in a couple weeks. I hope it will pass, we're trying to 
build a track record on this. I hope it's something that's 
going to be considered even in the Katrina--post-Katrina work 
where we work on issues of poverty, where we do talk about the 
reestablishment of the institution of marriage. Particularly in 
poor neighborhoods to try to improve that.
    I was looking at the numbers the other day, that since we 
started the war on poverty, our percentage of people in poverty 
has not changed, it's still roughly about 13 percent. In spite 
of us spending $3 or $5 trillion, an enormous price tag since 
the 1960s and the percentage hasn't changed.
    But you can see this break up of the family unit. And a lot 
of it, you have to think is just based right around that. That 
we've put a lot of money into the system. Culturally we've 
discouraged the very foundations so it's like you're building a 
house on a crumbling foundation and it's just not going to 
stand if you can't get the bases right on it.
    But we appreciate you being here. Any additional thoughts 
or how we can design things will be helpful and well received 
as well. Thank you very much. The hearing will remain open for 
the requisite number of days if people choose to add additional 
statements in the record.
    [The information follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you, Chairman Brownback, for not only holding this 
important hearing today, but also for authoring this new 
program in the District of Columbia Appropriations Bill and 
working to strengthen the institution of marriage here in the 
Federal City.
    The Senate has heard in testimony in various committees 
over the last few years during a different debate on marriage 
that the institution of marriage is a very positive thing. A 
good marriage facilitates a more stable community, allows kids 
to grow up with fewer difficulties, increases the lifespan and 
quality of life of those involved, reduces the likelihood of 
incidences of chemical abuse and violent crime, and contributes 
to the overall health of the family. It is no wonder so many 
single adults long to be married, to raise kids, and to have 
families branching out in every direction.
    Marriage has also been the foundation of every civilization 
in human history. It crosses all bounds of race, religion, 
culture, political party, ideology, and ethnicity. As an 
expression of this cultural value, the definition of marriage 
is incorporated into the very fabric of civic policy. It is the 
root from which families, communities, and government are 
grown. Marriage is the one bond on which all other bonds are 
built.
    I am pleased to see that the subcommittee is attempting to 
combat the marriage issue that the District of Columbia is 
struggling with by providing this incentive to save. I am very 
supportive of all types of incentives for savings and 
investment. The United States has one of the lowest savings 
rate among industrialized countries. It is no secret that 
savings benefits families. It helps to provide stability so 
they can deal with a setback like a hurricane, job loss, or 
medical problem, as well as being able to pay for education, 
start a business, or buy a house.
    I am proud that Senator Brownback has made the development 
of Marriage Development Accounts a priority for our 
subcommittee, and look forward to monitoring their progress in 
the District of Columbia when the legislation is made official.

                                ------                                

                       Letter From Legal Momentum
                                            Legal Momentum,
                                   Washington, DC, October 6, 2005.
Senator Sam Brownback,
724 Hart Senate Office Building,
Washington, DC 20510.
Senator Mary Landrieu,
303 Hart Senate Office Building,
Washington, DC 20510.
Delegate Eleanor Holmes Norton,
2136 Rayburn House Office Building,
Washington, DC 20515.
    Dear Senators Brownback, Landrieu and Delegate Norton: We, the 
undersigned organizations are writing to express our deep concern 
regarding several provisions in S. 1446, the pending District of 
Columbia Appropriations bill, 2006. On their face, these provisions 
appear to discriminate against single parents and their children, and 
for that reason are likely unconstitutional. The bill includes a 
``Marriage Development and Improvement'' program for the District of 
Columbia initiated by Senator Brownback. The Brownback marriage program 
would create Marriage Development Accounts (MDA's), which would provide 
matching grants to low income couples who put aside savings to buy a 
house, pay tuition, or start a business. Pre-Marriage Development 
Accounts would also be created for engaged couples without children and 
for childless single individuals aged 16-22. So, while married couples 
(with or without children), childless couples and single individuals 
would be eligible for the grants, widowed, divorced and other single 
parents would not be.
    While we strongly support government assistance for low income 
parents, we feel that such assistance should be available to all 
families, regardless of marital status. To do otherwise is to engage in 
discrimination against single parents and their children, and to 
further disadvantage a group of children who, through no fault of their 
own, have only one parent, or whose parents are unmarried. Due to 
divorce, separation, death, abandonment or because their parent never 
married, more than half of all children growing up today will spend 
some of their childhood in a single parent family. But single parent 
families are no less worthy than married parent families and they 
should not be treated as second class citizens. Indeed, the Supreme 
Court held more than thirty years ago that discrimination against 
unmarried families is an unconstitutional denial of the equal 
protection of the laws. New Jersey Welfare Rights Organization v. 
Cahill, 411 U.S. 619 (1973).
    The undersigned groups would also like to express concern that the 
``Marriage Development and Improvement'' program does not appear to 
factor in the incidence of domestic violence among low income families. 
We know that as many as 60 percent of women receiving welfare have been 
subjected to domestic violence as adults (compared to 22 percent of 
women in the general population).\1\ For abused women and their 
children, marriage is not the solution to economic insecurity, yet pro 
marriage policies or programs, particularly those that carry 
significant financial incentives, may coerce battered women into 
staying in dangerous situations. We are also concerned that government 
promotion of marriage initiatives will have the consequence of 
stigmatizing single and divorced parents, which will de facto make it 
more difficult for some women to choose to leave unhealthy 
relationships permanently.
---------------------------------------------------------------------------
    \1\ Tolman, R. and Raphael, J. (2000) A Review of Research on 
Welfare and Domestic Violence www.ssw.umich.edu/trapped/pubs/html.
---------------------------------------------------------------------------
    As many of us have stated in relation to marriage promotion funding 
being proposed as part of TANF reauthorization, in this time of 
deficits and budget cuts, it is irresponsible to spend money in this 
manner, particularly when the federal government is already spending 
over $100 million on unproven marriage promotion programs.\2\ Further, 
government involvement in highly personal decisions such as marriage is 
a departure from our most basic principles; a threat not just to poor 
women, but to all citizens who believe that liberty entails making 
fundamental personal decisions without governmental interference. We 
therefore urge that Senator Brownback's program not be funded unless 
its discriminatory features are completely eliminated.
---------------------------------------------------------------------------
    \2\ http://www.legalmomentum.org/issues/wel/WhatAlready.pdf.
---------------------------------------------------------------------------
            Sincerely,
                    9to5, National Assn of Working Women; Alternatives 
                            to Marriage Project; American Federation of 
                            State, County and Municipal Employees 
                            (AFSCME); Break the Cycle (Washington, DC); 
                            Center for Family Policy and Practice; 
                            Coalition Against Poverty; Coalition for 
                            Social Justice; Committee to Aid Abused 
                            Women; Community HIV/AIDS Mobilization 
                            Project (CHAMP); D.C. Coalition Against 
                            Domestic Violence (Washington, DC); D.C. 
                            Rape Crisis Center (Washington, DC); Fair 
                            Budget Coalition (Washington, DC); Family 
                            Violence Prevention Fund; GenderWatchers; 
                            Institute for Women's Policy Research 
                            (IWPR); Jewish Women International; Legal 
                            Momentum; Los Angeles Coalition to End 
                            Hunger & Homelessness; National Center on 
                            Domestic and Sexual Violence; National 
                            Council of Jewish Women; National Council 
                            of Women's Organizations (NCWO); National 
                            Network of Abortion Funds; National Network 
                            to End Domestic Violence; National 
                            Organization for Women (NOW); National 
                            Women's Alliance; National Coalition 
                            Against Domestic Violence (NCADV); New 
                            Mexico Religious Coalition for Reproductive 
                            Choice; Northwest Settlement House 
                            (Washington, DC); Ohio Empowerment 
                            Coalition; Sasha Bruce Youthwork, Inc. 
                            (Washington, DC); Statewide Poverty Action 
                            Network of Washington State; Stop Family 
                            Violence; Welfare Warriors of Milwaukee 
                            Wisconsin; Whitman-Walker Clinic Legal 
                            Services (Washington, DC); Wider 
                            Opportunities for Women; Women's Committee 
                            of 100; Working for Equality and Economic 
                            Liberation (WEEL); YWCA USA; Zorza, Joan, 
                            Esq., Editor, Domestic Violence Report & 
                            Sexual Assault Report.
                                 ______
                                 
    Prepared Statement of the Corporation for Enterprise Development

     D.C. MARRIAGE DEVELOPMENT ACCOUNTS BASED ON PROVEN SUCCESS OF 
                    INDIVIDUAL DEVELOPMENT ACCOUNTS

    CFED would like to commend Senator Sam Brownback (R-KS) for his 
initiative in utilizing the Individual Development Account concept to 
help District residents build assets and create stronger families. This 
measure will provide much-needed funding to support asset building in 
the District's low-income communities. CFED encourages Congress to 
include as many District residents as possible in this effort.
    The Senator's proposal builds on more than a decade of research 
proving that income and assets help low-income families achieve self-
reliance. For more than a decade, CFED pioneered and promoted matched-
savings accounts called Individual Development Accounts (IDAs) as a 
financial savings product that helps low-income working Americans build 
appreciating assets. IDAs are most commonly used for buying a first 
home, acquiring a college education or job training, or starting or 
expanding a small business.
    Modeled on IRAs, IDAs provide an incentive to working families to 
save their earnings, invest in their communities, and become 
participants in the mainstream economy. For every dollar a family 
saves, it receives a matching amount ranging from 50 cents to $4. 
Currently, there are 500 IDA programs in the United States that serve 
more than 20,000 savers. IDAs are based on the belief that savings and 
asset accumulation is largely a matter of structure and incentives, not 
merely personal preferences.
    Senator Brownback's proposal would provide a grant of $1.5 million 
to the Capital Area Asset Building Corporation (CAAB) to provide 
matched savings accounts to married couples and youth and young adults 
ages 16-22 without children. The grant would provide a generous match 
(up to $9,000 for couples and $4,500 for individuals) with $3 of 
federal funds and $1 of non-federal match funds for every $1 saved by a 
participant.
    To date, CFED's research has noted that only one-third of savers 
nationally were married. In the District of Columbia, only 14 percent 
of CAAB's IDA savers are married. The vast majority of adult IDA savers 
are single women with children. CFED's research has not studied changes 
of marital status due to the holding of assets. We are looking forward 
to learning if the accumulation of assets and greater financial 
security leads to a larger percentage of married IDAs savers.
    In the past few years, there has been a great deal of momentum in 
providing matched-savings accounts to youth. We are pleased that this 
initiative provides financial education and savings opportunities to 
young people. Our research demonstrates that youth who are approaching 
the time they can actually spend the money accumulated in their IDAs 
save more regularly and consistently.
    We encourage Congress to continue testing various approaches to 
enable all Americans to build assets.

                         CONCLUSION OF HEARING

    Senator Brownback. The hearing is recessed.
    [Whereupon, at 12:05 p.m., Thursday, October 6, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
